           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2000
       FINANCIAL STATEMENTS

     00-AUD-09-52        June 27, 2001




        Office of Inspector General

                 *******

    Federal Communications Commission
                                               OFFICE OF INSPECTOR GENERAL
                                                                              MEMORANDUM




DATE:          June 27, 2001

TO:            Chairman
               Managing Director
               Chief Financial Officer

FROM:          Inspector General

SUBJECT:       Audit of the Federal Communications Commission’s
               Fiscal Year (FY) 2000 Financial Statements


This letter transmits Clifton Gunderson LLP’s (hereafter referred to as “CG-LLP”) report on its
FY 2000 financial statement audit of the Federal Communications Commission (FCC) and the
results of the Office of Inspector General’s (OIG) review thereon.

At the direction of the Department of the Treasury, FCC prepared consolidated financial
statements in accordance with Office of Management and Budget (OMB) Bulletin No. 97-01,
Form and Content of Agency Financial Statements, as amended, and subjected them to audit.
The Chief Financial Officers Act of 1990 (Public Law 101-576 referred to as the “CFO Act”),
amended, requires the FCC OIG, or an independent external auditor as determined by the
Inspector General, to audit agency financial statements in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. Under a contract monitored
by the OIG, CG-LLP, an independent public accounting firm, performed the audit of FCC’s FY
2000 financial statements.


OIG Evaluation of CG-LLP’s Audit Performance

To fulfill our audit responsibilities under the CFO Act for ensuring the quality of the audit work
performed, we conducted a review of CG-LLP’s audit of FCC’s FY 2000 financial statements in
accordance with Government Auditing Standards and OMB Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.
Specifically, we:

       •      reviewed CG-LLP’s approach and planning of the audit
       •      evaluated the qualifications and independence of its auditors
       •      monitored progress of the audit at key points
       •      examined working papers and audit documents to evaluate compliance with
           Government Auditing Standards
       •      reviewed CG-LLP’s audit reports to ensure compliance with Government
           Auditing Standards and OMB Bulletin No. 01-02, and
       •      performed other procedures we deemed necessary.

Based on the results of our review, we determined CG-LLP planned, executed, and reported the
results of its audit of FCC’s FY 2000 financial statements in accordance with applicable auditing
standards. Therefore, in our opinion, CG-LLP’s work provides a reliable basis for the firm’s
opinion on FCC’s FY 2000 financial statements. Based on our review of the audit, we concur
with CG-LLP’s finding of reportable conditions related to internal control and instances of
noncompliance with applicable laws and regulations. Accordingly, we concur with its reports
thereon.


Opinion on the Financial Statements

CG-LLP issued an unqualified opinion on FCC’s FY 2000 Consolidated Financial Statements.
CG-LLP opined, the Principal Statements and related notes present fairly, in all material
respects, in conformity with U. S. generally accepted accounting principles, FCC’s assets,
liabilities, and net position; net cost; changes in net position; budgetary resources; reconciliation
of net cost to budgetary obligations; and custodial activity as of September 30, 2000 and for the
year then ended.


Matters Pertaining to Effectiveness of Internal Control Identified During the Audit

In performing its internal control testing of controls necessary to achieve the objectives in OMB
Bulletin No. 01-02, CG-LLP identified matters relating to significant deficiencies in the design
or operation of FCC’s internal control that, in its judgement, could aversely affect FCC’s ability
to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Specifically, these matters where categorized as
material weaknesses and reportable conditions per definitions of the American Institute of
Certified Public Accountants.

Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relating to the financial statements may

                                                  2
occur and not be detected within timely period by the employees in the normal course of
performing their assigned functions. CG-LLP identified material weaknesses in the areas of:

   •   Financial Reporting
   •   Cost Accounting System
   •   Universal Service Fund and Telecommunication Relay Service Fund Financial Reporting
   •   Loans Receivable and Related Accounts, and
   •   Information Technology.

CG-LLP identified additional reportable conditions not considered to be material weaknesses.
Other reportable conditions include:

   •   Review and Finalize Written Internal Control Documentation for Financial and
       Administrative Operations
   •   Improve Internal Controls over Certain Accounts Receivable
   •   Improve Supporting Documentation and Controls over Property and Equipment
   •   Improve Controls over Accounts Payable
   •   Performance Goals and Results, and
   •   OMB Circulars No. A-127 and A-130 Reviews.


Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to the
agency. To obtain reasonable assurance about whether FCC’s financial statements are free of
material misstatements, CG-LLP performed tests of compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts and certain other laws and regulations specified in
OMB Bulletin No. 01-02, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996. As appropriate, CG-LLP limited its tests of compliance
to these provisions and it did not test compliance with all laws and regulations applicable to
FCC.

CG-LLP’s tests disclosed instances of noncompliance with specific laws and regulations
required to be reported under Government Auditing Standards and OMB Bulletin No. 01-02 as
follows:

   •   Chief Financial Officers Act of 1990
   •   Debt Collection Improvement Act of 1996
   •   Government Performance and Results Act of 1993, and
   •   Federal Financial Management Improvement Act of 1996.

In accordance with generally accepted government auditing standards, the Reports of the
Independent Auditor prepared by CG-LLP are dated February 9, 2001, the last day of audit
fieldwork.
                                             3
Should you or your staff have any questions, please contact me or Thomas Bennett, Assistant
Inspector General for Audit, on (202) 418-0470. We appreciate the courtesies and cooperation
extended to Clifton Gunderson LLP and to the OIG staff during the conduct of the audit and
review.




                                           H. Walker Feaster, III
                                           Inspector General


Attachment




                                              4
TABLE OF CONTENTS




TRANSMITTAL MEMORANDUM


SECTION I              INDEPENDENT AUDITOR’S REPORT

      Opinion on the Financial Statement                                         2


SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL

      Material Weaknesses:

      I.       Financial Reporting                                               2

               A. Develop an Integrated Financial Management System              3

               B. Establish and Maintain an Adequate
                  Audit Trail Used in Preparing the Financial Statements         4

               C. Correct and Update Federal Financial
                  System Setup and Posting Model Definitions                     5

               D. Improve Analysis of Budgetary Accounts                         6

               E. Record Activities Timely and
                  Prepare and Analyze Financial Activity                         7

               F. Formalize Financial Reporting Processes and
                  Responsibilities in the Preparation of Financial Statements    8

               G. Inadequate Discussion in
                  Management’s Discussion and Analysis                           9

               H. Combination of Reportable Conditions
                  May Materially Impact Financial Statements                    10

       II.     Cost Accounting System                                           15

       III.    Universal Service Fund and
               Telecommunications Relay Service Fund Financial Reporting        18




00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                          Page i
                       COMMISSION’S FISCAL YEAR 2000 FINANCIAL STATEMENTS
TABLE OF CONTENTS



      IV.      Loans Receivable and Related Accounts                           21

               A. FCC Current Loan Subsidiary Ledger System is Inadequate      21

               B. Reconcile General Ledger to the Subsidiary Ledger Balances   24

               C. Implement Direct Loan System to
                  Account for All Events in a Loan Cycle                       25

               D. Loan Documentation Needs Improvement                         26

      V.       Information Technology                                          29

               A. FCC Is Not in Compliance with OMB Circular
                  No. A-130 Requirement for a Comprehensive Security Plan      29

               B. FCC Needs Improved Controls to Protect Its Information       31

               C. FCC Needs to Accelerate Efforts to
                  Develop and Test its Contingency Plans                       32

      Reportable Conditions:

      VI.      Review and Finalize Written Internal Control
               Documentation for Financial and Administrative Operations       36

      VII.     Improve Internal Controls over Certain Accounts Receivable      38

               A. Regulatory Fees                                              38

               B. Application-Processing Fees                                  39

      VIII.    Improve Supporting
               Documentation and Controls on Property and Equipment            42

               A. Inadequate Supporting Documentation                          42

               B. Incorrect Dollar Values in the Property Records              42

               C. Some Capitalized Costs
                  Not Distinguished from Non-Capitalized Costs                 43

               D. Property Reconciliations Not
                  Performed for Most of Fiscal Year 2000                       43




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                          Page ii
                      COMMISSION’S FISCAL YEAR 2000 FINANCIAL STATEMENTS
TABLE OF CONTENTS


               E. Documentation Was Not Readily Available for Examination   44

               F. Documentation Did Not Demonstrate that Software
                  Maintenance is Accurately Identified and Expensed         44

       IX.     Improve Controls Over Accounts Payable                       47

       X.      Performance Goals and Results                                49

       XI.     OMB Circulars No. A-127 and A-130 Reviews                    51


SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS

       Chief Financial Officers Act of 1990                                  2

       Debt Collection Improvement Act of 1996                               3

       Government Performance and Results Act of 1993                        3

       Federal Financial Management Improvement Act of 1994                  4


SECTION IV            FEDERAL COMMUNICATIONS COMMISSION
                      FISCAL YEAR 2000 ANNUAL FINANCIAL REPORT

       Management’s Discussion and Analysis                                  1

       Consolidated Balance Sheet                                           26

       Consolidated Statement of Net Costs                                  27

       Consolidated Statement of Changes in Net Position                    28

       Consolidated Statement of Budgetary Resources                        29

       Consolidated Statement of Financing                                  30

       Consolidated Statement of Custodial Activity                         31

       Notes to Consolidated Financial Statements                           32

       Required Supplemental Information                                    57




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                       Page iii
                      COMMISSION’S FISCAL YEAR 2000 FINANCIAL STATEMENTS
TABLE OF CONTENTS


      Other Accompanying Information                                     60


SECTION V           STATUS OF RECOMMENDATIONS
                    FROM PRIOR YEAR FINANCIAL STATEMENT AUDIT


SECTION VI          ACRONYMS




00-AUD-09-52        REPORT ON THE FEDERAL COMMUNICATIONS                      Page iv
                    COMMISSION’S FISCAL YEAR 2000 FINANCIAL STATEMENTS
         SECTION I

INDEPENDENT AUDITOR’S REPORT
  SECTION I                    INDEPENDENT AUDITOR’S REPORT




                                                                                t

  A1
                                    Independent Auditor’s Report

  To the Inspector General of the
  Federal Communications Commission


  We have audited the accompanying consolidated balance sheet of the Federal
  Communications Commission (FCC) as of September 30, 2000, and the related
  consolidated statements of net cost, changes in net position, budgetary resources,
  financing, and custodial activity for the year then ended (collectively the Principal
  Statements). These Principal Statements are the responsibility of FCC’s management.
  Our responsibility is to express an opinion on these Principal Statements based on our
  audit.

  We conducted our audit in accordance with the U. S. generally accepted auditing
  standards; the standards applicable to the financial audits contained in Government
  Auditing Standards, issued by the Comptroller General of the United States; and Office
  of Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal
  Financial Statements. These standards require that we plan and perform the audit to
  obtain reasonable assurance about whether the Principal Statements are free of material
  misstatement. An audit includes examining, on a test basis, evidence supporting the
  amounts and disclosures in the Principal Statements. An audit also includes assessing the
  accounting principles used and significant estimates made by management, as well as
  evaluating the overall Principal Statements’ presentation. We believe our audit provides
  a reasonable basis for our opinion.




Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                    Offices in 13 states and Washington, DC
                                                                                  h
  00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                  Page 1
                               COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION I             INDEPENDENT AUDITOR’S REPORT



In our opinion, the Principal Statements and related notes present fairly, in all material
respects, in conformity with U. S. generally accepted accounting principles, FCC’s assets,
liabilities, and net position; net cost; changes in net position; budgetary resources;
reconciliation of net cost to budgetary obligations; and custodial activity as of September
30, 2000 and for the year then ended.

In accordance with Government Auditing Standards, we have also issued our reports
dated February 9, 2001 on our consideration of FCC’s internal control over financial
reporting, and on our tests of FCC’s compliance with certain provisions of laws and
regulations. These reports are an integral part of our audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

Our audit was made for the purpose of forming an opinion on the basic Principal
Statements taken as a whole. The Management Discussion and Analysis and Required
Supplemental Information are not a required part of the Principal Statements but are
supplementary information required by OMB Bulletin No. 97-01, Form and Content of
Agency Financial Statements. The other Accompanying Information is presented for the
purposes of additional analysis and is not a required part of the Principal Statements.
Such information contains a wide range of data, some of which are not directly related to
the Principal Statements. We have applied certain limited procedures, which consisted
principally of comparing this information for consistency with the Principal Statements
and discussing the methods of measurement and presentation with FCC management.
However, we did not audit the information and express no opinion on it.


a1
Calverton, Maryland
February 9, 2001




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 2
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
         SECTION II

INDEPENDENT AUDITOR’S REPORT
    ON INTERNAL CONTROL
  SECTION II                   INDEPENDENT AUDITOR’S
                               REPORT ON INTERNAL CONTROL




                                                                                t

  A1
                         Independent Auditor’s Report on Internal Control

  To the Inspector General of the
  Federal Communications Commission


  We have audited the Principal Statements (hereinafter referred to as “financial
  statements”) of the Federal Communications Commission (FCC) as of and for the year
  ended September 30, 2000, and have issued our report thereon dated February 9, 2001.
  We conducted our audit in accordance with U. S. generally accepted auditing standards;
  the standards applicable to financial audits contained in Government Auditing Standards,
  issued by the Comptroller General of the United States; and Office of Management and
  Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
  Statements.

  In planning and performing our audit, we considered FCC’s internal control over
  financial reporting by obtaining an understanding of FCC’s internal controls, determined
  whether internal controls had been placed in operation, assessed control risk, and
  performed tests of controls in order to determine our auditing procedures for the purpose
  of expressing our opinion on the financial statements. We limited our internal control
  testing to those controls necessary to achieve the objectives described in OMB Bulletin
  No. 01-02. We did not test all internal controls relevant to operating objectives as
  broadly defined by the Federal Managers’ Financial Integrity Act (31 U.S.C. 3512), such
  as those controls relevant to ensuring efficient operations. The objective of our audit was
  not to provide assurance on internal control. Consequently, we do not provide an opinion
  on internal control.

  Our consideration of the internal control over financial reporting would not necessarily
  disclose all matters in the internal control over financial reporting that might be
  reportable conditions. Under standards issued by the American Institute of Certified
Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                    Offices in 13 states and Washington, DC
                                                                                    h
  00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                    Page 1
                               COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. However, we noted certain
matters discussed in the following paragraphs involving the internal control and its
operation that we consider to be reportable conditions and material weaknesses.

In addition, with respect to internal controls related to performance measures reported in
FCC’s Management Discussion and Analysis (MD&A), we obtained an understanding of
the design of significant internal controls relating to the existence and completeness
assertions, as required by OMB Bulletin No. 01-02. Our procedures were not designed to
provide assurance on internal controls over reported performance measures, and,
accordingly, we do not provide an opinion on such controls. However, we noted certain
significant deficiencies in internal control over reported performance measures discussed
in the following paragraphs that, in our judgment, could adversely affect the agency’s
ability to collect, process, record, and summarize performance information and report
performance measures in accordance with management criteria.

                 ********************************************

MATERIAL WEAKNESSES

I.     Financial Reporting (Repeat Condition)

The Chief Financial Officers (CFO) Act of 1990 assigned responsibility for developing
and operating financial management systems to each Federal agency. OMB Bulletin No.
97-01, Form and Content of Agency Financial Statements, as amended (OMB Bulletin
No. 97-01, as amended) defines the form and content of financial statements to be
prepared by each agency. To accomplish the objective of complying with the CFO Act,
the agency is required to develop a system to prepare a complete set of financial
statements on a timely basis in accordance with generally accepted accounting principles.
The statements are to result from an accounting system that is an integral part of a total
financial management system containing sufficient structure, effective internal control,
and reliable data. Financial reporting also consists of policies and procedures related to




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 2
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



the processing and summarizing of accounting entries, and the preparation of financial
statements.

FCC achieved an exceptional goal in preparing its first complete set of financial
statements for fiscal year 2000; just one year after its first ever balance sheet and notes
were prepared and audited. FCC staff, increasing cooperation and coordination among
offices and bureaus, and services from external consultants, among others, were
instrumental in achieving this goal. However, we believe that FCC’s financial reporting
process continues to need refinement. This refinement should allow FCC to prepare
reliable financial statements in a more timely and efficient manner at the end of the fiscal
year and interim periods throughout the year.

FCC’s financial reporting weaknesses are detailed as follows:

A. Develop an Integrated Financial Management System

   OMB Circular No. A-127, Financial Management Systems requires that each agency
   establish and maintain a single integrated financial management system. Without a
   single integrated financial management system to ensure timely and accurate financial
   data, poor policy decisions may occur, due to inaccurate or untimely information.
   Managers are less likely to be able to report accurately to the President, Congress, and
   the public on Government operations on a timely manner. And, scarce resources are
   more likely to be directed toward the collection of information rather than to delivery
   of the intended programs.

   Having a single, integrated financial management system does not necessarily mean
   having only one software application within each agency covering all financial
   management system needs. Also, it does not mean that all information is physically
   located in the same database. Rather, a single, integrated financial management
   system is a unified set of financial systems linked together electronically in an
   efficient and effective manner to provide agency-wide financial system support.
   Integration means that the user is able to have one view into systems such that, at
   whatever level the individual is using the system, he or she can obtain needed
   information efficiently and effectively through electronic means. Interfaces are
   acceptable as long as the supporting detail is maintained and accessible to managers.
   Interface linkages must be electronic unless the number of transactions is so small
   that it is not cost beneficial to automate the interface. Easy reconciliations between
   systems, where interface linkages are appropriate, must be maintained to ensure data
   accuracy.

   FCC utilizes the Federal Financial System (FFS) as its general ledger and core
   financial management system. FFS is not capable of generating most data analysis



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 3
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



   user reports on a real time basis. Users have to request reports which are generated
   by a software application whose operations are only known to some staff of Financial
   Operations (FO). Other financial management systems used at FCC include the
   property management system, loan database spreadsheets, license databases,
   collection system, cost system, commercial accounting software for fines and
   forfeitures, and various spreadsheet applications.        None of these financial
   management systems are integrated.

   Management Comments:

   Management concurs. The effort to develop an integrated financial system has been
   ongoing since FY 1999. Current efforts involve implementation of the Revenue
   Accounting and Management Information System (RAMIS) as well as upgrading the
   cost accounting system and reconfiguring FFS. RAMIS has been partially
   implemented for FY 2001 and is integrated with the core financial accounting system.
   FCC hired a contractor to help develop the functional requirements applicable for the
   replacement of the current cost accounting system and has targeted FY 2002 for
   implementation of a new cost accounting system. FCC also contracted with the
   developer of FFS to explore the capabilities of this system.

   FCC noted FFS is incapable of generating real time reports but can respond in real
   time to specific inquiries. Currently, the data warehouse utility is updated nightly to
   include previous day’s transaction information. Using data warehouse capabilities,
   report information is frequently tailored to meet the needs of various users.

B. Establish and Maintain an Adequate Audit Trail Used in Preparing the
   Financial Statements

   FCC employs spreadsheet applications to create, document, report, and support its
   financial statements. These spreadsheets are linked to several different files. The
   files were not provided to the auditors at the same time as the spreadsheets and
   receipt was after several requests. Numerous numbers in the spreadsheets are keyed
   numbers and could not be traced back to the trial balance. When audit trails were
   available, most of them were a series of numbers in a comment box without an
   explanation or clear explanation of the various Standard General Ledger (SGL)
   accounts comprising the total. In addition, adjusting entries were prepared as post
   closing entries resulting in some discrepancies in the Statement of Net Cost,
   Statement of Changes in Net Position, and the trial balance. Also, some adjusting
   entries were not reflected in all affected financial statements until they were brought
   to FCC’s attention by the audit process.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 4
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   Although the use of spreadsheet applications appears to be common practice in the
   preparation of financial statements throughout the Federal government, adequate
   audit trails are necessary for review verification and ultimately audit. Lack of
   adequate audit trails increases the risk of errors. FCC’s process of preparing financial
   statements is manually intensive, time consuming, and lacks controls over the
   completeness of final data used to prepare the financial statements. The lack of
   control over the completeness of final data and inadequate audit trails was evidenced
   upon technical review of the financial statements. Additionally, entity personnel
   encountered the same difficulties when researching compiled numbers in response to
   audit inquires.

   Maintaining an adequate audit trail enhances the quality of the agency report, reduces
   the risk of errors through an organized systematic process, and allows a person to
   independently review the report data accumulation process. Additionally, adequate
   audit trails facilitate the financial statement compilation process and helps ensure
   completeness of data upon review by management.

   Management Comments:

   Management concurs. Fiscal year 2000 was the first year FCC prepared all required
   financial statements to audit. As part of our effort to identify early audit issues,
   interim statements were prepared; however, parts of the preparation process were not
   fully established at fiscal year-end. FCC is formalizing policies and procedures
   specifically related to financial reporting with planned implementation by the close of
   FY 2001. In addition, FCC reviewed the spreadsheets used to prepare FY 2000
   financial statements and made revisions that include using the updated OMB Bulletin
   No. 97-01, as amended crosswalks to prepare the Statement of Financing and the
   Statement of Custodial Activity.

C. Correct and Update Federal Financial System Setup and Posting Model
   Definitions (Modified Repeat Condition)

   Last year’s material weakness in the reporting process noted incorrect accounting
   entries associated with the transaction codes set up in FFS. FCC had not updated its
   FFS system setup and posting model definitions for many years. As SGL numbers,
   definitions, and standard accounting entries were updated and revised by the
   Department of the Treasury, Financial Management Service (FMS) over the years,
   and as FCC accounting activities became more complex, the FCC general ledger
   system set-up remained unchanged.

   In response to the weakness noted, FCC management reviewed and updated, as a
   start, the auction and credit reform related transaction codes and accounting entries



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 5
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



   during the current fiscal year. In preparing the annual financial statements, however,
   FCC identified additional FFS year-end closing process errors. FCC hired a
   contractor to provide guidance in implementing recommended changes to the FCC’s
   current configuration of the FFS tables and posting models. This system’s
   deficiencies impair the quality and the reliability of the financial management
   information. A summary of the contractor’s posting analysis findings are as follows:

   •   Incorrect debit/credit postings, inconsistencies between certain tables, and
       inaccurate closing accounts;
   •   Current value of funds rate in a table has not been updated;
   •   Report reference tables are out-of-date and will require significant changes in
       order for the FCC to facilitate Federal Agencies’ Centralized Trial Balance
       System (FACTS) I and II reporting and to generate SF-133, Report on Budget
       Execution, and FMS 2108, Year-End Closing Statement. FCC, however, has not
       used the external reporting capabilities of FFS;
   •   Out-dated SGL accounts, account titles, and cross-references, plus inaccurate
       natural balances;
   •   Several of the reports reference tables are no longer required; and
   •   The report reference tables are out-of-date related to referencing the SF-133 and
       FMS-2108 in several areas, including formatting, balance indicators, and account
       references.

   The contractor made detailed recommendations to enhance compliance with the SGL
   and facilitate use of external reporting capabilities of FFS.

   Management Comments:

   Management concurs. Prior to the FY 2000 closing, FCC was aware the FFS posting
   model contained incorrect definitions and had taken steps to contract with the FFS
   developer to identify and correct deficiencies. The contractor has since completed its
   evaluation and reviewed recommendations have been corrected in FFS. In
   conjunction with the FFS review, FCC also worked with the contractor to update the
   reporting tables needed to prepare the SF-133 and FMS 2108 from FFS. FCC
   continues to explore modifications to FFS to improve its financial reports.

D. Improve Analysis of Budgetary Accounts

   In preparing the Statement of Budgetary Resources and Statement of Financing, FCC
   encountered a great deal of difficulty due to erroneous balances accumulating in the
   accounting system over time that remained unadjusted. Although FCC explained that
   most of the variances we identified are due to beginning balances and the FFS closing




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 6
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



   process system deficiencies as explained above, the process of correction and
   procedural changes at year-end resulted in time consuming analysis and delays in
   preparing these statements.

   Management Comments:

   Management concurs. FCC addressed some of the budgetary issues by modifying
   current transaction codes and will continue to address improper budgetary balances as
   identified. The preparation of quarterly financial statements, FACTS II quarterly
   reporting, update of the SF-133 and 2108 reporting module, and monthly
   reconciliations in FY 2001 will help to eliminate issues created by prior period
   transactions.

E. Record Activities Timely and Prepare and Analyze Financial Activity (Modified
   Repeat Condition)

   Although FCC prepared its interim financial statements (except for the Statement of
   Financing) at June 30, 2000, the interim statements did not reflect current accounting
   activities for certain areas and there was no evidence of adequate management
   review. Interim financial statements are supposed to reflect the current financial
   condition and operations to allow management to analyze data and make decisions
   based on reported information. We noted that activities were not being recorded
   timely. For example,

   •   All interim regulatory fee sampled items (4 of 4) examined were not recorded in
       FFS for more than three months between the date of an authorized transaction and
       the entry into FFS;
   •   All interim fines and forfeitures receivable sampled items (4 of 4) reviewed were
       not recorded in FFS quarterly and the amount recorded was the total net balance
       of the activities; and
   •   Loan collection transaction activity was not recorded in FFS during the year but
       only applied to principal, interest, and other accounts at year-end.

   Not recording or delays in recording transactions make data on the interim financial
   statements unreliable and unusable for management decision purposes. Standards for
   Internal Control in the Federal Government, issued by the General Accounting
   Office (GAO) in November 1999, page 15 states that “Transactions should be
   promptly recorded to maintain their relevance and value to management in
   controlling operations and making decisions.”

   Account analyses and reconciliations for accounts such as Loans Receivable; Interest
   Receivable; Accounts Payable; Accounts Receivable; and Property, Plant, and



00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 7
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



   Equipment were not periodically performed during the entire fiscal year, and for most
   accounts, analyses were performed only once at fiscal year-end in preparation for
   financial statement reporting. As a result, significant journal vouchers prepared as
   part of a general account “clean-up” for the year-end were identified and posted.
   Regular financial statement preparation and analysis on a monthly or quarterly basis
   may eliminate the need for many of these adjustments during the year-end closing
   process and reduce the risk that material errors or irregularities in general ledger
   accounts remain undetected until after the end of the fiscal year.

   Management Comments:

   Management concurs. Beginning with second quarter FY 2001 balances, all principal
   statements and related footnotes are prepared on a quarterly basis. In addition, the
   Financial Operations Center has added six additional positions to improve the
   timeliness and completeness of the financial statement reconciliation effort and
   recommended reviews. FCC analyzed current reconciliations to identify monthly
   reconciliations not in place and established procedures for performing those
   reconciliations.

   FCC is improving the recordation of its loan receivable and interest receivable
   transactions via RAMIS. This system will receive a download from the bank and
   create FFS transactions within 24 hours of receipt of payment by the bank. This will
   enhance FCC’s ability to routinely reconcile balances and ensure current, accurate
   management information on the status of its portfolio. Until the system is fully
   implemented, FCC continues to rely on the loan model prepared by its contractor
   recognizing the associated delays inherent in the process.

   FCC agrees additional steps are needed to improve the completeness of interim
   statements. FY 2001 will show considerable progress towards this goal.

F. Formalize Financial Reporting Processes and Responsibilities in the Preparation
   of Financial Statements (Modified Repeat Condition)

   Preparation of the annual financial statements is the responsibility of the agency’s
   management. In carrying out this responsibility, each agency CFO should prepare a
   policy memorandum that guides fiscal management personnel in the preparation of
   the annual financial statements. FCC does not have a formalized financial reporting
   process nor does it have written documentation that provides an integrated view of
   the procedures, personnel, and systems employed in preparation of the financial
   statements. Moreover, FCC did not have a process for identification of transactions
   requiring elimination at the consolidated level. Although FCC management told us
   that formalized financial reporting policy and guidelines have been drafted, a copy



00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 8
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   has not been provided for review as part of the audit process. The existence of
   written procedures will provide structure to the preparation and review process.

   The FMS, Financial Standards and Reporting Division issued the Accounting Policies
   and Procedures Guide for Federal Intragovernmental Transactions. Although the
   guide is for intragovernmental transactions, it provides guidance related to
   elimination within an entity in preparing consolidated financial statements. This
   guide provides government-wide policies and procedures to account for and reconcile
   transactions occurring within and between each entity. In page 18 of this guide, it
   states “Each agency should develop and implement procedures to provide for the
   preparation of financial reports in accordance with the policies and procedures in this
   guide. Amounts reported in the basic financial statements, supplemental information,
   and in the footnotes should be supported by schedules summarizing and documenting
   the combination of SGL accounts comprising each total on the financial statements.
   Elimination entries should be supported with schedules summarizing the SGL
   accounts that are combined to total the amounts eliminated.” It also states in page 17
   that “Consolidated financial statements present an agency’s financial information as a
   single entity. Elimination entries remove redundant activity and account balances
   within the consolidated statements. Each agency should have procedures for
   capturing this activity and balances within the agency to facilitate elimination
   process. Elimination entries should be performed at the consolidated level. Agencies
   should implement policies and procedures providing guidance within the agency for
   the identification of transactions requiring elimination at the consolidated level to
   facilitate financial statement preparation.”

   Management Comments:

   Management concurs. FCC established a separate Financial Statements and Policy
   Group within its Financial Operations Center to address both financial statement
   preparation and financial policies and procedures. The group was established in FY
   2000. The group’s first priority is the completion of the policies and procedures
   manual begun in FY 2000. Currently, six of the eight chapters are in final draft
   status. Upon completion, the manual will be available to all employees via the FCC
   Intranet and an agency initiated training program.

G. Inadequate Discussion in Management’s Discussion and Analysis

   FCC’s MD&A did not adequately discuss the requirements of the Federal Accounting
   Standards Advisory Board’s (FASAB), Statement of Federal Financial Accounting
   Standards (SFFAS) No. 15, Management’s Discussion and Analysis pertaining to the
   future effects on the entity of existing, currently known demands, risks, uncertainties,
   events, conditions, and trends.



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 9
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   MD&A should describe important existing, currently-known demands, conditions,
   risks, uncertainties, events, conditions and trends (current factors) – both favorable
   and unfavorable – that affect the amounts reported in the financial statements and
   supplementary information. The discussion of these current factors should go beyond
   a mere description of existing conditions to include a discussion of the possible future
   effect of those factors.

   Management Comments:

   Management concurs. The FY 2000 financial statement compilation efforts focused
   on the principal statements and related footnotes. In addressing the MD&A section,
   management chose to focus its efforts on the establishment of performance measures
   where performance reporting was established or could be modified to meet reporting
   requirements. In FY 2001, FCC plans to incorporate a section to address future
   effects and consider other areas where improvements can be made.

H. Combination of Reportable Conditions May Materially Impact Financial
   Statements (Repeat Condition)

   Reportable conditions noted in this report are internal control weakness relating to
   reconciliation procedures which could collectively have a material impact on FCC’s
   ability to produce reliable financial statements in an efficient and timely manner and
   to comply with the intent of the CFO Act.

   Management Comments:

   While acknowledging conditions exist, management does not feel they impact the
   financial statements as evidenced by the audit opinion.

Recommendations:

We believe that FCC’s continued efforts to meet its commitment to excellence in
financial reporting have resulted in many positive changes in this year’s financial
reporting process. We still believe, however, that strong oversight from key financial and
operational offices such as the CFO, Information Technology Center (ITC), and
Administrative Office (AO), is needed to ensure that financial statements are prepared
accurately and timely. We recommend the following:

   1.    Conduct an overall assessment of the financial management systems in use and
         the degree of integration needed. Prepare a plan outlining what the steps are
         (i.e., processes, data stewardship, management information, systems




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 10
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



        architecture, internal control), the timelines for completion, and the estimated
        cost to implement and maintain an integrated system.

        Management Comments:

        Management concurs. FCC reviewed several of its financial management
        systems and are at various stages of implementation. RAMIS will integrate
        with FFS for loans, fines and forfeitures, and eventually all receivables of the
        FCC. In addition, during FY 2001 FCC will review potential cost accounting
        systems which also will integrate with FFS.

   2.   Train FFS users to use the application software currently employed to ensure
        users can generate common widely-used reports (except for special reports) that
        are needed for account analysis without having to request the report be
        generated by another user (i.e., obtain the information needed efficiently and
        effectively through electronic means).

        Management Comments:

        Management concurs. FCC requested additional licenses to FFS data
        warehouse in order to provide broader access to report and query tools.
        Additional training classes for users will be conducted in FY 2001.

   3.   Establish and maintain an adequate audit trail used in preparing the financial
        statements. Modify as deemed appropriate and apply commonly used SGL
        crosswalks in preparing the principal financial statements.

        Management Comments:

        Management concurs. The crosswalks for FY 2001 were updated to incorporate
        the FY 2001 OMB crosswalks. In addition, financial reporting policies and
        procedures will be completed and implemented prior to FY 2001 close.

   4.   Identify and document in the accounting policies and procedures the
        transactions requiring elimination at the consolidated level and provide pro-
        forma eliminating entries.

        Management Comments:

        Management concurs. A section will be incorporated into the financial
        reporting policies and procedures that addresses elimination entries.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                       Page 11
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



   5.   For intragovernmental transactions, accumulate the detail and summary
        information for each activity by trading partner by employing the following:

        a) Incorporate the trading partner code as part of the account coding
           classification.

        b) Incorporate the trading partner code in the customer/vendor identification
           code in accounts receivable/accounts payable systems.

        c) Incorporate the trading partner code into data captured when transactions are
           entered into accounting systems.

        Management Comment:

        Management concurs and noted elements of this information is captured within
        FFS.

   6.   Update and correct FFS to comply with the transaction posting models
        consistent with SGL guidance and policies when recording and classifying
        transactions. Ensure that changes made to FFS are tested and accepted before
        they go into live production.

        Management Comments:

        Management concurs. FCC hired the developer of FFS to perform a review of
        the posting model and provide recommendations. Recommendations were
        received and many have been enacted in the system. All changes are tested and
        accepted prior to implementation.

   7.   Review all frequently used transaction types and transaction codes to ensure that
        the accounting entries (budgetary and proprietary) are correct.

        Management Comments:

        Management concurs and stated this type of review is now a part of the ongoing
        reconciliation process.

   8.   Record transactions on a timely basis. Proper cut-off should be implemented
        when preparing interim financial statements.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                        Page 12
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



         Management Comments:

         Management concurs. As the quarterly financial preparation becomes more
         familiar, management believes cut-off procedures also will become better
         defined. As RAMIS and the new cost system are implemented, recordation
         times will improve.

   9.    Update and circulate to appropriate employees the Financial Coding Handbook.
         Ensure that appropriate employees receive adequate training.

         Management Comments:

         Management concurs and noted FCC currently distributes to all appropriate
         staff an updated version of the coding handbook at the beginning of each fiscal
         year. Additional training classes are being held in FY 2001.

   10.   Ensure compliance with the standards required in preparing MD&A as outlined
         in SFFAS 15. Specifically, discussions related to the future effects on the entity
         of existing, currently known demands, risks, uncertainties, events, conditions
         and trends should be included or expanded.

         Management Comments:

         Management concurs. FCC will review the MD&A standards again as part of
         the FY 2001 financial preparation procedures.

   11.   Finalize written policies and procedures on the financial reporting processes.
         The written policies should provide sufficient guidance for the year-end closing
         of the general ledger as well as interim and annual financial statements’
         preparation and analysis. The procedures should at least address the following
         issues:

         a) Prepare and review a complete set of financial statements in accordance
            with generally accepted accounting principles at least quarterly.

         b) Establish milestones by setting dates for critical phases such as general
            ledger closing, preparation of statements, notes, and accountability report,
            quality control review, etc.

         c) Collect common closing and adjusting entries in a formal listing, which is
            used when the general ledger is closed and financial statements are
            prepared.



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 13
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II          INDEPENDENT AUDITOR’S
                    REPORT ON INTERNAL CONTROL



        d) Identify the individuals who will be involved in the financial reporting
           process and establishing clearly defined roles and responsibilities for the
           staff involved in the preparation of interim and year-end financial
           statements.

        e) Prepare and retain all journal entries in sufficient detail with supporting
           documentation, and post all journal vouchers in the general ledger.

        f) Retain all documentation supporting the request, purpose and approval of all
           object class designations. Also, a listing of all current object codes
           including a statement of the purpose of each code should be maintained and
           provided to all personnel with the responsibility to initiate, prepare, and
           approve accounting transactions to ensure that object codes are used
           appropriately.

        g) Require supervisory review for all entries posted to the general ledger and
           consolidating financial statements. A supervisor should review revisions to
           previously approved entries and revised financial statements. All entries
           and review should be evidenced in writing.

        h) Prepare and analyze formal monthly reconciliations of subsidiary and
           summary account balances. FCC should also consider a “formal closing” of
           all accounts at an interim date(s), which will reduce the level of accounting
           activity and analysis required at year-end. This “formal closing” entails
           ensuring that all transactions are recorded in the proper period through the
           month-end. With complete and timely transaction recording, analysis of all
           major accounts can be performed effectively.

        i) Utilize established tools (i.e., checklists, implementation guides, etc.)
           available for assistance in financial statement compilation and review.

        j) Prepare and retain a comprehensive set of files, working papers and other
           documentation in support of all information included in the financial
           statements. This documentation should be more self-explanatory than what
           has been retained in the past. The documentation should be at a supporting
           detail level where an accountant/auditor can utilize provided documentation
           for substantiation of reported data without extensive explanation or re-
           creation by the original preparer.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                       Page 14
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



           Management Comments:

           Management concurs noting policies and procedures for financial operations,
           which are being coordinated by a certified public accounting firm, will be
           implemented in FY 2001.


II.      Cost Accounting System (Repeat Condition)

FCC’s cost accounting system has not been a fundamental part of the financial
management system. Although cost reports are generated and distributed to various FCC
bureaus and offices, the reliability of these reports is questionable due to the lack of
review of the cost allocation methodology and formulas, and the lack of review of proper
application of the cost accounting activity codes. The cost accounting system is so
inadequate that FCC does not use its reports in preparing its financial statements or
analyzing program costs. In addition, we do not believe that the employees from bureaus
and offices outside of FO, who are responsible for financial-related activities fully
understand the importance of properly coding the obligations/expenditures.

In order to prepare the Statement of Net Cost by program costs in fiscal year 2000, FCC
downloaded program costs from its FFS into a spreadsheet application. Using the
spreadsheets, the indirect costs were allocated to each of FCC’s five programs
proportionately to total direct costs. Although we believe that specific earned revenue
should be matched against specific program costs in accordance with the program
description in its budget submission to Congress, FCC also allocated earned revenue on
the same basis used to allocate costs.

Additionally, FCC identified five responsibility segments for cost allocation purposes but
it did not determine related outputs for its responsibility segments as part of its cost
methodology. SFFAS No. 4, Managerial Cost Accounting Standards, states that
management of each reporting entity should define and establish responsibility segments
and managerial cost accounting should be performed to measure and report the costs of
each segment’s outputs. Reporting entities should report the full costs of outputs in
general purpose financial reports. Specifically, for each segment, managerial cost
accounting should:

•     Define and accumulate outputs, and if feasible, quantify each type of output in units
•     Accumulate costs and quantitative units of resources consumed in producing the
      outputs, and
•     Assign costs to outputs, and calculate the cost per unit of each type of output.




00-AUD-09-52            REPORT ON THE FEDERAL COMMUNICATIONS                        Page 15
                        COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL



SFFAS No. 4 states that cost accounting information must rely on consistent and uniform
terminology for concepts, practices and techniques to be useful. Reliable information on
the costs of the Federal programs and activities is crucial for effective management of
government operations. In managing Federal government programs, cost information is
essential in (1) budgeting and cost control, (2) performance measurement, (3)
determining reimbursement and setting fees and prices, (4) program evaluations, and (5)
making economic choice decisions.

Although implementation of a cost accounting “system” is not necessarily a prerequisite
for compliance with SFFAS No. 4, the agency’s cost system or cost finding techniques
should meet the required minimum level of cost accounting necessary to accomplish the
many objectives associated with planning, decision-making, and reporting. This
minimum level, in accordance with SFFAS 4 includes:

•   Collecting cost information by responsibility segments,
•   Measuring the full cost of outputs,
•   Developing appropriate costing methodology,
•   Providing information for performance measurement,
•   Instituting a reporting frequency that is timely and on a regular basis,
•   Integrating both managerial cost accounting and general financial accounting utilizing
    the SGL,
•   Providing the appropriate precision of information (i.e., reliable and useful),
•   Accommodating management’s special cost information needs that may arise due to
    unusual or special situations or circumstances, and
•   Documenting all managerial cost accounting activity, processes, and procedures
    (should outline applicable activities, provide instructions for procedures and practices
    followed, list the cost accounts and subsidiary accounts related to the SGL, and
    contain examples of forms and other documents used).

Management Comments:

Management concurs. The current cost accounting system was designed before FCC
faced meeting the requirements of SFFAS No. 4 and was designed to meet budgetary
requirements and accounting requirements of the original regulatory fee and auctions
program, not cost accounting requirements of the CFO Act. Realizing the need for a more
comprehensive and integrated cost accounting system, FCC hired an outside contractor to
develop the functional requirements for a new cost accounting system. Until a new
system is implemented, FCC will rely on spreadsheet allocations to perform its cost
allocation. Where possible, FCC will adjust its current methodology and review
operations to identify associated outputs.




00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                         Page 16
                       COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



Recommendations:

12.   Review the propriety of the costing methodology and the matching of earned
      revenue against costs (costing methodologies).

13.   Determine outputs for all responsibility segments as required.

14.   Document the costing methodologies and process in a formal policy and procedures
      manual or handbook. Management should determine which cost objects to define,
      the costing methodology to use, the type of costs to include for each reporting or
      decision making purpose (i.e., full cost), and other items of a similar nature.

Management Comments:

Management concurs with Recommendations 12, 13 and 14. As part of its development
of the Financial Reporting Policies and Procedures, FCC will review the current net cost
methodology. The review will address responsibility segment outputs as well as earned
revenue matching.

15.   Evaluate the adequacy of the cost accounting system or other cost-finding
      techniques (cost systems) in accumulating and allocating costs, matching revenue,
      accounting, and generating financial information. The cost systems should meet the
      minimum requirements outlined in the Joint Financial Management Improvement
      Program (JFMIP) System Requirements for Managerial Cost Accounting.

      Management Comments:

      Management concurs. In the short-term, FCC is reviewing its net cost methodology
      to identify improvements. As a long-term solution, FCC hired an outside contractor
      to assist with the development of functional requirements for a new cost accounting
      system.

16.   Ensure that appropriate employees of bureaus and offices fully understand the
      importance of properly classifying costs and are trained on the proper application of
      the activity codes.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 17
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL



       Management Comments:

       Management concurs. The Financial System Operations Group annually updates
       and distributes to all appropriate staff a coding handbook identifying the proper
       codes for the fiscal year.


III.    Universal Service Fund and Telecommunication Relay Service Fund
        Financial Reporting (Modified Repeat Condition)

The Universal Service Fund (USF), including the Telecommunication Relay Service
Fund (TRS) is an additional reporting component FCC included in its consolidated
financial statements. FCC management concluded in August 1999 that the USF was a
reporting entity to be consolidated with FCC. This conclusion was based on criterion
from the Statement of Federal Financial Accounting Concepts (SFFAC) No. 2, Entity and
Display that USF appears in FCC’s Federal budget section titled, Federal Programs by
Agency and Account. FCC also included the TRS Fund in its fiscal year 2000 financial
statements. The USF is administered by Universal Service Administrative Company
(USAC), a not for profit corporation, which through a contract with the National
Exchange Carrier Association (NECA), maintains the USF accounting records and sends
reports to the Department of the Treasury. The TRS Fund is managed by the NECA,
which reports the program’s financial information directly to FCC.

FCC is in an on-going process of reviewing USF (and TRS) activities. At this time, FCC
cannot assure that USF or TRS Fund activities were in compliance with all laws and
regulations, as the issue of which laws and regulations were applicable to the USF and
TRS Fund was still unresolved at the end of the audit. FCC management should provide
direction regarding the laws and regulations with which USF and TRS Fund should
comply as well as guidance regarding the form and content of information needed for
financial statement reporting purposes (see our Report on Compliance with Laws and
Regulations, CFO Act.)

In addition, FCC did not provide adequate direction to USAC or NECA for the financial
reporting of USF and TRS Fund activities. The FCC financial statements were prepared
by consolidating information provided by USAC and NECA into the FCC statements.
FCC included this financial data into its financial statements with limited or no review of
the reasonableness, accuracy, and propriety of these amounts. FCC had no employee
assigned to review the processes and procedures used to gather and report the financial
information submitted to FCC. The USAC officials responsible for providing this USF
information were unsure, however, as to what information was required and whether their
systems could provide that information. For example, USAC originally provided
information for the Statement of Budgetary Resources and the Statement of Financing



00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                        Page 18
                       COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



without assurance that the input was required, and since the USAC accounting system did
not include budgetary information, the financial information provided was less reliable.
In addition, the figures reported for Accounts Payable, Payable to Providers, and
Property, Plant and Equipment had to be reclassified because of differences between FCC
and USAC. These reclassifications took place after a series of draft financial statements
had been submitted for audit contributing to delays in completing the audit.

FCC management is responsible for obtaining reasonable assurance on the completeness
and the reliability of the USF and TRS Fund financial reporting and its compliance with
laws and regulations before information is consolidated into the FCC statements. This
assurance was not obtained.

Management Comments:

FCC and USAC expended considerable time and effort in assessing the applicability of
Federal laws and regulations to the USF during FY 2000. The Office of General Counsel
(OGC) provided analysis and USAC took required steps to comply with the applicable
federal laws and regulations.

USAC management remains confident that USAC systems can provide whatever
information is required. USAC’s reported information was appropriately classified for
the USF as a stand-alone entity. As part of the consolidation with FCC, reclassifications
were expected and made. FCC and USAC will institute a formal financial reporting
compilation process to ensure this process does not cause delay in subsequent years.
USAC provided assurance to FCC on the completeness and reliability of the financial
information provided as well as assurance USF is in compliance with applicable laws and
regulations.

Recommendations:

FCC management is aware of the issue of oversight of USF and TRS Fund financial
reporting. The following actions should be implemented early in fiscal year 2001 in
order to avoid repeating the problems:

17.   Document clearly the legal, financial, and operational boundaries of FCC, USF,
      TRS, USAC, and NECA. With the assistance of OGC, USAC, and NECA, FCC
      management needs to formally define in writing each financial management role
      and responsibility to avoid confusion and misunderstanding.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 19
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



      Management Comments:

      Management concurs noting the relationship between FCC, USF, and USAC is
      already defined in the extensive regulations and Commission orders governing the
      operations of USAC and the USF. USAC or NECA will continue to seek guidance
      and clarification as necessary from the Commission.

18.   Obtain from the OGC a list of laws and regulations applicable to the financial
      activities of USF and TRS Fund and communicate this information to officials of
      USAC and NECA. Ensure that USF and TRS Fund financial activities are in
      compliance with these laws and regulations by reviewing these activities
      periodically.

      Management Comments:

      FCC and USAC will continue to review compliance with applicable laws and
      regulations on at least an annual basis.

19.   Assign one or more staff from FO to obtain an in-depth understanding of USF and
      TRS Fund operations, including financial operations, and who will work in
      coordination with Common Carrier Bureau (CCB) to comprehensively review
      financial and operational information provided by USAC and NECA.

      Management Comments:

      Management concurs. Throughout FY 2000, FCC and USAC established a stronger
      working relationship as it relates to compilation of the financial statements and
      subsequent audit. To ensure the relationship fully develops, FCC assigned a
      member of the new Financial Statements and Policy Group to gain an in-depth
      understanding as recommended by the auditors. This staff member will work
      closely with USAC to provide guidance in the generation of quarterly and year-end
      financial statements and supporting documentation.

20. Review monthly financial reports provided by USAC and NECA. Request
    additional information from USAC and NECA as necessary to obtain reasonable
    assurance that the financial data is reliable.

      Management Comments:

      FCC started preparing quarterly statements during FY 2001 and has already
      contacted both USAC and NECA concerning the USF and TRS information needed
      for the statements.



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                      Page 20
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL



21.    Develop a formal financial reporting compilation process that adequately addresses
       issues arising from its consolidating reporting components.

       Management Comments:

       Management concurs stating FCC is documenting its financial reporting process as
       part of a policies and procedures manual that will be implemented during FY 2001.


IV.      Loans Receivable and Related Accounts (Modified Repeat Condition)

FCC uses installment payment mechanisms to finance some of the spectrum sales to
successful and qualifying bidders. These direct loans are accounted for in accordance
with the Federal Credit Reform Act (FCRA) which requires that the cost of direct loans
be estimated at present value for the budget. Loans servicing and collecting
responsibilities were outsourced to FMS, until mid-1999 when FCC discontinued this
arrangement and brought all aspects of the loan servicing in-house. Although FCC
intended to transfer the loan servicing and collection responsibilities to a private
contractor, it did not occur in fiscal year 2000.

In 1999, when the loan servicing was transferred in-house, FCC discontinued using the
loan servicing system as its loan subsidiary system. However, the incumbent system
continued to be used for other processes such as billings, collections, installment payment
amounts and dates received. In 1999, FCC started using spreadsheet applications (loan
models) developed by a public accounting firm (consultants) hired by FCC to verify that
loan balances were valid, accurate, and auditable. These loan models were instituted as
the loan subsidiary system. FCC planned to replace these loan models with RAMIS by
September 30, 2000; however, this plan did not materialize according to the schedule.
RAMIS is modified off-the-shelf software that will handle accounting for all collections
and loan management within FCC and interfaces with other FCC financial systems.
Consequently, FCC continued to use the loan models as its loan subsidiary system with
the assistance of the consultants in maintaining the loan models during fiscal year 2000.

A. FCC Current Loan Subsidiary Ledger System Is Inadequate (Modified Repeat
   Condition)

      FCC’s loan subsidiary ledger system is comprised of the loan models, which are
      elaborate and complex spreadsheets with configuration settings and information for
      original and adjusted loan principal, daily earned interest, suspension interest,
      payment data, and application of payments, among other items. These loan models
      (1) document the loan terms as determined by FCC’s rules and official loan




00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                        Page 21
                       COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   documents; (2) recalculate loan balances for financial statement reporting purposes;
   and, (3) serve as the cash flow model data for the loan subsidy model calculator.

   Our review of the loan models showed that improvements were made to enhance the
   usefulness of the spreadsheets. Additional information such as tracking of changes to
   the database and raw collection data were added. However, deficiencies noted in
   prior year remained uncorrected. These are as follows:

   •   Configuration settings are still easily changed manually. Alteration of relevant
       configuration settings used in loan balance calculation could produce significantly
       different results. Once one user alters a setting, it would be difficult for another
       user to know what changes were made unless the user is notified.
   •   The loan models and the spreadsheet process lacked documented and approved
       policies and procedures for its use and review of key input and output data.
   •   The loan models’ formulas are not protected to prevent inadvertent or
       unintentional modifications nor is there assurance that enter/modify access to the
       spreadsheet process is limited to authorized staff. We believe FCC should take
       ownership of these critical loan systems and its staff should be trained to be able
       to independently use the loan models and to review the reports generated by the
       model to reduce reliance on the accountants.
   •   Continued heavy reliance is still placed on the consultants who are responsible for
       the complete process (i.e., from data entry/download, to adjustments, to review,
       and to report generation).
   •   FCC still does not physically maintain an official and back-up soft copy of the
       loan models, with updated information at least monthly, until a new system is
       implemented.

   During the fiscal year, a processing file was incorrectly uploaded into the spreadsheet
   application subsidiary system requiring subsequent review and additional resources to
   correct the effects of the upload. A condition as such should have been detected by
   FCC’s oversight of its consultants and/or its internal control of loan processing
   activities.

   Throughout the fiscal year, FCC has been reviewing the loans and related account
   balances. Loan review, as defined by FCC, is a process performed by the consultants
   to correct data in the loan models as a result of discovery, review, and additional
   information obtained. Some of these reviews accounted for:

   •   Unallowed suspension interest – interest was suspended for certain debtors that
       were ineligible for the suspension of interest. FCC has to recalculate the interest




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 22
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



       earned before the loans went in default and adjust the interest (suspension vs.
       regular interest, overstated vs. understated amounts) as appropriate.
   •   Incorrect billings in the amounts and due date which caused debtors to pay less
       and/or later than they were scheduled incurring non-delinquent late fees.
   •   Policy decisions finalized in fiscal year 2000 that affected the loan and related
       account balances.

   As a result of these reviews, interest receivable of at least $180 million was adjusted
   downward in fiscal year 2000.

   Our audit disclosed that loan models have not been fully updated to reflect changes
   from the loan review made during the year, resulting in inconsistencies of loan data
   among the loan model, subledger, and the cash flow model used in the subsidy
   calculation. To illustrate, a loan on the loan model reflects a default date of 10/30/98,
   which is the default date as if the loan was eligible for suspension interest after non-
   payment of the first payment due date of 7/31/98. These dates were incorrect since
   the loan was later identified as ineligible for suspension of interest. The subledger
   and the cash flow model shows the correct default date of 8/28/97, after the non-
   payment of the first payment due date of 2/28/97. FCC explained these
   inconsistencies were due to inherent limitations with using the spreadsheet
   application as the loan subsidiary system.

   Also, the limitations of the spreadsheet application loan models required FCC to
   create separate subsidiary ledgers to account for the interest receivable earned but not
   yet billed. Interest receivable earned includes interest receivable on defaulted loans
   after the last billing date but before the next billing date. The loan models were not
   developed to calculate the interest earned as of a cut-off date if it differed from the
   billing date.

   Generally, the reviewing process was manually intensive requiring FCC to apply
   collections manually to correct situations (i.e., recalculating correct interest and
   creating/setting a temporary credit to adjust late fees charged mistakenly in the loan
   models). The risk of error in this temporary solution (loan models) is higher as a
   result of the aforementioned conditions.

   Management Comments:

   Management concurs. As stated in FY 1999, FCC hired a public accounting firm to
   ensure installment loan balances were valid, accurate, and auditable. Technical
   security concerns did not allow FCC to implement RAMIS in FY 2000 as planned.
   To meet the obligation to provide sound, reportable, and auditable financial data,
   FCC extended a contractual engagement with the same firm to continue to provide



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 23
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   information until such time as FCC was able to bring RAMIS on-line. Currently,
   FCC operates both systems and plans to migrate fully to RAMIS in time for FY 2001
   close. FCC intends to transfer the loan portfolio to an outside loan servicer who is
   required to provide timely financial data to FCC and ensure proper billing, collection,
   and reporting of loans.

   The $180 million interest adjustment was a combination of correcting interest
   reported as revenue in FY 1999 to FY 2000 and an accrual for FY 2000. Since FCC
   did not prepare a Statement of Net Cost for FY 1999, only a balance sheet adjustment
   was provided. The adjustment had a zero net effect to the FY 2000 financial
   statements.

B. Reconcile General Ledger to the Subsidiary Ledger Balances (Modified Repeat
   Condition)

   A major objective of internal control is to ensure the integrity of the underlying
   accounting data supporting the financial statements. An important control in this
   regard is the reconciliation of FCC accounting records. An adequate reconciliation
   provides the assurance that processed transactions are properly and timely recorded in
   the accounting records and financial statements, which then allows management the
   ability to analyze its financial condition and results of operations on a routine basis.

   FCC does not reconcile its loans and related account balances in the general ledger to
   the subsidiary records. At year-end, entries are made to recognize the effects of the
   subsidiary records in the general ledger accounts. To record and track credit reform
   collections received throughout the year in fiscal year 2000, FCC established an SGL
   Account 2402, Unapplied Collections. Balances in SGL 2402 were then reallocated
   at year-end to principal, interest, late fees, etc. based on the application of payments
   made in the loan models. At September 30, 2000, FCC had approximately $12
   million still remaining in this account.

   Management Comments:

   Management concurs. Loan collection activity is currently processed from a lockbox
   at a Federally insured bank and downloaded to FCC nightly. From this download,
   two identical files are produced. One file updates the cash balance in the Financing
   account and the duplicate file is fed into a subsidiary system that updates individual
   loan balances. Segregated reconciled balances are entered into FFS to decrease the
   unapplied collections and update other categories. Finalization of this process and
   reconciled balances were not completed for FY 2000 until year-end.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 24
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   The $12 million outstanding in unapplied collections represents identified amounts
   that could not be applied at year-end due to insufficient payor supplied information.
   This is less than 3% of $650 million collected in FY 2000 and remains a consistent
   payment application issue for this dynamic portfolio. As the portfolio is transferred
   to RAMIS and the loan servicer, additional steps will be implemented to lessen the
   unapplied balance.

C. Implement Direct Loan System to Account for All Events in a Loan Cycle
   (Repeat Condition)

   FCC’s plan of implementing RAMIS did not materialize in fiscal year 2000 as
   explained above. During the fiscal year, FCC continued to rely on various systems
   and spreadsheet applications to account and report direct loan transactions. As a
   result, there is a higher risk of human error resulting in inconsistent and/or disparate
   data in various systems and programs. Direct Loan System Requirements issued by
   JFMIP states that a direct loan system must interact with the core financial system to
   perform fund control checks, initiate or record payments, record the results of other
   direct loan-related financial transactions, and acknowledge receipt of financial
   information exchange. It must be able to perform automatic system balancing to
   ensure that direct loan partners are able to agree on transaction number and dollar
   values passed, processed and rejected. This automated balancing includes cumulative
   subsidiary account balancing to the general ledger. It should be able to support
   managerial accounting. These internal management information requirements are
   those required to establish credit management and financial reporting systems that are
   in compliance with standards provided in OMB Circulars No. A-34, Instructions on
   Budget Execution; A-123, Management Accountability and Control; A-127,
   Financial Management Systems; and A-129, Managing Federal Credit Programs.
   See Auditor’s Report on Compliance with Laws and Regulations.

   Management Comments:

   Management concurs. FCC recognized RAMIS would not be implemented by the
   close of FY 2000 and contracted with a major public accounting firm to provide loan
   accounting activities until RAMIS was implemented. During FY 2001 FCC’s loan
   portfolio will transfer to a loan servicing financial institution; however, FCC will
   maintain both RAMIS and the public accounting firm through September 30, 2001 as
   backup.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 25
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



D. Loan Documentation Needs Improvement (Repeat Condition)

   In managing the Federal government’s receivables, OMB Circular No. A-129,
   Managing Federal Credit Programs identified documentation as one of the loan
   servicing requirements. It states that approved loan files (or other systems of
   records) shall contain adequate and up-to-date information reflecting terms and
   conditions of the loan, payment history, including occurrences of delinquencies and
   defaults, and any subsequent loan actions which result in payment deferrals,
   refinancing, or rescheduling. Accurate and complete documentation is critical to
   providing proper servicing to the debtor and pursuing collection of delinquent debt.

   Our review disclosed that FCC’s loan file documentation is still inconsistent and
   incomplete. For instance, 29 of 45 (64%) loan files reviewed do not have a series of
   the FCC Form 175, “Application to Participate in an FCC Auction”; one (2%) loan
   file contains an installment payment plan note without signature; three (7%) loan files
   do not have Installment Payment Plan notes; one (2%) file under an assignee name
   was not updated upon an exchange of the Security Agreement. Also, FCC
   discontinued updating payment history on that loan file.

   The issue of loan file documentation needing improvement needs to be addressed as
   FCC changes its environment regarding loan business practices. The criticality of the
   issue increases as FCC progresses to outsourcing it loan servicing business practices
   and migrates to the new loan subsidiary system aforementioned.


   Management Comments:

   Management concurs. Over the past two years, FCC has been involved in ongoing
   efforts to fully document and update loan histories to ensure that loan balances are
   fully supported. Where information gaps are identified, FCC continues efforts to
   ensure completeness.

   Recommendations:

   Although FCC management has implemented controls since it took over the loan
   servicing operations, controls need to be fully implemented for effective and efficient
   loan management. Also, while expert consultants were hired to assist in the credit
   reform program, the accuracy, reliability, and reasonableness of source data is still
   FCC management’s responsibility.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 26
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL



   We recommend the following:

   22.   While RAMIS is not operational and FCC uses the loan models, it should:

         a) Ensure that access to the loan models is limited to authorized staff.

         b) Train FCC employees to have adequate knowledge in using and reviewing
            the loan models. If consultants are responsible for updating and analyzing
            the loan models, FCC employees should review, at least monthly, the
            configuration settings and formulas of the loan models to ensure they were
            not changed. In addition, FCC employees should review the outputs of the
            spreadsheets.

         c) Develop written policies and procedures for the use and review of the loan
            models and related output.

         d) Hardcode or lock cells with formulas in the loan models to prevent
            inadvertent or unintentional changes.

         Management Comments:

         Management concurs with Recommendations 22a, 22b, 22c, and 22d noting
         FCC initiated steps to ensure that agency personnel have copies of contractor’s
         data models and reviews and comparisons are performed routinely.

         e) Physically obtain and keep an official copy of the loan models updated at
            least monthly since these are FCC’s subsidiary records and are maintained
            by consultants outside of FCC financial management systems. A back-up
            copy should also be maintained.

               Management Comments:

               Management concurs noting FCC receives and maintains two backup copies
               of the models quarterly. As needed, FCC requests and receives monthly
               updates.

   23.   Ensure that the loan subsidiary system being developed and tested (RAMIS) is
         capable of interfacing with other financial management systems.




00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                         Page 27
                       COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



         Management Comments:

         Management concurs noting RAMIS testing is ongoing for all phases of
         implementation to ensure proper integration.

   24.   Ensure that RAMIS meets all the applicable requirements for a direct loan
         system in the Federal Financial Management System Requirements (FFMSR)
         issued by JFMIP. One of these requirements is to ensure that the direct loan
         system can support the following functions:

         •     Loan extension
         •     Account servicing
         •     Department of the Treasury cross-servicing
         •     Portfolio management
         •     Delinquent debt collection
         •     Other reporting requirements

         Management Comments:

         Management concurs and states RAMIS is in compliance with all FFMSR and
         JFMIP requirements. Management added the new loan servicer is also
         contractually bound to meet these requirements.

   25.   Record loan activities promptly to maintain their relevance and value to
         management in controlling operations and making decisions.

         Management Comments:

         Management concurs noting, as aforementioned, it expects complete SGL
         compliance at the transaction level within 24 hours of receipt of funds.

   26.   Reconcile general ledger balances to the subsidiary records on a monthly basis.

   27.   Ensure all loan files are kept up-to-date, have consistent information, and
         contain relevant loan and other documents necessary to conform to private
         sector standards.

   28.   Establish effective controls for transfer of loan data files to the new loan system,
         and ultimately, to a loan servicer , if employed.




00-AUD-09-52            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 28
                        COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II              INDEPENDENT AUDITOR’S
                        REPORT ON INTERNAL CONTROL



          Management Comments:

          Management concurs with Recommendations 26, 27, and 28 stating controls are
          in place to ensure proper transfer and FCC will have an independent, public
          accounting firm verify the balance.


V.       Information Technology

Our review and testing of controls related to Information Technology identified the
following conditions (see our Report on Compliance with Laws and Regulations, Federal
Financial Management Improvement Act):

A. FCC Is Not In Compliance with OMB Circular No. A-130 Requirement for a
   Comprehensive Security Plan (Modified Repeat Condition)

     Some of the key components of an entity-wide security program are the performance
     of risk assessments and the development of a comprehensive security plan. Each
     organization needs a set of management procedures for identifying and assessing
     risks, and deciding what policies and controls are needed to achieve effective security
     controls.

     OMB Circular No. A-130, Management of Federal Information Resources, Appendix
     III, “Security of Federal Automated Information Resources,” as revised in February
     1996, established a minimum set of controls for federal agencies, including risk
     assessments, assigning responsibility for security, security planning, periodic review
     of security controls, and management authorization of systems to process
     information.

     Deficiencies in security controls that, in our view, significantly impact FCC’s ability
     to protect its sensitive or critical resources include:

     •   FCC lacks a comprehensive and integrated security management structure. In
         such an environment, responsibilities could be unclear leading to the possibility of
         applying security controls inconsistently throughout the agency. As a result,
         certain vulnerabilities may be overlooked.         In addition, monitoring the
         effectiveness of procedures for security controls throughout the agency will be
         ineffective.
     •   FCC has not performed risk assessments for its major application systems and its
         mission-critical general support system.        FCC did perform vulnerability
         assessments for several of its major applications and general support systems in




00-AUD-09-52            REPORT ON THE FEDERAL COMMUNICATIONS                         Page 29
                        COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



       fiscal year 2000, but has not completed risk assessments as prescribed by OMB
       Circular No. A-123, Management Accountability and Control.
   •   FCC does not have security plans for any of its major application systems and
       mission-critical general support systems. FCC plans to complete a template for
       its security plans by fiscal year 2001.
   •   There is no periodic review of security controls over FCC’s systems. In addition,
       FCC has not performed any formal certification and accreditation of its systems.
       FCC plans to conduct initial security reviews over a two-year period ending in
       fiscal year 2002. FCC plans to make these reviews part of its internal control
       review process.

   Management Comments:

   Management concurs. FCC developed a comprehensive and integrated security
   management structure. The basis for this structure was the creation and distribution
   of FCC Instruction 1479.1, FCC Computer Security Program Directive. The
   directive provides the framework for the Computer Security Program and assigns
   responsibilities for managing and using FCC computer resources and provides a
   framework to ensure an adequate level of protection to Commission computer-based
   systems.

   FCC performed vulnerability assessments of several of the Commission’s major
   applications during FYs 2000 and 2001 and contracted for the services required to
   complete necessary reviews. Also, FCC completed a risk assessment of its network
   in November 2000. In addition, the process for conducting such reviews was
   modified to ensure the inclusion of OMB Circular No. A-123, Management
   Accountability and Control issues. The process used by the assessment team includes
   the framework described in the National Information Assurance Certification and
   Accreditation Process (NIACAP).

   FCC contracted services required to develop security plans for both its general
   support systems and major applications, as required by OMB Circular No. A-130,
   Management of Federal Information Resources, Appendix III. FCC’s general
   support system security plan has been developed and is being reviewed by
   management. Several major application security plans are being developed and
   reviewed at this time and all remaining plans have been scheduled for development in
   FYs 2001 or 2002.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                        Page 30
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



B. FCC Needs Improved Controls to Protect Its Information (Modified Repeat
   Condition)

   For a computerized-dependent organization like FCC, achieving an adequate level of
   information protection is highly dependent upon maintaining consistently effective
   access controls and system software controls. Access controls should limit and
   monitor access to computer resources (i.e., data files, application programs, and
   computer-related facilities and equipment) to the extent necessary to provide
   reasonable assurance that these resources are protected against waste, loss,
   unauthorized modification, disclosure, or misappropriation. Such controls include
   logical/technical controls, for example, security software programs designed to
   prevent or detect unauthorized access to sensitive data. Similarly, system software
   controls should limit and monitor access to powerful programs and sensitive files that
   control computer processing and secure the application and data supported by the
   system.

   Our limited internal controls testing identified information protection-related
   weaknesses in FCC’s information systems environment. Impacted areas included
   FCC’s distributed computer system as well as its mainframe computers. These
   vulnerabilities expose FCC and its computer systems to risks of external and internal
   intrusion, subject sensitive FCC information related to its major applications to
   potential unauthorized access, modification, and/or disclosure, and increase the risks
   of fraud, waste and abuse.

   Rights and privileges granted to users of the Collections System are undefined. The
   system administrator is not aware of what access rights are granted to each level or
   class of access. The system has no password history file, and does not conform to
   Federal Information Processing Standards (FIPS) Publication 112 “Password Usage.”
   Incompatible duties are not adequately segregated, with application programmers
   having access to production data sets and performing functions in the production
   environment. Audit logging has also not been activated and there is no monitoring of
   access activities.

   FCC has not assessed the risk of not protecting sensitive and mission critical files.
   No written criteria have been established to guide security personnel in monitoring
   and restricting access to production data and program files. FCC does not have an
   entity-wide security program in place; it does not sufficiently address mainframe
   components of its computing environment.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                        Page 31
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   Management Comments:

   Management concurs. FCC continually works to improve the posture and
   effectiveness of the computer security program. In addition, the Computer Security
   Officer is working with application custodians and application level security
   representatives to ensure required and adequate levels of protection are provided and
   required tasks addressed. The most recent initiatives include implementing system
   risk assessments, certification and accreditation, security test and evaluations, and the
   preparation of system level security plans. While the referenced mainframe computer
   is not managed by FCC, management will work with the custodial Federal agency to
   mitigate noted issues.

C. FCC Needs to Accelerate Efforts to Develop and Test its Contingency Plans
   (Repeat Condition)

   Losing the capability to process, and protect information maintained on FCC’s
   computer systems can significantly impact FCC’s ability to accomplish its mission to
   serve the public. The purpose of service continuity controls is to ensure that, when
   unexpected events occur, critical operations continue without interruption or are
   promptly resumed. To achieve this objective FCC should have (1) procedures in
   place to protect information resources and minimize the risk of unplanned
   interruptions and (2) a plan to recover critical operations should interruptions occur.
   These plans should consider activities performed at FCC’s general support facilities,
   as well as the activities performed by users of specific applications. To determine
   whether the disaster recovery plans will work as intended, FCC should establish and
   periodically test the capability to perform its functions in disaster simulation
   exercises.

   Our review of FCC service continuity controls identified deficiencies that could affect
   FCC’s ability to respond to a disruption in business operations as a result of a disaster
   or other long-term emergency. The deficiencies were as follows:

   •   FCC has not formally identified and prioritized all critical data and operations on
       its major applications and the resources needed to recover them if there is a major
       interruption or disaster.
   •   FCC has not formally identified and prioritized all critical data and operations on
       its networks and the resources needed to recover them if there is a major
       interruption or disaster. In addition, we could not determine whether FCC had
       established emergency processing priorities that will help manage disaster
       situations more effectively for the network.
   •   FCC has not integrated the contingency plans of its data centers, networks and
       telecommunication facilities in a comprehensive disaster recovery plan.



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 32
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL




   FCC is in the process of developing a comprehensive contingency plan. FCC plans to
   complete this effort by the end of fiscal year 2001.

   Management Comments:

   Management concurs. FCC plans to fund the development a Commission-wide
   Contingency of Operations Plan (COOP) in a multi-phased approach. The first phase
   includes the conduct of a business impact analysis to formally identify and prioritize
   all critical data and operations on major applications and the resources needed to
   recover if there is a major interruption or disaster. Upon completion, critical aspects
   of the COOP will be developed and tested.

   Recommendations:

   29.   Establish a comprehensive and integrated security management structure to
         ensure that FCC’s security policy is consistently applied.

         Management Comments:

         Management concurs stating FCC recently updated its computer security policy
         to reflect current computer and information security concerns and
         countermeasures. All computer security related policies are provided to each
         level of system level management to ensure consistency.

   30.   Conduct risk assessments for the FCC general support systems and major
         applications.

         Management Comments:

         Management concurs. FCC completed a risk assessment of its general support
         systems and its network in Fall 2000.

   31.   Develop and implement security plans for FCC’s major application systems and
         mission-critical general support systems.

         Management Comments:

         Management concurs. FCC contracted for the required services to develop and
         implement security plans for its major application systems and mission-critical
         general support systems. Plans are being developed, using the guidance offered
         by National Institute of Standards and Technology (NIST), Special Publication



00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 33
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



         800-18, Guidance on the Development of Security Plans, to ensure compliance
         with OMB Circular No. A-130, Appendix III. The expected completion time
         frame of the plans is by second quarter FY 2002.

   32.   Certify and accredit FCC’s major applications and general support systems,
         based on the security plans developed and implemented.

         Management Comments:

         Management concurs. FCC contracted for the required services to certify and
         accredit FCC’s major applications and general support systems. These reviews
         are being conducted to ensure compliance with OMB Circulars No. A-123, A-
         127 and A-130, Appendix III. NIACAP is being used as the required model to
         support this effort. The expected completion time frame of the reviews is by
         fourth quarter FY 2002.

   33.   Establish a system to periodically review security controls over FCC’s computer
         systems in accordance with OMB Circular No. A-130, Management of Federal
         Information Resources, Appendix III.

         Management Comments:

         Management concurs noting major application and general support system
         certification and accreditation review processes currently underway will allow
         for periodic review of these systems, as required by OMB Circular No. A-130,
         Appendix III.

   34.   Strengthen controls over access to protect all mainframe and client server-based
         resources.

   35.   Address inadequacies and inconsistencies in the mainframe and network access
         request process.

         Management Comments:

         Management concurs with Recommendations 34 and 35. FCC’s Computer
         Security Officer will work directly with the administrators of the mainframe
         system, including network access request processes, to ensure adequate controls
         are implemented and test these processes.

   36.   Require periodic review of user privileges to ensure that capabilities are in line
         with job responsibilities.



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 34
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



         Management Comments:

         Management concurs. FCC’s Computer Security Officer will develop a process
         to ensure Commission-wide compliance to require periodic review of user
         privileges to ensure capabilities coincide with job functions. The expected
         completion time frame for this effort is by second quarter FY 2002.

   37.   Enhance audit trail facility utilization and review.

         Management Comments:

         Management concurs. FCC’s Computer Security Officer will develop and
         distribute a Commission-wide policy to make mandatory the use and review of
         appropriate system audit trail facilities within FCC, both at the general support
         and major application levels. The expected completion time frame of the plan is
         by first quarter FY 2002.

   38.   Develop and implement a FCC-wide security plan as prescribed by OMB
         Circular No. A-130, Management of Federal Information Resources.

         Management Comments:

         Management concurs. FCC contracted required services to develop and
         implement FCC-wide security plans for major application systems and mission-
         critical general support systems. These plans are being developed to ensure
         compliance with OMB Circular No. A-130, Appendix III and are being
         prepared using the guidance offered by NIST Special Publication 800-18,
         Guidance on the Development of Security Plans.

   39. Develop and test contingency plans for FCC’s major applications, networks,
       and telecommunications facilities.

         Management Comments:

         Management concurs. FCC noted the aforementioned COOP will address the
         recommendation.

   40.   Obtain written documentation from FCC’s data centers of developed and tested
         contingency plans and participate in the scheduled tests of the plans.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 35
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II                INDEPENDENT AUDITOR’S
                          REPORT ON INTERNAL CONTROL



             Management Comments:

             Management concurs. FCC’s Computer Security Officer will obtain written
             documentation from its data centers of developed and tested contingency plans
             and request that FCC be able to participate in the scheduled future tests of the
             plans. The expected time frame for the completion of these plans is by the
             second quarter FY 2002.

      41.    Immediately develop a comprehensive contingency plan that integrates the
             individual plans of its data centers, networks, and telecommunications facilities.

             Management Comments:

             Management concurs and stated the contingency plan development team will
             factor in the integration of the FCC plan with those plans for non-FCC
             individual support data centers, networks, and telecommunications facilities.


REPORTABLE CONDITIONS

VI.         Review and Finalize Written Internal Control Documentation for Financial
            and Administrative Operations (Modified Repeat Condition)

In response to last year’s internal control report, FCC started to document its accounting
policies and procedures related to various financial and administrative operations such as
auctions; accounts receivable; property, plant, and equipment; accounts payable; payroll;
and budget. All of the documents mentioned, except for the property, plant, and
equipment and payroll, have not been finalized and require management review before
finalization.

FCC’s Property Management Policies and Procedures (manual), although finalized, has
certain disconnects in definitions, policies, and procedures of property described in the
manual versus the property items shown in the financial statements. The categories of
personal property listed in the manual are Equipment, Software, Bulk Purchases, and
Sensitive Property, while the note to the financial statements showed the categories as
Furniture, Non-Computer Equipment, Computer Equipment, Bulk Purchases, Vehicle
Systems, Broadcast Stations, Equipment, ADP Software, and ADP Software-In-Process.
In addition, while reported separately as property in the notes of the financial statements,
furniture is not mentioned in the manual as part of any category of property, nor is its
inventory and valuation method, useful life, and disposal method described. These
disconnects could result in confusion, misunderstanding, and inconsistencies in
implementation of the policies and procedures.



00-AUD-09-52              REPORT ON THE FEDERAL COMMUNICATIONS                         Page 36
                          COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



Documented internal control and financial policies and procedures are a major part of
managing an agency. These comprise the plans, methods, and procedures used to meet
missions, goals, and objectives and in, doing so, support performance-based
management. Internal control serves as the first line of defense in safeguarding assets
and preventing and detecting errors and fraud. Documentation of control policies and
procedures reduces the risk of misunderstanding, confusion, and inconsistent actions
taken.

Management Comments:

Management concurs noting FCC has been developing a comprehensive policy and
procedures manual. Upon completion, the manual will be placed on the FCC Intranet to
provide easy access for staff. Additionally, management will conduct training sessions to
familiarize staff with the new policies and procedures.

Recommendations:

We recommend that FCC:

   42.   Perform a global assessment of the financial and administrative operations that
         will require a written internal control policies and procedures manual.
         Consolidate all financial policies and procedures in a manual that is updated
         through controlled memoranda during the year. Update the manual for the
         memoranda changes annually or as necessary.

         Management Comments:

         Management concurs stating a global assessment was performed to identify
         sections to include in the manual under development. The procedures will
         include change procedures that control how and when policies and procedures
         are updated.

   43.   Perform an in-depth review of the draft and final written internal control
         policies and procedures manual to ensure that information is accurate, current as
         to the Federal internal control environment, and consistent with related
         documentation.

         Management Comments:

         Management concurs. Policies and procedures are being developed and are
         subject to management review throughout the process.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 37
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II               INDEPENDENT AUDITOR’S
                         REPORT ON INTERNAL CONTROL



    44.    Ensure that FCC employees responsible for internal controls are provided with a
           copy of the internal control policies and procedures manual and are
           knowledgeable of the contents.

           Management Comments:

           Management concurs. As mentioned above, once completed the policies and
           procedures will be available via Intranet access.

    45.    Upon finalization of internal control policies and procedures manuals, conduct
           sufficient training of Commission personnel.

           Management Comments:

           Management concurs. A training plan will be developed to disseminate the
           information contained in the new manual.


VII.      Improve Internal Controls over Certain Accounts Receivable (Modified
          Repeat Condition)

A. Regulatory Fees

    The Omnibus Budget Reconciliation Act of 1993 requires FCC to collect regulatory
    fees to offset certain costs incurred in regulating its industry. The legislation also
    gives FCC the authority to review the regulatory fees and adjust the fees to reflect
    changes in its appropriation from year to year. It also authorizes FCC to charge a late
    payment penalty and to dismiss applications or revoke licenses for non-payment of
    the fees, and waive, reduce, or defer payment of a fee for good cause.

    FCC’s fee collection database is not linked to its licensing databases, making it
    difficult for FCC to perform routine automated checks on whether all licensees have
    paid their regulatory fee. In response to this weakness identified in the prior year
    report1 and the GAO report2, FCC implemented the Commission Registration System
    (CORES), a commercial off-the-shelf software that will assign a specific FCC
    Registration Number (FRN) to a licensee to track all transactions related to that
    licensee. The FRN will be populated in RAMIS, and eventually linked to all the
    licensee databases in each bureau or office within FCC. Unfortunately, RAMIS was
1
  OIG Report titled, Report on the Federal Communications Commission Fiscal Year 1999 Financial
Statements (00-AUD-01-01) dated, July 7, 2000.
2
  GAO report titled, Telecommunications: FCC Does Not Know If All Required Fees Are Collected
(RCED-99-216) dated, August 31, 1999.




00-AUD-09-52             REPORT ON THE FEDERAL COMMUNICATIONS                                Page 38
                         COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   not operational during fiscal year 2000. In addition, CORES was not implemented
   until July 2000. The success of CORES as a complete database is yet to be evaluated
   due to the newness of the process and especially when registration in CORES is
   encouraged, not required.

   To close the loop on the potential revenue gap from non-paying licensees, FCC
   instituted a new process for fiscal year 2000 collection after the regulatory fee
   payment deadline elapsed. The process requires FO (1) to send a list of entities that
   paid fees, along with the amount and other relevant data to the appropriate bureaus
   and (2) to request that each bureau sends its lists of licensee/entities subject to the fee.
   A billing statement is then sent to licensees that were identified through this process.
   This process was labor intensive since FCC’s organizational structure is decentralized
   with each bureau (program operation) still maintaining its own licensee database.
   These databases do not interface with each other or with the financial management
   system. In addition, the bureaus’ databases do not always have the current status of a
   licensee.

   In our review of the regulatory fees that were collected where there was a difference
   between the FCC estimated fee and the fee calculated by the licensee, we noted that
   FCC processed the licensee’s lower amount without question or request for back-up
   documentation. While FCC stated that any differences are reviewed for further
   action, we found no evidence of this review in the files. Also, FCC believes that
   since its data is estimated based on historical data, the licensees’ data will be more
   accurate. We believe that FCC, in order to assure itself that it is collecting
   appropriate amounts and its collection process is fair to all licensees, should review
   the basis of licensees’ calculations when they differ substantially from the original
   estimate. This process will also assist FCC in estimating future regulatory fees.
   When discussed with management, FCC stated that it would now require the licensee
   to submit worksheets supporting their payment calculations.

B. Application-Processing Fees

   As authorized under Section 8 of the Communications Act of 1934, as amended, FCC
   collects application processing fees from applicants applying for certain licenses.
   Applicants submit a completed FCC application form with a “Remittance Advice” to
   a specific bank lockbox. The bank stamps the documentation with a received date,
   assigns a fee control number, deposits the payment with the Department of the
   Treasury, enters data from application into the fee collection database, and forwards
   the application documentation, and copies of proof of payments to FO. FO, without
   opening the application documentation package, forwards the package to the bureaus
   for processing.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                             Page 39
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   As noted in our report last year and in the GAO report noted above, adequate
   documentation from the bureaus did not exist to show that application fees were paid.
   In addition, the bureaus’ lack of access (read-only), whenever needed, to the fee
   collection database made it more difficult for them to verify proper payment of fees.
   FCC, in its responses, indicated that this weakness will be corrected by the
   implementation of RAMIS and CORES in fiscal year 2000. Unfortunately, as
   aforementioned, RAMIS was not operational, CORES was operational as of July
   2000 and registration in CORES is voluntary, not mandatory.

   Although FO noted that it has had requests for access to the Collections System from
   the bureaus to verify that proper payments were received and recorded in the system,
   the implementation of this verification process was not in effect for most of the fiscal
   year. Moreover, we do not believe that all bureaus requiring application-processing
   fees implemented this verification process.

   In both the regulatory fee and the application-processing fee, there is a higher risk
   that fees required by legislation are not recorded and collected. Therefore, the
   conditions for a potential revenue gap still exist.

   Internal controls, as used in OMB Circular No. A-123, Management Accountability
   and Control covers all aspects of an agency’s operations (programmatic, financial,
   and compliance). Without integrated database systems accessible to all, and with the
   bureaus maintaining the customer database while FO maintains the collections data,
   the need for the bureaus (program) and the FO (financial) to coordinate and
   communicate in establishing and maintaining internal controls is mandatory.

Management Comments:

Management concurs. FCC noted deficiencies in the fee collection programs in 1998 and
initiated comprehensive steps to fundamentally re-engineer the automated systems. FCC
initiated steps to resolve issues originally identified in the GAO report. One major
initiative is the implementation of two new systems, RAMIS and CORES. CORES
assigns a specific FRN to a licensee that will be used to track all transactions related to
that licensee. The FRN will be populated in RAMIS, and eventually linked to all the
licensee databases in each bureau or office within FCC. Once RAMIS is operational,
each phase of collections, whether it is the application fees or the yearly regulatory fees,
will be processed through RAMIS. This will be extremely beneficial for the yearly
regulatory fees because it will allow management to generate a record of each collection
to be used as a basis for bill generation in subsequent years.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 40
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



Recommendations:

FCC has initiated several manual processes and controls and has started implementing
information technology systems to improve management of its account receivable. We
recommend the following:

   46.   Ensure that RAMIS and CORES, when fully operational, address and provide
         solutions to weaknesses noted in our findings.

         Management Comments:

         Management concurs. FCC believes the systems will resolve the weakness.

   47.   Continue with the alternative procedures used to ensure that all fees are
         collected while the new systems are not fully operational. Improve on the
         procedures by evaluating the results of this year’s manual processes used in
         identifying unpaid regulatory fees and maintain a historical record of the
         percentage of collections. Use this statistical information to determine how
         close actual payments are to FCC’s estimate and adjust future estimates, if
         necessary.

         Management Comments:

         Management concurs. FCC plans to continue manually calculating unpaid
         regulatory fees until an automated system is implemented.

   48.   Document and implement standard procedures for bureaus to review payment of
         fees prior to processing an application. Verify compliance with the internal
         controls documented in the procedure manual.

         Management Comments:

         Management concurs. FO is working with the bureaus and offices to update its
         policies and procedures to ensure verification of payment of fees prior to
         processing an application or granting a right.

   49.   Increase communication and coordination between FO and the bureaus. Ensure
         that authorized bureau staff have at least read-only access to financial
         information relevant to their operations. The bureaus and FO should be
         proactive to the process instead of reactive.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                     Page 41
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S
                       REPORT ON INTERNAL CONTROL



          Management Comments:

          Management concurs. FO has taken a proactive approach to working with
          bureaus and offices on outstanding regulatory fee items and application fee
          issues.

   50.    Consider using CORES as a mandatory customer registration mechanism to
          ensure completeness of the database and consistent implementation of the
          registration procedures.

          Management Comments:

          Management concurs. FCC is currently addressing the full utilization of the
          FRN and CORES.


VIII. Improve Supporting Documentation and Controls on Property and
      Equipment

An agency must establish physical control to secure and safeguard vulnerable assets.
Such assets should be periodically counted and compared to control records. Internal
control and all transactions and other significant events need to be clearly documented,
and the documentation should be readily available for examination. In addition, control
activities help ensure that all transactions are completely and accurately recorded.

Although we were ultimately able to apply audit procedures to audit property and
equipment, our review of property and equipment disclosed several internal control
deficiencies as follows:

A. Inadequate Supporting Documentation

   •     Documentation supporting 11 of 18 (61%) property sample items described in the
         property management system did not agree to the description on the property
         management system. The specific part and serial number on the supporting
         documentation was different from what was in the property management system.
   •     Three of eighteen (17%) sample items did not have receiving reports or packing
         slips to provide evidence of receipt.
   •     One of eighteen (6%) sample items did not have an invoice.
   •     One of eighteen (6%) sample items did not have an appropriate payment
         authorization.
   •     Two of eighteen (11%) sample items did not have a proof of payment such as an
         FFS disbursement document that ties to the property.



00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                      Page 42
                       COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II           INDEPENDENT AUDITOR’S
                     REPORT ON INTERNAL CONTROL



   •   Four of eighteen (22%) sample items did not have a required review/approval
       signature on one or more documents supporting the sample item.

B. Incorrect Dollar Values in the Property Records

   Six of eighteen (33%) sample items had incorrect dollar values in the property
   management records, requiring changes to be made when brought to the attention of
   FCC management.

C. Some Capitalized Costs Not Distinguished from Non-Capitalized Costs

   In reviewing accounting entries related to acquisition of certain equipment, we noted
   that the use of wrong budget object codes (BOC) resulted in capitalized costs not
   distinguished from non-capitalized costs. Specifically, ADP equipment acquisition
   was charged to BOC 3120, ADP Equipment, a BOC that is not to be used at the
   transaction level. FCC’s Financial Coding Handbook (Fiscal Year 2000 edition)
   states BOC 3120 is to be used for budget allocation and operational transactions are
   not to be posted to it. Transactions are to be posted in FFS to either capitalized ADP
   equipment (BOC 3121) or non-capitalized ADP equipment (BOC 3122.) As a result,
   capitalized costs could not be distinguished from non-capitalized costs without a
   detailed account analysis.

   Management Comments:

   Management concurs. FCC developed new processes and communications channels
   to improve property management and financial practices. Nevertheless, it recognized
   there is room for further advancement. FCC believes the shortcomings identified
   during the FY 2000 inventory/audit were directly related to insufficient personnel
   with the required training and experience in government asset management. To
   resolve the situation we have created four new positions to be filled in FY 2001:
   Inventory Operations Program Manager, Financial Audit Coordinator, Inventory
   Management Specialist, and Data Entry Clerk.

D. Property Reconciliations Not Performed for Most of Fiscal Year 2000

   Property reconciliations were not performed for most of fiscal year 2000. We
   requested to see monthly reconciliations but were provided only with the June, July
   and September 2000 reconciliations.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                        Page 43
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   Management Comments:

   Management concurs recognizing property reconciliations were not performed for the
   entire year. FCC began addressing this issue as soon as the FY 1999 audit was
   completed; however, at that point several months had lapsed in FY 2000. In FY
   2001, all months have and will be reconciled.

Our review of software acquisitions for completed and in-process transactions disclosed
the following:

E. Documentation Was Not Readily Available for Examination

   Overall, it took two months for FCC to obtain supporting documentation needed to
   vouch payments under multiple purchase orders to their respective software systems.
   Additionally, this documentation was provided after FCC performed an extensive
   review and search of software acquisitions. Audit procedures revealed that
   supporting documentation kept in files was disorganized, incomplete and not
   conducive to substantiation review. Information needed to compare specific purchase
   orders and payments with the software asset was not provided until after multiple
   requests and discussion.

   Management Comments:

   Management concurs. Capitalization of software was one of the final capital asset
   categories to be addressed, partly due to its complexity. FCC now has a system in
   place for identifying system costs as they are incurred and will be able to provide
   stronger and more timely support for FY 2001 balances.

F. Documentation Did Not Demonstrate that Software Maintenance is Accurately
   Identified and Expensed

   FCC reports software as in process until it is certified for operation and classified as
   capitalized software subject to depreciation. FCC has been developing several
   software systems and each software system development life cycle can span for
   several years and involve multiple purchase orders. When purchase orders are
   originally prepared, they identify an accounting “string” of codes to be charged
   including the fund, SGL account, organization, BOC, etc. Since numerous payments
   may be made under the same purchase order, the payments are usually charged to the
   originally established accounting string, which may not be correct.

   In our audit, the back up files for one of the capitalized software sample items
   included approximately $40 thousand in payments that FO instructed ITC not to



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 44
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



   include in the cost of the asset because they were for software maintenance. We did
   not receive supporting documentation to assure ourselves that these payments were
   properly recorded.

   Correct BOC classification has been an issue for FCC because often staff who enter
   BOC information in FFS are not knowledgeable of the differences in accounting for
   expenditures, (i.e., capitalized vs. non-capitalized, depreciable or expensed). The
   tendency is to charge the amount to the BOC already listed on the purchase order or
   invoice. Thus, if a purchase order is originally coded to capitalized software, and a
   payment relates to maintenance, it will normally be charged to the BOC originally
   coded on the purchase order or invoice.

   Management Comments:

   Management concurs. The referenced asset for $40,623, when researched by FCC
   staff with specific payment vouchers, was charged against BOC 2520, Contract
   Services – Non Federal, which is not a capitalized code. The BOC for this entry
   should have been 2572, ADP Software Maintenance. Neither of these BOCs
   represent capital expenses, therefore, the amount was properly expensed.

   ITC will advise staff to pay close attention to the correct BOC usage. As part of the
   data collection activities underway for FY 2001, ITC has instituted necessary steps to
   ensure BOCs used are consistent with the ADP services provided. The Planning and
   Support Group (PSG) is reviewing all ITC-related service requests for proper BOC
   entries.

   Recommendations:

   51.   Include in the AO’s procedures requirements that:

         a) The receiving unit prepares a receiving report when a packing slip is not
            included in the shipment.

         b) The receiving unit records all relevant asset information such as asset
            number, serial numbers and purchase order on the supporting documentation
            (order, receipt, and payment) to facilitate tracking and reconciliation of an
            asset in the property management system, in FFS, and the supporting
            documentation.

         c) Request assistance from the ordering office before assigning an asset
            number if there is any question as to how to assign asset and serial numbers
            to items received.



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 45
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



         d) For complex orders with multiple parts and lines in the purchase order, such
            as purchases of computer equipment or software, require the ordering office
            to provide instructions on the purchase order or other document sent to the
            warehouse or receiving unit as to how costs and assets are to be recorded in
            the master property record.

         Management Comments:

         Management concurs. FCC recognized the Property Management Policies and
         Procedures have certain “disconnects” in the definitions, policies, and
         procedures of property currently described. During the past year, FCC
         discovered many changes/updates which need to be incorporated into policies
         and procedures. FCC will ensure all financial policies and procedures and
         administrative requirements are captured in a revised edition.

   52.   Determine which office, FO or AO, is responsible for maintaining the
         completeness of supporting documentation. Consider including a checklist of
         relevant documentation that should be in an asset file to ensure completeness of
         supporting documentation.

   53.   To improve the accuracy of cost data in the management property record and
         the FFS, we recommend that FO:

         a) Reconcile on a monthly basis the management property record and the FFS
            for capitalized assets and at least annually for non-capitalized assets.

         b) Review FFS entries to ensure use of proper accounting BOC.

         c) Restrict the use of budgetary BOC in FFS and train employees on the proper
            accounting entries.

         Management Comments:

         Management concurs with Recommendations 52 and 53 noting FCC has already
         acted on the recommendations.

   54.   To provide assurance that software maintenance costs are classified
         appropriately, we recommend that FO, working closely with ITC to:

         a) Review capitalized software and software maintenance costs on a periodic
            basis.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 46
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II               INDEPENDENT AUDITOR’S
                         REPORT ON INTERNAL CONTROL



             b) Establish a formal mechanism to ensure that personnel responsible for
                knowing which costs are maintenance and which costs are developmental
                provide correct BOC guidance to personnel entering the information in FFS.

             c) Provide training to appropriate personnel on proper allocation of costs to
                BOCs.

             Management Comments:

             Management concurs. Data is now being gathered and reviewed on a quarterly
             basis. Management noted it has collected the software inventory for the first
             quarter of FY 2001 and requested second quarter information. Management
             provided guidance to Customer Service Representatives (CSR), Bureau and
             Office Contracting Officer Technical Representatives, and system owners on
             how to code maintenance versus development cost entries. The capture of data
             quarterly on software maintenance and development was formalized in
             September 2000 and is operational. All CSRs and PSG staff have been trained
             on the proper usage and data entry of both the procurement system and FFS and
             have been given documentation on the appropriate BOC definitions.

      55.    Ensure that software and systems’ owners certify the transfer of a software
             system from development to operations (in-service) in order for the proper
             classification and proper depreciation of the asset.

             Management Comments:

             Management concurs stating FCC requires self-certifications quarterly from all
             system owners for their systems that have moved from development to
             production.


IX.         Improve Controls Over Accounts Payable (Modified Repeat Condition)

FCC did not analyze its accounts payable on a routine basis to determine accuracy,
reasonableness, and proper classification. Also, the accounts payable general ledger
balance was not being reconciled to subsidiary records. Upon analysis of the subsidiary
records, we noted vendors’ accounts beginning with a Z code with a total of
approximately $15 million debit balances shown as outstanding accounts payable at
September 30, 2000. A “Z” code is a vendor code in FFS that starts with the prefix Z.
FCC could not initially explain the nature of the debit balances and had to research the
issue. Eventually, FCC determined the debit balances were substantially due to auction
up-front payments refunded to losing bidders from prior years activity dating back to at



00-AUD-09-52             REPORT ON THE FEDERAL COMMUNICATIONS                       Page 47
                         COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



least 1996. When refunds were made, FCC debited accounts payable even though an
accounts payable was not originally established.

FFS allows vendor accounts to be paid even without a payable being established, thus
creating debit account balances. Although a correcting entry to reverse (or establish) an
accounts payable was made when this error was discovered, the correcting entry was not
matched with the vendor codes with debit balances. In addition, we noted numerous
outstanding balances in the subsidiary ledger schedule being identified by a journal
voucher, not by a vendor. We have identified at least 38 journal vouchers prepared to
correct balances; most of these vouchers were not matched against a specific vendor
balances. Also, FCC does not require all critical accounts payable fields such as the
vendor balance field in FFS to be completed.

Standards for internal controls state that transactions are to be properly classified.
Account balances should be analyzed on a periodic basis to ensure their propriety,
accuracy, and timely detection of errors.

Management Comments:

Management concurs. FCC is aware of the issues identified with respect to accounts
payable and has been working in FY 2001 to address the problems. Management
affected several changes to the accounts payable subsidiary listing and a monthly
reconciliation was established. FCC made a pointed effort to work with its fund
managers in reviewing and eliminating stale accounts payable and unliquidated
obligation balances during FY 2000. Management intends to continue improving this
area for FY 2001.

Recommendations:

   56.   Review vendor account balances within the accounts payable subsidiary ledger.

         Management Comments:

         Management concurs. FCC added the vendor name to the monthly subsidiary
         listing so that vendor balances can be more easily identified. FCC will continue
         to work with its fund managers to conduct quarterly reviews of both accounts
         payable and unliquidated obligation balances.

   57.   Perform periodic reconciliation of the general ledger and the subsidiary ledger
         balances. Analyze the balances in the accounts periodically (monthly).




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 48
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II               INDEPENDENT AUDITOR’S
                         REPORT ON INTERNAL CONTROL



     58.    Activate user access controls and data entry field requirements to ensure that
            only appropriate activity is recorded in the accounts payable subsidiary ledger.

            Management Comments:

            Management concurs with Recommendations 57 and 58 and established a
            monthly reconciliation format and began reconciling accounts payable balances
            in FY 2001.

     59.    Minimize the use of journal vouchers. If a journal voucher has to be prepared,
            ensure that the appropriate subsidiary ledger is adjusted for the effect of the
            journal voucher.

            Management Comments:

            Management concurs stating wherever possible it will attempt to use transaction
            codes in order to establish and liquidate accounts payable.

     60.    Consider using a sub-SGL account (i.e., SGL 2110.1) to account for auction
            related payables. This will allow management to perform an effective and
            efficient review of the accounts payable and the auction-related transactions.

            Management Comments:

            Management concurs stating it will consider a sub-SGL account in its general
            ledger structure.


X.         Performance Goals and Results (Repeat Condition)

The Government Performance and Results Act of 1993 (GPRA) places management
expectations and requirements on federal agencies by creating a framework for more
effective planning, budgeting, program evaluation, and fiscal accountability for federal
programs. The intent of the GPRA is to improve public confidence in Federal agency
performance, by holding agencies accountable for achieving program results, and to
improve congressional decision-making by clarifying and stating program performance
goals, measures, and costs “up front.” The annual financial statements is one medium for
reporting performance goals and results.

In fiscal year 1999, FCC did not report performance goals and results in its MD&A. FCC
explained that it was due to a problem in incorporating the provisions of GPRA into its
annual financial statements, not due to lack of processes for identifying, assembling,



00-AUD-09-52             REPORT ON THE FEDERAL COMMUNICATIONS                       Page 49
                         COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



analyzing, and reporting performance data, which we reported. In fiscal year 2000, FCC
did include performance goals and results in its MD&A. These goals and results,
however, could not be linked to the input (costs) as reported in the Statement of Net Cost.
In addition, this information did not become available for our review until December
2000. There was no global list of performance goals and results (annual performance
plans) where we could verify whether appropriate management and performance
information was obtained at each level of organization. We could not verify the process
where global performance goals and results are evaluated to determine the most
significant activities and indicators for financial reporting purposes.

Goals and performance measures must be used in day-to-day management and built into
the performance appraisal system to develop an understanding of the relationships
between strategic goals and individual work assignments. GPRA’s objective is to
manage for results. It offers a framework to integrate key management processes in order
to provide policy and decision-makers with better information on program results and
costs. Without timely feedback on the goals, results, and costs of a program, responsible
managers are not able to use the valuable information to take action. As a result, GPRA
becomes a useless paperwork exercise.

The FCC strategic plan provided to us was in draft and management intends to finalize it
after the end of the audit. The reported measures of program and financial performance
were consistent with information on major goals and objectives from the draft strategic
plan but again, could not be linked to the program and costs featured in the Statement of
Net Cost. The costs in the Statement of Net Costs are quantitative data for use in
assessing or measuring the outputs and outcomes of specific performance indicators. As
noted in item II of this report, FCC does not have adequate cost accounting systems to
measure and report the costs of each segment’s outputs.

We believe that increased coordination and communication is still needed among the
Performance Evaluation and Results Management Office (PERM - GPRA lead
responsibility office), budget office, program offices (bureaus), and the fiscal
accountability office (CFO’s office) to ensure integration and consistency of processes,
shared financial and operational information, and to promote understanding of the
performance measurement system throughout the organization.

Management Comments:

Management concurs agreeing the goals and results reported in the MD&A section of the
financial statements need to be linked to the Statement of Net Cost.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 50
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II               INDEPENDENT AUDITOR’S
                         REPORT ON INTERNAL CONTROL



Recommendations:

      61.    Enhance communication and information sharing to achieve better results.
             Ensure that staff throughout FCC is aware of and managers are involved in
             setting organizational goals and objectives, regularly assessing progress, and
             making needed changes to help ensure success.

      62.    Use goals and performance measures in day-to-day management and build them
             into performance appraisal system to develop an understanding of the
             relationships between strategic goals and individual work assignments.

      63.    Increase coordination and communication among the PERM, budget office,
             program offices, and the CFO office. The CFO office should provide costs
             input in achieving the outputs and/or outcomes of performance goals.

      64.    Link objectives and performance measures to the strategic plan and the annual
             financial statements.

             Management Comments:

             Management concurs with Recommendations 61, 62, 63, and 64. Management
             noted there was continued and close coordination between all offices, bureaus,
             Budget Office, and Office of CFO. Any integration issues were the result of
             inadequate cost data, not inadequate coordination. As aforementioned, the CFO
             has begun work on designing a new cost accounting system.


XI.         OMB Circulars No. A-127 and A-130 Reviews (Repeat Condition)

FCC has recently identified its major financial applications and general support systems,
and established a timetable for meeting the requirements of OMB Circulars No. A-127,
Financial Management Systems and A-130, Management of Federal Information
Resources reviews of these applications. FCC plans to begin conducting OMB Circulars
No. A-127 and A-130 reviews in Fiscal Year 2002. Until these reviews are performed
and completed, FCC cannot determine compliance with these Circulars to include in its
annual Federal Managers’ Financial Integrity Act (FMFIA) report and ensure substantial
compliance with Federal Financial Management Improvement Act (FFMIA).

Recommendations:

      65.    Institute a program for conducting periodic reviews in accordance with OMB
             Circulars No. A-127 and A-130.



00-AUD-09-52             REPORT ON THE FEDERAL COMMUNICATIONS                       Page 51
                         COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION II            INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL



         Management’s Comments:

         Management concurs noting it contracted the required services to certify and
         accredit FCC’s major applications and general support systems. These reviews
         are being conducted to ensure compliance with OMB Circulars No. A-123, A-
         127, and A-130, Appendix III.

   66. Include the results of OMB Circulars No. A-127 and A-130 reviews as part of
       Section 4 reporting in FCC’s annual FFMIA report.

         Management’s Comments:

         Management concurs adding ITC staff will coordinate with FO staff to ensure
         summaries of financial application level reviews performed to comply with
         OMB Circulars No. A-127 and A-130 are included in FMFIA reports.

                 ********************************************

In addition to the reportable conditions described above, we noted certain matters
involving internal control and its operation that we reported to the management of FCC in
a separate letter dated February 9, 2001.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB, and Congress, and is not intended to be, and
should not be, used by anyone other than these specified parties. We caution that
misstatements, losses, and noncompliance may occur and not be detected by the testing
performed and that such testing may not be sufficient for other purposes.


a1
Calverton, Maryland
February 9, 2001




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 52
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
              SECTION III

      INDEPENDENT AUDITOR’S REPORT
ON COMPLIANCE WITH LAWS AND REGULATIONS
  SECTION III                  INDEPENDENT AUDITOR’S REPORT ON
                               COMPLIANCE WITH LAWS AND REGULATIONS




                                                                                t

  A1
         Independent Auditor’s Report on Compliance with Laws and Regulations

  To the Inspector General of the
  Federal Communications Commission


  We have audited the Principal Statements (hereinafter referred to as “financial
  statements”) of the Federal Communications Commission (FCC) as of September 30,
  2000 and have issued our report thereon dated February 9, 2001. We conducted our audit
  in accordance with U. S. generally accepted auditing standards; the standards applicable
  to financial audits contained in Government Auditing Standards, issued by the
  Comptroller General of the United States; and Office of Management and Budget (OMB)
  Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

  The management of FCC is responsible for complying with laws and regulations
  applicable to FCC. As part of obtaining reasonable assurance about whether FCC’s
  financial statements are free of material misstatements, we performed tests of its
  compliance with certain provisions of laws and regulations, noncompliance with which
  could have a direct and material effect on the determination of financial statements
  amounts, and certain other laws and regulations specified in OMB Bulletin No. 01-02,
  including the requirements referred to in the Federal Financial Management Improvement
  Act of 1996 (FFMIA). We limited our tests of compliance to these provisions and we did
  not test compliance with all laws and regulations applicable to FCC.

  The results of our tests of compliance with laws and regulations described in the
  preceding paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the
  following laws and regulations that are required to be reported under Government
  Auditing Standards and OMB Bulletin No. 01-02, which are described below.

Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                    Offices in 13 states and Washington, DC
                                                                                 h
  00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                 Page 1
                               COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



Chief Financial Officers Act of 1990 (CFO Act)

The Government Management Reform Act of 1994 (GMRA) amended the requirements
of the CFO Act by requiring, among other things, the annual preparation and audit of
organization-wide financial statements of 24 executive departments and agencies.
Although FCC is not listed in OMB Bulletin No. 01-02, as one of the agencies required to
comply with these requirements, management has voluntarily elected compliance and as
such is being evaluated accordingly.

The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which has an impact on citizens’ lives and
livelihood. To meet this responsibility, the CFO Act establishes a leadership structure,
provides for long-range planning, requires audited financial statements, and strengthens
accountability reporting.

Specifically, the CFO Act establishes the authority, functions and responsibilities of a
CFO. These include, among others, that a CFO:

•   Develop and maintain an integrated accounting and financial management system that
    complies with applicable accounting principles, standards, and requirements; internal
    control standards; and requirements of OMB, the Department of the Treasury, and
    others;

•   Direct, manage, and provide policy guidance and oversight of all agency financial
    management personnel, activities, and operations;

•   Implement agency asset management systems, including systems for cash
    management, credit management, debt collection, and property and inventory
    management and controls.

FCC does not meet the above criteria as explained in more detail in our Report on
Internal Control, items I through V. The key items we identified include:

•   FCC was not able to prepare reliable and timely financial management information
    efficiently for managing current operations.

•   FCC’s financial management systems do not comply with certain accounting
    standards and requirements, and internal control standards.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 2
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



•   FCC’s financial information system is not fully integrated and relies on data from
    various subsystems and spreadsheet programs for the accounting, preparing, and
    reporting of financial statements.

•   Policy guidance for financial management personnel, activities, and operations are
    not formalized in writing, not updated, or not practiced effectively.

•   Direction, policy guidance and oversight of Universal Service Fund (USF) financial
    operations are inadequate.

In addition, FCCINST 1102.3, a FCC internal controls directive that assigns management
responsibility and procedures for establishing, maintaining, evaluating, and reporting on
internal controls expired in May 2000. There was no directive in effect after the
expiration date.


Debt Collection Improvement Act of 1996 (DCIA)

DCIA requires agencies to notify the Department of the Treasury of all debts that are
delinquent for more than 180 days for offset and for referral to the Department of the
Treasury for cross-servicing debt collection. In FCC’s “Treasury’s Report on Receivable
Due From The Public” (TROR) for administrative receivables submitted to the
Department of the Treasury as of September 30, 2000, it reported $20 million as the
amount eligible for referral for offset, however, only $109,000 of the $20 million was
referred to Department of the Treasury for cross-servicing. When this discrepancy was
brought to FCC management’s attention, FCC reviewed the debt eligible and actually
referred to the Department of the Treasury and determined that $18 million of the $20
million should be referred for cross servicing.

Also, FCC is responsible for reporting receivable due from public for the USF and
Telecommunication Relay Service Fund (TRS.) FCC has not been submitting the TROR
for USF and TRS until September 30, 2000, the first time it has submitted the reports.
We were not provided with the September 30, 2000 TROR report for USF and TRS and
therefore were not able to review the reports for compliance.


Government Performance and Results Act of 1993 (GPRA)

The GPRA requires federal agencies to submit to OMB a strategic plan and annual
performance plans that set goals with measurable target levels of performance; and
annual program performance reports that compare actual performance to annual goals.
Although FCC officials informed us that they had completed their annual performance



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 3
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



plan and their annual program performance report, they did not provide copies of these
reports to us. FCC officials indicated to us that these reports were either not released
outside the agency or were still under management review as of the end of our fieldwork.

Our review of these GPRA reports is required by OMB Bulletin No. 01-02. Without
having access to these reports, we cannot assess FCC’s compliance with certain
provisions of GPRA.

Recommendation

We recommend that FCC comply with the provisions of GPRA and provide copies of
these documents for our review as part of future financial statement audit.


Federal Financial Management Improvement Act of 1996 (FFMIA)

Under FFMIA, we are required to report whether the agency’s financial management
systems substantially comply with the Federal financial management systems
requirements, applicable Federal accounting standards, and the United States
Government Standard General Ledger (SGL) at the transaction level. To meet this
requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed instances, described below, where FCC’s financial
management systems did not substantially comply with certain requirements referenced
in the preceding paragraph. The following instances of noncompliance have been
identified and such matters are described in more detail in our Report on Internal Control.

Federal Financial Management Systems

Agency financial management systems shall comply with the Integrated Financial
Management Systems as discussed in further detail in OMB Circular No. A-127,
Financial Management Systems, Section 7. As described in more detail in our Report on
Internal Control, items I, II, IV, and V,

•   Integrated Financial Management Systems - FCC’s core financial system (Federal
    Financial System) and feeder systems (direct loans systems and spreadsheets, cost
    systems, property management system, license database, collection systems, certain
    accounts receivable systems, procurement systems and various spreadsheets) are not
    integrated or electronically interfaced. A user is not able to have one view into
    systems such that, at whatever level the individual is using the system, he or she can
    obtain the information needed efficiently and effectively through electronic means.
    The primary reason of the noncompliance is due to FCC management’s lack of



00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 4
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION III            INDEPENDENT AUDITOR’S REPORT ON
                       COMPLIANCE WITH LAWS AND REGULATIONS



    priority for financial management systems’ enhancements until recently. In the last
    two years, FCC has developed a long-term plan for the full implementation of
    enhancements and/or integration of its financial management systems.

•   Financial Reporting – FCC was not able to provide timely and reliable financial
    information for managing current government operations. The primary reason of the
    non-compliance is that financial activities are not recorded, prepared and analyzed
    timely.

•   Security – During our review of the Information Technology controls, we identified
    several weaknesses, which are collectively considered a material weakness and are
    described in more detail in our Report on Internal Control, item V. The weaknesses
    include lack of compliance with OMB Circular No. A-130’s, Management of Federal
    Information Resources, requirement for a comprehensive security plan, lack of
    necessary controls to protect information, and lack of a fully developed and tested
    contingency plan. The primary reason for the noncompliance is due to FCC
    management’s lack of review of its compliance requirements for financial
    management systems. FCC has developed a corrective action plan to achieve
    compliance with OMB Circular No. A-130 requirements by fiscal year 2001.

Accounting Standards

Due to the lack of an adequate cost accounting system, FCC was not able to produce
managerial cost information consistent with standards in Statement of Federal Financial
Accounting Standard No. 4, Managerial Cost Accounting Standards, as described in our
Report on Internal Control, item II.

Standard General Ledger at the Transaction Level

Implementing the SGL at the transaction level requires transactions be recorded in full
compliance with the SGL Chart of Account’s descriptions and posting models/attributes
that demonstrate how the SGL is to be used for recording transactions of the Federal
government accounting process. As described in detail in our Report on Internal Control,
item I, FFS was not in substantial compliance with the SGL at the transaction level.
Some of FFS’s deficiencies include: out-dated SGL accounts, account titles, and cross-
references; inaccurate natural balances; incorrect debit/credit postings; inconsistencies
between certain FFS tables and posting models; and inaccurate closing accounts. The
primary cause of this non-compliance is FCC’s lack of review of its FFS system setup
and posting model definitions for many years.




00-AUD-09-52           REPORT ON THE FEDERAL COMMUNICATIONS                        Page 5
                       COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS



Management Comments:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Control. As FCC corrects and
resolves identified issues, the occurrences of non-compliance will reduce.


                    ***************************************

Providing an opinion on compliance with certain provisions of laws and regulations was
not an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC,
FCC OIG, OMB and Congress, and is not intended to be and should not be used by
anyone other than these specified parties. We caution that non-compliance may occur
and not be detected by the tests performed and that such testing may not be sufficient for
other purposes.


a1
Calverton, Maryland
February 9, 2001




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 6
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
               SECTION IV

  FEDERAL COMMUNICATIONS COMMISSION
FISCAL YEAR 2000 ANNUAL FINANCIAL REPORT
Federal
Communications
Commission




                    Fiscal Year 2000
                 Annual Financial Report
Table Of Contents

Message From The Managing Director

Message From The Inspector General

Federal Communications Commission Fiscal Year 2000
      Annual Financial Report

      Overview of the FCC ................................................................................................................ 1
      Consolidated Balance Sheet ................................................................................................... 26
      Consolidated Statement of Net Cost ....................................................................................... 27
      Consolidated Statement of Changes in Net Position .............................................................. 28
      Consolidated Statement of Budgetary Resources .................................................................. 29
      Consolidated Statement of Financing ..................................................................................... 30
      Consolidated Statement of Custodial Activity .......................................................................... 31
      Notes to the Consolidated Financial Statements .................................................................... 32
      Required Supplemental Information ........................................................................................ 57
      Other Accompanying Information ............................................................................................ 60

AUDIT OF THE FEDERAL COMMUNICATIONS COMMISSION FISCAL
      YEAR 2000 ANNUAL FINANCIAL REPORT

      Independent Auditor's Report ..........................
      Independent Auditor's Report on Internal Control
      Independent Auditor's Report on Compliance with Laws and Regulations
                              FEDERAL COMMUNICATIONS COMMISSION
                                      Washington. D. C. 20554

OFFICE OF
MANAGING DIRECTOR

         A MESSAGE FROM THE MANAGING DIRECTOR

         I am pleased to present the Federal Communications Commissions (FCC) audited Financial Statements for
         fiscal year 2000. FY 2000 is the first year the FCC has generated fully OMB Bulletin 97-01. as amended,
         compliant. auditable financial statements and we are very pleased that our efforts have resulted in an
         Unqualified (clean) Opinion provided by the Office of Inspector General and their outside audit firm. Clifton
         Gunderson LLP.

         The Chief Financial Officers Act of 1990 (CFO Act), as amended. did not identify the Commission as an
         agency subject to the Act's rigorous record keeping and reporting standards because of the small size of the
         agency's operating budget. However. because of the value and increasingly important Spectrum Auction
         Program and the associated Spectrum Auction Loan Portfolio, in September of 1998 the Department of the
         Treasury instructed the FCC to provide audit assurance of its FACTS data submitted for FY 1999 and
         subsequent years. While the Commission's annual budget is small. only $209 million for FY 2000. its overall
         financial responsibilities have grown substantially since the passage of the CFO Act in 1990. In addition to its
         annual operating budget. the Commission is responsible financially for administering the Spectrum Auction
         Loan Program. the associated Installment Payment Program, and the Universal Service Fund. Since the auction
         program's inception in 1994, there have been over $18.8 billion in received as of September 30, 2000. Auction
         income has become an increasingly important revenue source for the Federal Government. In FY 2001,
         Auction 35 was held and resulted in net high bids of over $16.8 billion dollars. In addition. the Spectrum
         Auction Installment Payment program, comprised of both direct installments and outstanding loan obligations,
         had a net value in excess of $9.6 billion on September 30, 2000. `The Universal Service Fund maintained a
         portfolio balance in excess of $2 billion at the close of the fiscal year, having collected in excess of $4.5 billion
         for the year. The total assets under the agency's control were valued at slightly more than $14.4 billion at the
         close of the reporting period.

         The agencies that were required to adopt the standards of the Chief Financial Officers Act of 1990 have
         learned through 10 years of effort that changes to accounting practices come only through years of intensive
         efforts. The FCC accomplished remarkable success in FY 2000 creating a complete set of Financial
         Statements, Notes. and Required Supplementary Information that have received an unqualified opinion by the
         external auditors hired by the agency's Inspector General. This success is in no small part to the lessons learned
         by those much larger agencies over the past ten years. It is also a tribute to the outstanding level of cooperation
         which existed between the agency's financial and program staff and that of the Inspector General. Working as
         a team. with a single goal they have accomplished a goal not attained previously by a federal agency in the
         first year of a full scope audit.
We still have much work to do and the auditor's Internal Control report provides a clear road map. They
correctly point out that we have not fully integrated the CFO Act's standard reporting into our daily operations.
We are reviewing and replacing several major accounting systems, we have implemented a new inventory
control system, we are outsourcing our loan processing activities and re-writing the entire accounting
procedures manual for the agency. Implementing these many changes while maintaining the opinion obtained in
FY 2000 represent our greatest challenge. Nonetheless, obtaining a "clean" opinion the very first year of effort
is an accomplishment for which we are justifiably quite proud. We are committed to institutionalizing our
financial improvements and to consistently providing reliable and timely financial information.




Andrew S. Fishel
Managing Director
                                            Federal Communications Commission
                                                        Washington
   Office of the
Inspector General


               A MESSAGE FROM THE INSPECTOR GENERAL

              I am pleased to report that the Office of Inspector General has completed the audit of the Federal
              Communications Commission (Commission) Fiscal Year 2000 Consolidated Financial Statements. This was the
              second audit of the Commission's financial activity in accordance with OMB Bulletin No. 01-02, Audit
              Requirements.for Federal Financial Statements, and the first audit that included all required principal statements.
              An expansion in reporting scope, spearheaded by the Chief Financial Officer and senior management, resulted in
              FCC compiling its first-ever financial statements that consolidated the financial activity of the Commission and
              the Universal Service Fund.

               The audit results on the Commission's fiscal year (FY) 2000 financial statements reflect the dedication and effort
               FCC placed on achieving financial management initiatives. The expansion to full-scope reporting and receipt of
               an unqualified opinion on all principal statements for FY 2000 is commendable. Congratulations on a goal not
               easily obtained!

              Although we issued an unqualified opinion on the FY 2000 financial statements, challenges remain for the
              Commission's financial management program. The Commission's financial reporting process requires automation
              and further integration into daily operations to ensure continued success. As the time frames and requirements of
              CFO Act reporting change, FCC needs to capitalize on its investments in financial management initiatives and
              efficiencies learned to timely meet future reporting requirements. Additionally, improved communication and
              data exchange between entity reporting components will be paramount to meet the Commission's financial
              management challenges and Governmentwide expectations.

              Material weaknesses exist in the internal control of the Commission and our report cites instances of
              noncompliance with laws and regulations required to be reported in accordance with Government Auditing
              Standards and other authoritative guidance. Accordingly, we reported improvements in internal control noted
              throughout the conduct of the audit. As the Federal CFO and IG communities best know, the fundamental
              changes and system improvements to meet principals and standards require time for implementation and the
              rigors of an audit cycle to best assess their effect. The Commission has made fundamental changes and is in the
              process of transitioning to a more "CFO like" agency. Consequently, this transition arises in a period of
              heightened financial responsibility and increased revenue flows not experienced in the Commission's history.
I want to thank the Chairman. Managing Director. Chief Financial Officer. and Commission staff for their cooperation
and efforts to make this achievement possible. Again. I congratulate the Commission on its success and I look forward to
the challenges in the future as we partner to maintain the highest level of financial accountability across the Commission.




H. Walker Feaster. III
Inspector General
                                                                      Federal Communications Commission
                                                                  Fiscal Year 2000 Annual Financial Report

              FEDERAL COMMUNICATIONS COMMISSION
                 Fiscal Year 2000 Annual Financial Report


Overview of FCC
The Federal Communications Commission (FCC or Commission) is an independent United States
government agency, directly responsible to Congress.            The FCC was established by the
Communications Act of 1934 and is charged with regulating interstate and international
communications by radio, television, wire, satellite and cable. The FCC’s Headquarters is located in
Washington, DC, and it has field locations throughout the nation. The FCC's jurisdiction covers the
50 states, the District of Columbia, and U.S. possessions.

The FCC is directed by five Commissioners appointed by the President and confirmed by the Senate
for 5-year terms, except when filling an unexpired term. The President designates one of the
Commissioners to serve as Chairperson. Only three Commissioners may be members of the same
political party. Commissioners cannot have a financial interest in any FCC-related business.

This document contains information about the FCC’s principal financial statements for fiscal year
2000, including a consolidated balance sheet, a statement of net cost, a statement of changes in net
position, a statement of budgetary resources, a statement of financing, and a statement of custodial
activity, and notes to the principal statements. It also serves as a guide to key FCC initiatives and
activities taking place during fiscal year 2000 or planned for future years that demonstrate the breadth
of the Commission’s work.

Mission Statement

   “The Federal Communications Commission’s (FCC’s) primary goals are to promote
   competition in communications, protect consumers, and support access for every
   American to existing and advanced communications systems.”

                                                                             Mission Statement
                                                                “A New FCC for the 21st Century”




Vision Statement
“A Vigorous Competitive Communications Market Providing Universal Access to all American




                                                  1
                                                                       Federal Communications Commission
                                                                   Fiscal Year 2000 Annual Financial Report

This vision synthesizes the FCC’s goals to promote competition in communications, protect
consumers, and support access for every American to existing and advanced communications services.

The FCC’s vision must be executed in a rapidly changing communications environment, which many
consider a “communications revolution.” In five years, the U.S. communications markets will be
characterized predominantly by:

•   Vigorous competition that will greatly reduce the need for direct regulation.
•   The advent of Internet-based and other new technology-driven communications services that will
    continue to erode the traditional regulatory distinctions between different sectors of the
    communications industry.

The enactment of the Telecommunications Act of 1996 -- and the establishment of a new pro-
competitive, deregulatory model for communications policy -- necessitates a reassessment of our core
policy functions, structure, and processes. New competitors and technological innovation are
currently transforming communications markets, but history has shown that markets that have been
highly monopolistic often do not naturally become fully competitive. History has also shown that
domestic markets that have been protected from foreign competition do not naturally open to global
competition.

As a result, in the upcoming years, the FCC must wisely manage the transition from an industry
regulator to a market facilitator. The FCC will be very different in both structure and mission from
what we know it as today. As a result, fiscal year 2000 was characterized by extensive planning and
research in support of our strategic plan.

The Commission’s primary goals of promoting competition in communications, protecting consumers,
and supporting access for every American to existing and advanced communications services will
continue. Our strategic plan for the next five years recognizes that what will change are the means and
mix of resources necessary to achieve these goals in an environment marked by greater competition
and convergence of technology and industry sectors.

Therefore, during this crucial period of transition, the overall strategic objective of the FCC must be to
continue to promote competition, open markets, and technological innovation, while also continuing
to protect and empower consumers as they navigate the new world of communications.

At the same time, the Commission must significantly revamp its functions, processes, and structure
agency-wide to meet the challenges of a rapidly progressing global information-age economy and an
evolving global communications market. Pursuing these strategic objectives will require the
identification of clear goals and the execution of year-by-year action plans. As we accomplish our
transition goals, we set the stage for a competitive environment in which communications markets
look and function like other competitive industries.




FCC Organization and Mandate to Harness the Communications
Revolution
                                                   2
                                                                     Federal Communications Commission
                                                                 Fiscal Year 2000 Annual Financial Report


The FCC is organized by function. We have seven operating Bureaus and ten Offices. The Bureaus’
responsibilities include: processing applications for licenses and other filings; analyzing complaints;
conducting investigations; developing and implementing regulatory programs; and taking part in
hearings. Our Offices provide support services. Even though the Bureaus and Offices have their
individual functions, they regularly join forces and share expertise in addressing Commission issues.

The Bureaus

Cable Services Bureau (CSB) - serves as the single point-of-contact for consumers, community
officials, and the industry for cable-related issues.

Common Carrier Bureau (CCB) - responsible for rules and policies concerning telephone companies
that provide interstate, and under certain circumstances intrastate, telecommunications services to the
public through the use of wire-based transmission facilities (i.e., corded/cordless telephones).

Consumer Information Bureau (CIB) - communicates information to the public regarding Commission
policies, programs, and activities. This Bureau is also charged with overseeing disability mandates.

Enforcement Bureau (EB) - enforces the Communications Act, as well as the Commission’s rules,
orders, and authorizations.

International Bureau (IB) - represents the Commission in satellite and international matters.

Mass Media Bureau (MMB) - regulates AM, FM radio and television broadcast stations, as well as
Multipoint Distribution (i.e., cable and satellite) and Instructional Television Fixed Services.

Wireless Telecommunications Bureau (WTB) - oversees cellular and PCS phones, pagers and two-way
radios. This Bureau also regulates the use of radio spectrum to fulfill the communications needs of
businesses, local and state governments, public safety service providers, aircraft and ship operators,
and individuals.

The Staff Offices

Office of Administrative Law Judges (OALJ) – presides over hearings and issues Initial Decisions.

Office of Communications Business Opportunities (OCBO) - provides advice to the Commission on
issues and policies concerning opportunities for ownership and contracting by small, minority, and
women-owned communications businesses.




Office of Engineering And Technology (OET) - allocates spectrum for non-Government use and
provides expert advice on technical issues before the Commission.


                                                  3
                                                                    Federal Communications Commission
                                                                Fiscal Year 2000 Annual Financial Report

Office of the General Counsel (OGC) - serves as chief legal advisor to the Commission's various
Bureaus and Offices.

Office of Inspector General (OIG) - conducts and supervises audits and investigations relating to the
operations of the Commission.

Office of Legislative and Intergovernmental Affairs (OLIA) - is the Commission’s main point of
contact with Congress and other governmental entities.

Office of the Managing Director (OMD) - functions as a chief operating official, serving under the
direction and supervision of the Chairman.

Office of Media Relations (OMR) - informs the news media of FCC decisions and serves as the
Commission’s main point of contact with the media.

Office of Plans And Policy (OPP) - serves as the Commission’s chief economic policy advisor.

Office of Workplace Diversity (OWD) - advises the Commission on all issues related to workforce
diversity, affirmative recruitment, and equal employment opportunity.

The Universal Service Fund

Universal Service Fund (USF) --- A significant program of the FCC, as designated in the U.S.
Budget, is the Universal Service Fund (USF). USF consists of five elements, four of which are the
universal service support mechanisms and the fifth being the Telecommunications Relay Service (TRS)
Fund. The universal service support mechanisms were established pursuant to Section 254 of the
Communications Act of 1934, as amended. The TRS Fund was established pursuant to Section 225 of
the Communications Act of 1934, as amended. TRS fund compensates TRS providers for the
reasonable costs of providing interstate telephone transmission services that enable persons with
hearing or speech disabilities to use wireline or wireless telecommunications services.

The universal service support mechanisms are funded through mandatory contributions from all U.S.
telecommunications companies, including local and long distance phone companies, wireless and
paging companies, and payphone providers. There are four universal service support mechanisms:
high cost, low income, rural health care, and schools and libraries. The High Cost Support Mechanism
provides support to telephone companies that serve high cost areas. The Low Income Support
Mechanism assists low-income consumers by helping to pay for service connection charges as well as
monthly charges. The Rural Health Care Support Mechanism allows rural health care providers to pay
the same for telecommunications services as their urban counterparts. The Schools and Libraries
Support Mechanism provides discounted Internet access and telecommunications




service to schools and libraries. While consumers benefit from the support mechanisms, only service
providers may receive money directly from the support mechanisms, which defray the cost of
delivering services to customers.
                                                4
                                                                 Federal Communications Commission
                                                             Fiscal Year 2000 Annual Financial Report


The Universal Service Administrative Company (USAC) – administers the USF under the direction of
the FCC.

The National Exchange Carriers Association (NECA) – administers TRS funds under the directions of
the FCC.

The most current organizational chart for the FCC, dated January 22, 2001, is included on the
following page.




                                              5
          FEDERAL COMMUNICATIONS COMMISSION

                         __ _                    COMMISSIONERS
                                             Michael K. Powell, Chairman

                          Susan Ness                                   Vacant
                          Harold W. Furchtgott-Roth                    Gloria Tristani

                       OFFICE OF
                       INSPECTOR
                       GENERAL

OF                     OFFICE OF                                           OFFICE OF                             OFFICE OF
NG &                   GENERAL                                             MANAGING                           MEDIA RELATIONS
OGY                    COUNSEL                                             DIRECTOR
                                                                                                                Media Services Staff
               Administrative Law Div.                           Human Resources Mgmt.                         Internet Services Staff
               Litigation Div.                                Information Technology
                                         -                         Center                                               ----
gy                                                               Financial Operations
                                                                 Administrative Operations
v.                                                               Performance Evaluation &
ff                                                                 Records Management
                                                                 Secretary
                                                                   OFFICE OF                           OFFICE OF                          OFFICE OF
                     OFFICE OF                                                                                                           LEGISLATIVE &
               PLANS &                                        COMMUNICATIONS                         WORKPLACE
                                                                 BUSINESS                            DIVERSITY                       INTERGOVERNMENTAL
                                                                                                                                           AFFAIRS
                     POLICY                                     OPPORTUNITIES


EMENT              WIRELESS                   I           MASS                      CONSUMER                    INTERNATIONAL                      CABLE
EAU          TELECOMMUNICATIONS                           MEDIA                   INFORMATION                      BUREAU                         SERVICES
                   BUREAU                                BUREAU                      BUREAU                                                       BUREAU
                                                                                                            Planning & Negotiations
cations                                                                      Consumer Infonnatimr                                          Consumer Protection &
             Auctions & Industry                  Audio Services Div.          Network Div.                 Div.                            Competition Div.
 es            Analysis Div.                      Policy & Rules Div.        Reference Information Center   Satellite & Radio-             Engineering & Technical
v.           Commerical Wireless Div.             Video Services Div.        Consumer Education Office       communications Div.            Services Div.
&            Public Safety & Private              Equal Employment           Strategic Information Office   Telecommunications Div.        Financial Analysis &
               Wireless Div.                      Opportunity Staff          Disabilities Rights Office     Administrative & Mgmt.          Compliance Div.
ublic        Policy Div.                          Administration & Mgmt.     Systems Support Office          Stall                         Policy & Rules Div.
ta Management Div.                                                           Staff                          Administrative Office                        Government & Public
Field        Planning & Management                                                                                                          Outreach Staff
               Staff                                                                                                                       Management Staff
agement
                                                                                        Federal Communications Commission
                                                                                    Fiscal Year 2000 Annual Financial Report




                                          Federal Communications Commission
                                                                               COMMISSIONERS
                                                                          William E. Kennard, Chairman
                                                             Susan Ness                           Michael Powell
                                                             Harold W. Furchtgott-Roth            Gloria Tristani


                                     OFFICE OF
                                     INSPECTOR
                                     GENERAL



                                                                             CONSUMER INFORMATION
        OFFICE OF                       OFFICE OF                                  BUREAU                                   OFFICE OF
      ENGINEERING &                     GENERAL                                                                          MEDIA RELATIONS                            M
       TECHNOLOGY                       COUNSEL                           Consumer Information
                                                                             Network Div.                            Media Services Staff                    Human R
   Electromagnetic             Administrative Law Div.                    Reference Information Center               Internet Services Staff
                                                                                                                                                             Informat
   Compatibility Div.          Litigation Div.                            Consumer Education Office
                                                                                                                                                              Center
   Laboratory Div.                                                        Strategic Information Office
                                                                                                                                                             Financia
   Network Technology                                                     Disabilities Rights Office
                                                                                                                                                             Adminis
   Div.                                                                   Systems Support Office
                                                                                                                                                             Performa
   Policy & Rules Div.                                                    Administrative Office
                                                                                                                                                              Records
   Administrative Staff
                                                                                                                                                             Secretary




                                                                                   OFFICE OF                                                               OFFICE OF
          OFFICE OF                         OFFICE OF                                                               OFFICE OF WORKPLACE                     INTERGO
                                                                                COMMUNICATIONS
     ADMINISTRATIVE LAW                      PLANS &                               BUSINESS                              DIVERSITY                                 A
           JUDGES                            POLICY                              OPPORTUNITIES




        COMMON                 WIRELESS TELE-                            MASS                        ENFORCEMENT                     INTERNATIONAL
        CARRIER               COMMUNICATIONS                             MEDIA                          BUREAU                          BUREAU
        BUREAU                    BUREAU                                BUREAU
                                                                                                  Telecommunications             Planning & Negotiations
                             Auctions & Industry                 Audio Services Div.               Consumers Div.                 Div.                            Co
  Competitive Pricing Div.
                              Analysis Div.                      Policy & Rules Div.              Market Disputes                Satellite & Radio-                C
  Accounting Policy Div.                                                                           Resolution Div.
                             Commercial Wireless Div.            Video Services Div.                                              communications Div.             Eng
  Accounting Safeguards
                             Public Safety & Private             Equal Employment                 Investigations &               Telecommunications Div.           Se
   Div.
                              Wireless Div.                       Opportunity Staff                Hearings Div.                 Administrative & Mgmt.           Fin
  Network Services Div.
                             Policy Div.                         Administration & Mgmt.           Technical & Public              Staff                            C
  Policy & Programming                                                                             Safety Div.
                             Data Management Div.                 Staff                                                                                           Pol
   Planning Div.
                             Management Planning                                                  Regional and Field                                              Go
  Industry Analysis Div.
                             Staff                                                                 Offices                                                         O
  Management Staff
                                                                                                  Office of Management                                            Ma
                                                                                                   & Resources
March 10, 2000




                                                         6
                                                                 Federal Communications Commission
                                                             Fiscal Year 2000 Annual Financial Report



Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results of
operations of the FCC. While the statements have been prepared from the books and records of
the FCC in accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary resources
which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity. One implication of this is that liabilities cannot be liquidated
without legislation that provides resources to do so.




                                                 7
                                                                               Federal Communications Commission
                                                                           Fiscal Year 2000 Annual Financial Report

Facilitating the Communications Revolution – The FCC’s
Implementation of the Government Performance and Results Act

         “Over the next five years, the FCC must wisely manage the transition from an
         industry regulator to a market facilitator….[D]uring this crucial period of
         transition, the overall strategic objective of the FCC must be to continue to promote
         competition, open markets, and technological innovation, while also continuing to
         protect and empower consumers as they navigate the world of communications.”
                                                                                                     st
                                                                                                          Century”


I. Overview: With rapid changes in the technology sectors, the FCC’s strategic planning
   process has been an evolving one. In the coming years, we expect U.S. communications
   markets to be characterized predominately by vigorous competition that will reduce the need
   for direct regulation. We anticipate that the advent of Internet-based and other new
   technology-driven communications services will impact various sectors of the communications
   industry. The FCC’s primary goals of promoting competition in communications, protecting
   consumers, and supporting access for every American to existing and advanced
   communications services will continue.
    To ensure the FCC is making strides in fulfilling the Agency’s mission, performance goals
    were developed in accordance with the Government Performance and Results Act (GPRA).
    Performance measures included in this overview were drawn from the FCC’s Strategic Plan
                            st
                               Century” (August 1999).1 In cases where the strategic plan does
    not include numeric goals, we used measures from the Agency’s FY 2000 budget request to
    Congress. The limited number of performance measures selected for this Annual Financial
    Report was based on links to the most significant program and financial measures.


II. Goals and Objectives: As a result of the changing communications environment, a number
    of the FCC's current functions and regulatory structures have been streamlined or eliminated.
    Increased automation and efficiency will enable the FCC to further streamline its licensing
    activities, accelerate the decision-making process, and allow the public faster and easier access
    to information. The FCC will be a "one-stop, digital shop" where form filing and document-
    location are easy and instantaneous.
    The FCC will focus on sustaining competitive communications markets and protecting the
    public interest where markets fail to do so. Our core activities include: 1) licensing of current
    and, where appropriate, emerging technologies; 2) consumer protection, consumer
    information, and universal service; 3) enforcement; 4) the promotion of competitive markets
    domestically and internationally; and 5) spectrum management.2
    The FCC’s strategic goals and objectives, listed in the chart below, are aligned with our core
    functions. Note that those objectives in italics are detailed further in part IV of this Section.
1
  “A New FCC for the 21st Century” is on FCC’s website: http://www.fcc.gov/21st_century/draft_strategic_plan.pdf. The
“Year 1” column in Appendix A of the strategic plan represents the FY 2000 goals.
2
  FCC’s “FY 2001 Budget Estimates to Congress”, page 1.
                                                             8
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2000 Annual Financial Report



                             Goals and Objectives Articulated in the Strategic Plan3

           A. Create A Model Agency For The Digital Age.
              4 Lead the way in the Information Age. (3)
              4 Reorganize to create an agency infrastructure conducive to convergence.
              4 Create a faster, flatter, more functional agency. (4)
              4 Preserve and increase the wealth of knowledge and expertise of FCC staff.

           B. Promote Competition In All Communications Markets.
              4 Eliminate barriers to entry in domestic markets.
              4 Deregulate as competition develops. (2)
              4 Enforce the rules so that businesses compete fairly.
              4 Promote competition in international communications markets.

           C. Promote Opportunities For All Americans To Benefit From The Communications Revolution.
              4 Ensure access for all Americans to existing and future communications services. (1)
              4 Promote opportunities to expand direct participation in existing and future communications
                  businesses.
              4 Foster a consumer friendly marketplace.

           D. Manage The Electromagnetic Spectrum (The Nation's Airwaves) In The Public Interest.
              4 Create more efficient spectrum markets.
              4 Increase the amount of spectrum available for use, particularly for new services. (5)



III. Performance Measures Highlighted in Financial Statement: The performance measures
    for the FY 2000 Annual Financial Report highlighted below have been selected because they
    are:
            a. aligned with the Agency’s mission and goals;
            b. limited to the FCC’s most significant programs; and
            c. consistent with the Agency’s implementation of the Government Performance and
               Results Act (GPRA) as reflected in budget documents and other related materials.


IV. Measurement of Five Performance Objectives for FCC’s Performance Goals: This
   section discusses five performance objectives that enable the Agency to meet the performance
   goals, and the FCC’s success in achieving its FY 2000 targets. The five performance
   objectives were selected from the FCC’s strategic and performance plans. Each section below
   includes a table that identifies the FCC’s FY 2000 accomplishments. Where FY 1999 data is
   available, it also is highlighted.4




3
    March 2000 “Report Card on Implementation”: http://www.fcc.gov/21st_century/report_card_march2000.pdf.
4
    For a discussion of FCC’s progress in achieving FY 1999 goals, see the March 2000 “Report Card on Implementation”.
                                                                9
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2000 Annual Financial Report

         Performance Objective #1: Promote Opportunities For All Americans To Benefit
         From The Communications Revolution
         This performance goal encourages the development of competitive and innovative
         communications systems, by promoting opportunities for all Americans to access existing
         and future communications services, and by fostering a more consumer friendly
         environment. As the FCC strives to promote competition, we will continue to monitor the
         marketplace to ensure that the benefits of advanced telecommunications services and the
         new information economy is available to everyone, able-bodied or disabled, in every
         school, classroom, library, and rural community throughout the United States.


           Performance Objective                                    Performance Measure                         FY 2000
                                                                                                                 Target
           Continue oversight of the universal service              Public school instructional                   75%5
           discount mechanism for schools, libraries and            classrooms and libraries receiving
           rural health care providers to ensure their              telecommunications services,
           efficient and effective operations. Fully                Internet access, or internal
           implement the Schools and Libraries Program              connections at reasonable rates

         The Schools and Libraries support mechanism – often called the “E-rate” – provides
         support for eligible schools and libraries to help offset the cost of telecommunications
         services. The range of discounts available corresponds to the income level of students in
         their community as well as the location of the school or library (e.g., urban or rural).
         Income for a school or district is measured by the percentage of students eligible for the
         National School Lunch Program. For fiscal year 2000, the Universal Service Fund (USF),
         for the Schools and Libraries Program, collected gross receipts of approximately $2.0
         billion, with outlays of approximately $1.6 billion. In FY 1999, the USF collected gross
         receipts of approximately $1.5 billion, with outlays of approximately $1 billion.6

         In FY 1999, funding for the Schools and Libraries Program to support the Education-rate
         (E-Rate), which provides discounts to schools and libraries for telecom services, internet
         access, and internal connections, increased the percentage of public school instructional
         classrooms connected to the Internet to 63%. By 1999, 83% of public and private schools
         (as distinct from instructional classrooms) were connected to the Internet.7 FY 2000
         classroom actual connection rates will be available after the National Center for Education
         Statistics (NCES) publishes their year 2000 report.8




5
  FCC’s Strategic Plan includes this measure as 85% for all public schools. However, since this goal was achieved for schools,
the USF raised the bar, by revising the performance measures to 75% of instructional classrooms as opposed to schools.
6
  Gross receipts and outlays are based on monthly SF-224 reports, using the FCC’s fiscal year October 1 to September 30.
7
  National Center for Education Statistics, “Internet Access in U.S. Public Schools and Classrooms: 1994-99” (February 2000).
8
  The Schools and Libraries Funding Year starts July 1 and ends June 30 of the following year.
                                                               10
                                                                                               Federal Communications Commission
                                                                                           Fiscal Year 2000 Annual Financial Report

                                            USF - Schools and Libraries Fund
                                                        FY 1999
                                                     (in thousands)




200,000
150,000
100,000
 50,000
      0




                                                                            April
                                              January

                                                        February




                                                                                                    July
                                                                                    May

                                                                                            June
                      November




                                                                                                            August
                                                                   March
           October



                                 December




                                                                                                                       September
                                                                                      OUTLAYS
                                                                                      RECEIPTS




                                             USF - Schools and Libraries Fund
                                                         FY 2000
                                                      (in thousands)




250,000
200,000
150,000
100,000
 50,000
      0
                                                                            April




                                                                                                     July
                                              January

                                                        February




                                                                                    May
                                                                   March




                                                                                             June



                                                                                                              August
                     November
          October




                                                                                                                           September
                                 December




                                                                                          OUTLAYS
                                                                                          RECEIPTS




                                                                       11
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2000 Annual Financial Report



            Performance Objective #2: Promotion of Competitive Markets Domestically and
            Internationally
            This performance goal points to the FCC’s efforts to eliminate outdated rules, which plays
            an important role in accelerating the transition to fully competitive markets. Consumers
            ultimately pay the cost of unnecessary regulation. Thus, one of the FCC’s primary
            objectives must be to deregulate as competition develops, and to substitute market-based
            approaches for direct regulation.9 As part of this initiative, FCC is working to reduce the
            burden on the participants in the FCC’s programs.

             Performance Objective             Performance Measure                      FY 2000       FY 2000     Percent
                                                                                         Target        Actual     Achieve
                                                                                                                     d
             Reduce the burden of filing,      Reduction in the number of forms            10%          - 31        7%
             reporting, record keeping         / information collections required                      Forms
             and accounting requirements       by FCC
             across all communications
             industries

            According to performance data collected from the various Bureaus and Offices, the total
            number of FCC forms at the start of FY 2000 was 197. During FY 2000, 31 forms were
            combined or eliminated. During the year additional forms were created to accommodate
            new collection needs, leaving the total number of forms at the end of FY 2000 at 183 (a
            7% reduction from FY 1999).
            The Information Collection Budget (ICB) compiled annually, tracks the number of FCC
            forms as well as burden hours and costs to the public. The FCC’s FY 2000 ICB
            (December 1999) estimated a burden reduction on the public of 17% over FY 1999,
            including nearly 2 million burden hours attributed to refinements in access reform rules;
            244,000 burden hours as a result of changes in accounting and cost allocation rules and
            ARMIS reporting system; and about 2.5 million burden hours due to the elimination of
            unnecessary collections. In some cases, combining, rather than eliminating collections
            achieved reductions. The Wireless Telecommunications Bureau (WTB) combined 40
            forms into 4, creating schedules and clarifying required collections.
            The FY 2001 ICB (November 2000) estimates a burden reduction on the public of 10.9%
            over FY 2000. Significant estimated savings include: 500,000 burden hours, attributed to
            our reduced Part 61 requirements; 400,000 burden hours, as a result of section 11 reviews
            of our accounting rules and related reporting requirements for incumbent local exchange
            carriers; a 1,738,597 burden hour reduction for Customer Proprietary Network
            Information (CPNI) requirements due to elimination of unnecessary showings; and a
            953,389 burden hour reduction due to elimination of a Notice of Proposed Rulemaking
            (NPRM) for the Commission’s broadcast and cable equal employment opportunity rules
            and policies and termination of the EEOO streamlining proceeding. The WTB also
            developed the interactive, web-based Universal Licensing System (ULS), an “intelligent”
            licensing system with built-in security, which encourages electronic filing of collections.


9
    “A New FCC for the 21st Century” p.14, FCC’s website: http://www.fcc.gov/21st_century/draft_strategic_plan.pdf.
                                                               12
                                                               Federal Communications Commission
                                                           Fiscal Year 2000 Annual Financial Report

Performance Objective # 3: Create A Model Agency For The Digital Age
This performance goal promotes efficient and innovative licensing and authorization of
services by automating functions and fully implementing automated licensing and
electronic filing systems across the agency. As the FCC promulgates policies conducive to
advances in information technology, we must also lead the way in electronic government.
Across the agency, we must invest in new technology that will improve our processes and
allow us to be as responsive to the public as possible. We must continue to automate our
processes and to make information available to the public electronically on an interactive
basis.

 Performance Objective             Performance Measure                      FY 2000     FY 2000
                                                                             Target     Percent
                                                                                        Achieved
 Create a paperless FCC by         Increase the percentage of electronic        60%      59.9%
 automating functions and fully    licensing and filing
 implementing automated            (measure percentage of FCC
 licensing and electronic filing   licensing/ filings within systems
 systems across the agency to      offering electronic interface).
 promote “one-stop shopping.”

This goal may never achieve 100% since it is not feasible to automate all application
processes or to require that all forms be filed electronically without jeopardizing
accessibility (e.g., those without access to the technology, Braille readers). This measure
examines the number of electronic filings where electronic filing systems exist. By the end
of FY 2000, a total of 108 services were available, of which 78 services (72%) had
electronic filing capacity. The Agency came within one-tenth of one percent in meeting
the 60% goal set for FY 2000. Note that the Mass Media Bureau did not offer electronic
filing until the third quarter of FY 2000.
                                    Number of Electronic         Total Number of       Percent
 Bureau                             Applications/Filings        Applications/Filings   Achieved
 Common Carrier Bureau                      743                        3,030            24.5%
 International Bureau                       987                        4599             21.4%
 Mass Media Bureau                         9,948                      36,373            27.3%
 Office of Engineering and                 3,500                       4,078            85.8%
 Technology
 Wireless Telecommunications                317,764                   506,922            62.6%
 Bureau
 AGENCY TOTAL                               332,942                   555,002            59.9%

The FY 2000 Budget included $16.1 million allocated toward the Commission’s
information technology (IT) program. More than $12 million funded current IT
operations, systems maintenance and limited life-cycle replacement. The remaining
amount, approximately $3.5 million was obligated toward initiatives that promoted:
electronic filing, streamlined application processes, enhanced customer access to
information, database consolidation or integration, facilitation of the creation of a
paperless environment, and security of mission-related systems. The pie chart below
details the IT actual obligations by Bureau or Office.

                                             13
                                                                      Federal Communications Commission
                                                                  Fiscal Year 2000 Annual Financial Report


                     ELECTRONIC FILING / SYSTEM DEVELOPMENT



                             WTB - $318,508
                                                                                   CIB - $775,118
                                  9%
                                                                                        22%
    OMD - $723,690
        21%                                                                                     IB - $18,271
                                                                                                     1%


                                                                                                CSB - $157,723
                                                                                                      5%
       OET - $236,192
             7%
                                                                     MMB - $1,274,447
                                                                           35%




Performance Objective #4: Create A Model Agency For The Digital Age
This performance goal promotes efficient and innovative licensing and authorization of
services by creating a faster, flatter, more functional Agency with substantially reduced
backlogs in licensing applications, petitions for reconsideration, and other proceedings.
The FCC must be structured to react quickly to market developments, to work more
efficiently in a competitive environment, and to focus on bottom line results for
consumers. Ultimately, the Agency must be structured to render decisions quickly,
predictably, and without imposing needless costs on industry or consumers through
unnecessary delays.


 Performance Objective                        Performance Measure             FY 2000            FY 2000
                                                                              Target             Percent
                                                                                                 Achieved
 Substantially reduce our backlog in          Overall reduction in            75% CSB*           +6.9%
 licensing applications and petitions for     backlogs goals                  75% WTB*           -2.2%
 reconsideration and other proceedings.
 (A backlog is defined as 1.5 times the                                       50% IB*            -4.3%
 actual speed of disposal.)                                                   50% OET*           -1.9%
                                                                              50% CCB*           No backlog
* In some cases FCC may not meet timelines due to external requirements, including involvement of outside
agencies.

This measure specifically looks at backlogs in processing applications within the Cable
Services Bureau (CSB), Wireless Telecommunications Bureau (WTB), Common Carrier
Bureau (CCB), International Bureau (IB), and the Office of Engineering and Technology


                                                    14
                                                          Federal Communications Commission
                                                      Fiscal Year 2000 Annual Financial Report


(OET). This measure excludes from the analysis: the Enforcement Bureau, where
enforcement activities are now consolidated for handling formal complaints; the Consumer
Information Bureau which now handles informal complaints; or the Mass Media Bureau
which is currently implementing an auto-processing system for broadcast applications. In
FY 2000, the agency made significant strides in reducing backlogs in the Enforcement and
Consumer Information Bureaus.

Because of changes in the agency structure, it is not possible to use FY 1999 data as a
basis for comparison (e.g., the Enforcement Bureau and Consumer Information Bureau
did not exist, and as such the backlogs in those areas were spread across other Agency
bureaus and offices). In addition, the FCC has changed the way it calculates the
percentage of backlogged applications. In the past, FCC did not take into consideration
the workload for processing new applications, which impacts the Agency’s ability to
respond to overage cases. Since baseline data does not exist for FY 1999, this analysis
compares the change from the end of the first quarter to the end of the fourth quarter.

Overall, these FCC bureaus/offices reduced backlogs from 7.88% in the first quarter to
4.76 % in the 4th quarter (-3.12%).

As seen by this specific measure, the FCC's Strategic Plan focuses on backlog reduction
efforts in specific Bureaus and Offices. By reducing the number of forms required, and
enabling the public to file these applications electronically, the FCC will be in a better
position to respond to backlogged applications, thereby providing better customer service.
For example, FTE resources were reallocated to the Enforcement Bureau and the
Consumer Information Bureau, both of which experienced significant reductions in
backlogs in FY 2000. In FY 2000, the FCC refocused its backlog reduction efforts
toward the elimination of a significant number of informal complaints in the Consumer
Information Bureau (CIB). When our efforts in CIB as well as efforts in the Enforcement
Bureau and the Mass Media Bureau are included in the analysis, the Agency's backlog was
reduced from 40% to 4%.

Performance Objective #5: Manage The Electromagnetic Spectrum (The Nation's
Airwaves) In The Public Interest
This performance goal promotes efficient and effective management in the use of the
Nation’s airwaves in the public interest for all non-Federal government uses, accompanied
by increased accessibility of available spectrum to the public. As markets become more
competitive and new technologies are introduced, demand for spectrum will increase. The
Commission must seek new methods to ensure that available spectrum is put to the highest
value use. All else being equal, increasing the availability of spectrum will reduce the cost
of using spectrum, and thereby increase the output and reduce the price of spectrum-based
services. It will also create new opportunities for competitive technologies and services,
including public safety services, for the American public.




                                          15
                                                             Federal Communications Commission
                                                         Fiscal Year 2000 Annual Financial Report

 Performance Objective              Performance Measure                FY 2000       FY 2000
                                                                        Target        Actual
 Create incentives for freeing up   Allocate 4 GHz of spectrum for      4 GHz          TBD
 spectrum. Increase the amount of   unlicensed services.
 spectrum available for use,
 particularly for new services.


In FY 2000, the FCC increased the amount of spectrum available to the public for
unlicensed services. Unlicensed services are those services made available through
rulemaking (e.g., low power TV) to allow and encourage the introduction of new services,
particularly in rural or underserved areas.
In FY 2000, eight (8) auctions were held, and the FCC recorded $1.3 billion in net
winning bids. This amount represents the net winning bids excluding possible defaults and
the costs to the FCC of $45.4 million. This amount is recognized as revenue in the year
the license is granted, rather than when the auction is held or cash is received. The FY
2001 budget estimated that a total of $2.076 billion in auction receipts would be generated
from the anticipated auctions in FY 2000. One of the anticipated auctions (#35) originally
scheduled for FY 2000 was postponed until FY 2001. The FCC delayed the auction to
allow for preparation of responses to the protests filed during the public comment period,
for which the FCC has since responded. The auction was rescheduled for December
2000.


Financial Management and Systems
The Office of Managing Director has responsibility for implementing accounting and
financial policies, systems, and reports; improving reliability of financial information;
implementing debt collection; and implementing financial management legislation including
the following:

•   Prompt Payment Act of 1982
•   Federal Managers’ Financial Integrity Act (FMFIA) of 1982
•   Cash Management Improvement Act
•   Federal Credit Reform Act of 1990, as amended
•   Government Performance Results Act of 1993
•   Government Management Reform Act of 1994
•   Federal Financial Management Improvement Act of 1996
•   Debt Collection Improvement Act of 1996

In the FCC’s efforts to achieve compliance with applicable legislation, it is necessary to
have effective management and system controls in place. The FCC has established formal
policies and procedures regarding the processing, maintaining and reporting of financial
information. The FCC is currently in the process of updating its policies and procedures.
Although the FCC has made significant improvement with regards to its management
controls, additional improvement is needed as indicated by the results of the fiscal year
2000 financial statement audit.

                                            16
                                                         Federal Communications Commission
                                                     Fiscal Year 2000 Annual Financial Report

With regards to system controls, the security administration and/or system maintenance
support for the financial systems is performed by the Financial Systems Operations Group,
within the Office of Managing Director. The following summarizes several significant
financial systems.

•   Federal Financial System
•   Collections System
•   Nortridge Loan System
•   Revenue & Accounting Management Information System

The Federal Financial System (FFS) is a Commercial Off-the-Shelf (COTS) software
package adapted to handle all of the collections accounting and loan management for the
FCC, and is represents the general ledger accounting system. It is designed to interface
with FCC’s central accounting system, FFS, and licensing systems throughout the
Commission as needed.

The Collections System is a custom-built database application adapted to store and display
all of the collections accounting for the FCC. It is designed to interface with FCC
licensing and other systems throughout the Commission as needed. FCC also uses a
COTS software package, adapted for tracking civil monetary penalties with the status of
Notices of Apparent Liability (NALs). It also records the collection of receipts, produces
dunning letters for past due accounts, and issues reminders to forward account forfeitures
to the Office of General Counsel (OGC) for referral to the Department of Justice (DOJ)
for collection.

The Nortridge Loan System (NLS) is a COTS software package designed and developed
for lenders of all types and sizes. NLS incorporates the latest in client-server and object
oriented technology along with standard, familiar, Windows operation to provide an ideal
solution for lending operations. The FCC currently uses NLS to record payments received
by licensees under the Spectrum Auction Direct Loan program.

The Revenue Accounting and Management Information System (RAMIS) is a COTS
software package modified to handle all of the collections accounting and loan
management specific to the FCC. It is designed to interface with FCC’s central
accounting system, FFS, and licensing systems throughout the Commission as needed.
Once all reporting modules are complete, all collection activity of the FCC, including civil
monetary penalties and loans, will be recorded and tracked in RAMIS. Implementation of
RAMIS is intended to assist the FCC in achieving better system integration, as well as
system requirements established by the Joint Financial Management Improvement
Program. As of the date of our FY 2000 audit FCC was still in the conversion phase of
implementation and no audited financial activity was recorded in the RAMIS system.


Not included as part of its systems but still an important financial management tool for
FCC management in FY 2000 are the Loan Model Spreadsheets used to calculate loan
balances on FCC’s credit reform loans. The spreadsheets were maintained by an outside
contractor throughout the course of the year and served as the basis for numbers used in
                                          17
                                                          Federal Communications Commission
                                                      Fiscal Year 2000 Annual Financial Report

the calculation of FCC’s subsidy re-estimate. Ultimately, these spreadsheets will be
replaced by an outside loan servicing system.


Highlights of Financial Statements
Results of Financial Position and Operations

A significant aspect of the FCC’s operations pertains to its Spectrum Auction activities.
The net loans receivable, which represents installments due from licenses under the
Spectrum Auction program, is approximately $9.6 billion of the total assets of
approximately $14.4 billion. There is a direct correlation among the loans receivable and
the borrowings of approximately $5.3 billion and Unexpended Appropriations of
approximately $6.1 billion. These balances were impacted by the results of the subsidy
costs and reestimate process, as discussed below.

The FCC is required to annually adjust its allowance for losses on their credit portfolios
based on the most current performance information. In accordance with OMB guidance,
the FCC calculated its subsidy reestimate based on the most recent economic conditions
and technical assumptions available. The FCC’s subsidy reestimate shows a $4.3 billion
reduction in the Spectrum Auction Loan Portfolio subsidy cost, primarily due to the
projected improved performance of the defaulted C Block and F Block loan portfolios.
The average subsidy rate (the subsidy cost expressed as a percent of the original loan
amount) falls from 52.08% from the prior year to 18.08% for the current year. In other
words, the FCC expects to lose 18 cents for every dollar lent out through the Spectrum
Auctions installment loan program.

The most significant changes in the reestimate of the subsidy costs are attributable to the C
and F Block installment licenses. There were no significant changes to the assumptions
used for projection purposes of estimated cash flows for the other Spectrum Auction
licenses. Based on the FY 2000 subsidy reestimate, the FY 1997 C and F Block
installment licenses account for 97% of the Spectrum Auction subsidy cost (94% and 3%,
respectively).

The C Block FY 1997 Cohort Subsidy Reestimate for FY 2001 resulted in a subsidy rate
change from 54.34% in FY 2000 to 17.96% in FY 2001 and a subsidy cost change from
$4,882.5 million in FY 2000 to $1,613.7 million in FY 2001. The major driver was due to
the new recovery assumptions of approximately $7.9 billion from Auction 35 and a 100%
recovery rate on other defaulted loans. The reestimate also reflects 12 months of
additional payment data and a change in projected vs. actual defaults from FY 2001 – FY
2006.

The F Block FY 1997 risk category subsidy reestimate for FY 2001 resulted in a subsidy
rate change from 27.62% in FY 2000 to 6.08% in FY 2001 and a subsidy cost change
from $137.4 million to $30.2 million. Consistent with C Block, the major driver for the
change was due to an increase in the recovery projection from 50% to 100%.


                                          18
                                                        Federal Communications Commission
                                                    Fiscal Year 2000 Annual Financial Report

Another significant aspect of the financial statements is the Universal Service. The Fund
has grown over the past year, collections have kept pace with the new support
requirements of carriers and the Fund has met all obligations during the year.
Management expects the Fund to continue to meet all obligations presented.

The USF had a total distribution of $4.029 billion in fiscal year 2000. Net collections
($4.539 billion) exceeded the total distributed by $510 million. Those collections when
added to previous collections and receivables constitute the total net assets of the Fund,
$2.449 billion. Those assets are sufficient to meet the total liabilities of the Fund.

The level of collections and disbursements may vary based on the enhanced support for
low-income customers living on reservations. The demand for the Low Income support
mechanism is estimated to increase greater than the historical growth in FY 2001. The
FCC estimated that demand would increase by $8.75 million dollars for October 1 through
December 31, 2000 as a result of its Tribal Lands order and the enhanced support
provided to low income customers living on reservations.

The remainder of this section highlights FCC activities related to travel voucher
processing, prompt payment interest information, electronic credit card payments,
electronic fund transfers, collections, and budget authority and FTE information.




                                         19
                                                                                                                           Federal Communications Commission
                                                                                                                       Fiscal Year 2000 Annual Financial Report




                                                              Travel Voucher Processing
                                                                                           FY 2000




                                                              16
Average number of working days to




                                                              15
                                                              14
                                    Process Travel Vouchers




                                                              13

                                                              12

                                                              11

                                                              10

                                                               9

                                                               8

                                                               7

                                                               6

                                                               5

                                                               4

                                                               3

                                                               2

                                                               1

                                                               0
                                                                   Oct   Nov   Dec   Jan    Feb   Mar    April   May     June   July   Aug   Sept




The FCC’s travel voucher processing goal of ten working days begins with the receipt of a
correct voucher with all proper backup documentation. Federal Travel Regulations allows
30 days. During FY2000, 1,746 travel vouchers were processed with an average
processing time of 6.5 working days.




                                                                                                    20
                                                                   Federal Communications Commission
                                                               Fiscal Year 2000 Annual Financial Report


                          PROMPT PAYMENT INTEREST
                                  FY 2 0 0 0

$15,000
$14,000
$13,000
$12,000
$11,000
$10,000
 $9,000
 $8,000
 $7,000
 $6,000
 $5,000
 $4,000
 $3,000
 $2,000
 $1,000
     $0
      Oct.    Nov.     Dec.    Jan      Feb     Mar    April     May      June      July     Aug      Sept

                                      FY1999                   FY2000



          Total prompt payment interest during FY 2000 is $20,123.24. Included in this total is
          $12,050.52 paid on travel from the central billing account in May for the period covering
          June 1999 through April 2000, due to a contract dispute between the General Services
          Administration (GSA) and the card processor. The FCC processed 6,421 invoices totaling
          $59,420,521.00 during FY 2000 of which 1,453 invoices totaling $5,285,128.00 were
          subject to prompt payment interest.




                                                  21
                                                                                               Federal Communications Commission
                                                                                           Fiscal Year 2000 Annual Financial Report




                                                     Rosie Monthly Totals & Projected Totals

          350,000



          300,000



          250,000



          200,000
Dollars




          150,000



          100,000



           50,000



                0
                    Oct. 99 Nov. 99 Dec. 99   Jan.      Feb.    Mar.     Apr.      May.     Jun.    Jul.   Aug.    Sept.
                                               00        00      00       00        00       00      00     00      00
                                                                         Month

                                                        Monthly Totals           Projected Totals

                          ROSIE - Remittance Over Secure Internet (E-Commerce)

                          ROSIE is a payment system that allows license applicants to pay their application fees
                          electronically via credit card. The system has been built to Department of Treasury
                          security specifications, employing the latest encryption technology and architecture to
                          safeguard data. ROSIE is accessed via links from licensing systems that offer the
                          electronic credit card payment option.

                          ROSIE was implemented in August 1999, processing 108 payments for $6,648. Since
                          then, ROSIE usage has steadily increased until by the end of FY 2000, it was processing
                          1,500 payments for $200,000 in an average month. In fiscal year 2000, 12,732 payments
                          for a total of $1,392,550 were processed. Along the way, enhancements have been made
                          to strengthen security and make ROSIE more customer-friendly.

                          FCC regards this first venture into electronic commerce as a great success and is
                          endeavoring to expand the on-line payment option to include all payments made to the
                          agency.




                                                                           22
                                                              Federal Communications Commission
                                                          Fiscal Year 2000 Annual Financial Report




                          % of Payments via EFT
                                 FY 2000

120

              99.9
100      96

                                                                          83.4
 80                                                                  75
                                64.9                                                                  *
                           59                                                          All Agencies
 60
                                                                                       FCC

                                                 37
 40

                                                      20.8
 20


 0
          Salary            Vendor             Miscellaneous           Total



  FCC has worked to increase its level of payments via EFT/direct deposit. Through
  various outreach programs, such as including letters to vendors with contract and
  purchase order mailings, offering e-mail notifications of EFT payments, and telephoning
  vendors, we have increased our percentage of vendor payments via EFT from 60% in FY
  1999 to 78% during September of FY 2000. We also have an initiative in progress to
  increase the percentage of fee refunds via EFT. Currently, all refunds are paid by check
  and comprise approximately 94% of FCC’s miscellaneous payments. We are endeavoring
  to convert these check payments to EFT by capturing bank information from the
  applicant’s remittance. We hope to implement this capability during FY 2001.

  * Data for “all agencies” was obtained from the Department of the Treasury Financial
  Management Services website for FY 2000 Government-wide Treasury-disbursed
  cumulative payment volume.




                                          23
                                                                                      1 Commission
                                                                 Federal Communications
                                                             Fiscal Year 2000 Annual Financial Report




              FY 2000 Budget Authority D istribution
                        by Object Class
                                                                Travel & Transportation
                                                               1%


                                                                                Rent/ Communications/ Utilities


                                                                       15%


                                                                                           1%
                                                                                                Printing & Reproduction

Compensation & Benefits        59%




                                                                                  19%           Contract Services
                                                                                                (Federal & Non-Federal)




                                                                    4%   1%

                                                                              Supplies & Materials
                                                                      Equipment




            This chart illustrates the distribution of obligations by budget category in FY 2000
            (excluding the Universal Service Funds and the Auctions Loan Program administrative
            funds). These obligations are funded from multiple funding sources including annual
            appropriations, offsetting collections (regulatory fees, interagency and travel
            reimbursements), Auctions Loan Program reimbursements, and Y2K appropriated funds.




                                                  24
                                                                         Federal Communications Commission
                                                                     Fiscal Year 2000 Annual Financial Report




                  FY 2000 Budget Authority Distribution
                            by Object Class
                               Credit Program Account (0300)




                              88%
Contract Services/ Federal & Non-Federal     88%                             12%         Compensation & Benefits




       This chart illustrates the distribution of administrative cost by budgetary category required to
       provide for Auctions Loan Program activities in FY 2000.




                                                         25
                               Federal Communications Commission
                                   Consolidated Balance Sheet
                                     As of September 30, 2000
                                            (dollars in thousands)




ASSETS
Entity Assets:
Intragovernmental
Fund Balance with Treasury (Note 2)                                  $        1,903,494
Accounts Receivable (Note 5)                                                         39
Total Intragovernmental                                                       1,903,533

Cash and Other Monetary Assets(Note 3)                                               64
Accounts Receivable, net (Note 5)                                                20,704
Loans Receivable, net (Note 6)                                                9,592,520
Forfeited Property (Note 7)                                                          61
Property, Plant, and Equipment, net (Note 8)                                     39,399
Total Entity Assets                                                          11,556,281

Non-Entity Assets:
Intragovernmental
Fund Balance with Treasury (Note 2)                                  $          304,171
Investments (Note 4)                                                          1,297,611
Total Intragovernmental                                                       1,601,782

Cash and Other Monetary Assets (Note 3)                                          49,259
Investments (Note 4)                                                            743,924
Accounts Receivable, net (Note 5)                                               482,218
Interest Receivable                                                                 897
Total Non-Entity Assets                                                       2,878,080

Total Assets                                                         $       14,434,361




LIABILITIES
Liabilities Covered by Budgetary Resources:
Intragovernmental
Liability for Borrowings from Treasury (Note 9)                      $        5,307,271
Other Accrued Liabilities (Note 12)                                             345,717
Total Intragovernmental                                                       5,652,988

Accounts Payable (Note 10)                                                      409,629
Other Debt (Note 11)                                                            125,274
Other Accrued Liabilities (Note 12)                                              55,908
Total Liabilities Covered by Budgetary Resources                              6,243,799


Liabilities Not Covered by Budgetary Resources:
Intragovernmental
Other Unfunded Liability (Note 12)                                                  443

Payable to Providers (Note 13)                                                2,052,849
Accrued Unfunded Leave                                                           12,548
Other Unfunded Liability (Note 12)                                               69,982
Total Liabilities not Covered by Budgetary Resources                          2,135,822

Total Liabilities                                                    $        8,379,621




NET POSITION
Unexpended Appropriations (Note 15)                                  $        6,122,690
Cumulative Results of Operations                                                (67,950)
Total Net Position                                                            6,054,740


Total Liabilities and Net Position                                   $       14,434,361


                       The accompanying notes are an integral part of these statements

                                                       26
                                                  Federal Communications Commission
                                                      Consolidating Balance Sheet
                                                        As of September 30, 2000
                                                           (dollars in thousands)


                                                                          FCC               USF             TOTAL
ASSETS
Entity Assets:
Intragovernmental
Fund Balance with Treasury (Note 2)                              $         1,903,494    $         -     $     1,903,494
Accounts Receivable (Note 5)                                                      39              -                  39
Total Intragovernmental                                                    1,903,533              -           1,903,533

Cash and Other Monetary Assets (Note 3)                                           64              -                  64
Accounts Receivable, net (Note 5)                                             20,704              -              20,704
Loans Receivable, net (Note 6)                                             9,592,520              -           9,592,520
Forfeited Property (Note 7)                                                       61              -                  61
Property, Plant, and Equipment, net (Note 8)                                  39,399              -              39,399
Total Entity Assets                                                       11,556,281              -          11,556,281

Non-Entity Assets:
Intragovernmental
Fund Balance with Treasury (Note 2)                              $          304,171     $         -     $       304,171
Investments (Note 4)                                                                        1,297,611          1,297,611
Total Intragovernmental                                                     304,171         1,297,611         1,601,782

Cash and Other Monetary Assets (Note 3)                                      48,108             1,151            49,259
Investments (Note 4)                                                                          743,924           743,924
Accounts Receivable, net (Note 5)                                            76,868           405,350           482,218
Interest Receivable                                                             858                39               897
Total Non-Entity Assets                                                     430,005         2,448,075         2,878,080

Total Assets                                                     $        11,986,286    $   2,448,075   $    14,434,361




LIABILITIES
Liabilities Covered by Budgetary Resources:
Intragovernmental
Liability for Borrowings from Treasury (Note 9)                  $         5,307,271    $         -     $     5,307,271
Other Accrued Liabilities (Note 12)                                          345,717              -             345,717
Total Intragovernmental                                                    5,652,988              -           5,652,988

Accounts Payable (Note 10)                                                    14,403          395,226           409,629
Other Debt                                                                   125,274              -             125,274
Other Accrued Liabilities (Note 12)                                           55,908              -              55,908
Total Liabilities Covered by Budgetary Resources                           5,848,573          395,226         6,243,799


Liabilities not Covered by Budgetary Resources:
Intragovernmental
Other Unfunded Liability (Note 12)                                              443               -                 443

Payable to Providers (Note 13)                                                  -           2,052,849         2,052,849
Accrued Unfunded Leave                                                       12,548               -              12,548
Other Unfunded Liability (Note 12)                                           69,982               -              69,982
Total Liabilities not Covered by Budgetary Resources                         82,973         2,052,849         2,135,822

Total Liabilities                                                          5,931,546        2,448,075         8,379,621




NET POSITION
Unexpended Appropriations (Note 15)                              $         6,122,690    $         -     $     6,122,690
Cumulative Results of Operations                                             (67,950)             -             (67,950)
Total Net Position                                                         6,054,740              -           6,054,740


Total Liabilities and Net Position                               $        11,986,286    $   2,448,075   $    14,434,361




                                                                     61
                        Federal Communications Commission
                         Consolidated Statement of Net Cost
                       For the Year Ended September 30, 2000
                                    (dollars in thousands)




PROGRAM COSTS:
Authorization of Service

Program Costs
   Intragovernmental                                   $      292,770
   With the Public                                           (664,112)

Less: Earned Revenues                                        (534,779)

Net Program Costs                                                                 (906,121)

Policy and Rule Making

Program Costs
   Intragovernmental                                          572,598
   With the Public                                         (1,298,869)

Less: Earned Revenues                                      (1,045,917)

Net Program Costs                                                                (1,772,188)

Enforcement

Program Costs
   Intragovernmental                                          444,371
   With the Public                                         (1,008,003)

Less: Earned Revenues                                        (811,702)

Net Program Costs                                                                (1,375,334)

Public Information Service

Program Costs
   Intragovernmental                                           91,348
   With the Public                                           (207,221)

Less: Earned Revenues                                        (166,867)

Net Program Costs                                                                 (282,740)

Universal Service

Program Costs
   Intragovernmental                                             -
   With the Public                                            39,608

Less: Earned Revenues                                         (39,608)

Net Program Costs                                                                       -

Total Net Program Costs                                                     $    (4,336,383)

UNASSIGNED COSTS:
Imputed Costs                                                  9,755
Depreciation                                                  11,256
Bad Debt Expense                                                  51

Total Unassigned Costs                                                              21,062


Net Cost of Operations                                                      $    (4,315,321)



               The accompanying notes are an integral part of these statements

                                              27
                             Federal Communications Commission
                              Consolidating Statement of Net Cost
                             For the Year Ended September 30, 2000
                                       (dollars in thousands)


                                                      FCC                USF                  TOTAL
PROGRAM COSTS:
Authorization of Service

Program Costs
Intragovernmental                            $          292,770      $                -   $      292,770
With the Public                                        (664,112)                  -             (664,112)

Less: Earned Revenues                                  (534,779)                  -             (534,779)

Net Program Costs                                      (906,121)                  -             (906,121)

Policy and Rule Making

Program Costs
Intragovernmental                                        572,598                  -               572,598
With the Public                                       (1,298,869)                 -            (1,298,869)

Less: Earned Revenues                                 (1,045,917)                 -            (1,045,917)

Net Program Costs                                     (1,772,188)                 -            (1,772,188)

Enforcement

Program Costs
Intragovernmental                                        444,371                  -               444,371
With the Public                                       (1,008,003)                 -            (1,008,003)

Less: Earned Revenues                                  (811,702)                  -             (811,702)

Net Program Costs                                     (1,375,334)                 -            (1,375,334)

Public Information Service

Program Costs
Intragovernmental                                        91,348                   -               91,348
With the Public                                        (207,221)                  -             (207,221)

Less: Earned Revenues                                  (166,867)                  -             (166,867)

Net Program Costs                                      (282,740)                  -             (282,740)

Universal Service

Program Costs
Intragovernmental                                               -                 -                  -
With the Public                                                 -              39,608             39,608

Less: Earned Revenues                                           -          (39,608)              (39,608)

Net Program Costs                                               -                 -                   -

Total Net Program Costs                      $        (4,336,383)    $                -   $    (4,336,383)

UNASSIGNED COSTS:
Imputed Costs                                                9,755                -                9,755
Depreciation                                                11,256                -               11,256
Bad Debt Expense                                                51                -                   51

Total Unassigned Costs                                      21,062                -               21,062


Net Cost of Operations                       $        (4,315,321)    $                -   $    (4,315,321)




                                                 62
                       FEDERAL COMMUNICATIONS COMMISSION
                    Consolidated Statement of Changes in Net Position
                         For the Year Ended September 30, 2000
                                          (dollars in thousands)



Net Cost of Operations                                                           $     (4,315,321)

Financing Sources:
Appropriations Used                                                    44,625
Imputed Financing                                                       9,755
Transfers In                                                               94
Transfers Out                                                         (28,141)
Downward Re-estimate (Note 6)                                      (4,282,602)
Loss (Note 11)                                                       (125,424)
Total Financing Sources                                                                (4,381,693)

Net Results of Operations                                                                (66,372)

Prior Period Adjustments (Note 17)                                                     (1,760,291)
Cancelled Appropriations                                                                     (777)

Change in Cumulative Results of Operations                                             (1,827,440)

Increase in Unexpended Appropriations (Note 15)                                        6,093,786

Change in Net Position                                                                 4,266,346

Net Position - Beginning of Period                                                     1,788,394

Net Position - End of Period                                                     $     6,054,740




                     The accompanying notes are an integral part of these statements

                                                   28
                                           FEDERAL COMMUNICATIONS COMMISSION
                                        Consolidating Statement of Changes in Net Position
                                             For the Year Ended September 30, 2000
                                                        (dollars in thousands)


                                                                       FCC                USF               TOTAL
Net Cost of Operations                                        $         (4,315,321)   $             -   $    (4,315,321)

Financing Sources:
Appropriations Used                                                        44,625               -                44,625
Imputed Financing                                                           9,755               -                 9,755
Transfers In                                                                   94               -                    94
Transfers Out                                                             (28,141)              -               (28,141)
Downward Re-estimate (Note 6)                                          (4,282,602)              -            (4,282,602)
Loss (Note 11)                                                           (125,424)              -              (125,424)
Total Financing Sources                                                (4,381,693)              -            (4,381,693)

Net Results of Operations                                                 (66,372)              -               (66,372)

Prior Period Adjustments (Note 17)                                     (1,760,291)              -            (1,760,291)
Cancelled Appropriations                                                     (777)              -                  (777)

Change in Cumulative Results of Operations                             (1,827,440)              -            (1,827,440)

Increase in Unexpended Appropriations                                   6,093,786               -             6,093,786

Change in Net Position                                                  4,266,346               -             4,266,346

Net Position - Beginning of Period                                      1,788,394               -             1,788,394

Net Position - End of Period                                  $         6,054,740     $             -   $     6,054,740




                                                                  63
                    Federal Communications Commission
                Consolidated Statement of Budgetary Resources
                    For the Year Ended September 30, 2000
                                       (dollars in thousands)



Budgetary Resources:

Budget Authority                                                   $       2,125,225
Unobligated Balances - Beginning of Period                                    70,817
Spending Authority from Offsetting Collections                             2,912,267
Adjustments                                                                 (583,620)

Total Budgetary Resources                                          $       4,524,689


Status of Budgetary Resources:

Obligations Incurred                                               $       2,665,943
Unobligated Balances - Available                                            1,822,928
Unobligated Balances - Not Available                                           35,818

Total Status of Budgetary Resources                                $       4,524,689


Outlays:

Obligations Incurred                                               $       2,665,943
Less: Spending Authority from Offsetting Collections
     and Adjustments                                                      (2,940,885)
Obligated Balance, net - Beginning of Period                                  56,665
Obligated Balance Transferred - net                                              -
Less: Obligated Balance, net - End of Period                                 (45,148)

Total Outlays                                                      $        (263,425)




                The accompanying notes are an integral part of these statements

                                                 29
                                             Federal Communications Commission
                                         Consolidating Statement of Budgetary Resources
                                                    As of September 30, 2000
                                                             (dollars in thousands)


                                                                           FCC                        USF           TOTAL
Budgetary Resources:

Budget Authority                                                   $       2,125,225           $            -   $    2,125,225
Unobligated Balances - Beginning of Period                                    70,817                        -           70,817
Spending Authority from Offsetting Collections                             2,912,267                        -        2,912,267
Adjustments                                                                 (583,620)                       -         (583,620)

Total Budgetary Resources                                          $       4,524,689           $            -   $    4,524,689


Status of Budgetary Resources:

Obligations Incurred                                               $       2,665,943           $            -   $    2,665,943
Unobligated Balances - Available                                           1,822,928                        -        1,822,928
Unobligated Balances - Not Available                                          35,818                        -           35,818

Total Status of Budgetary Resources                                $       4,524,689           $            -   $    4,524,689


Outlays:

Obligations Incurred                                               $       2,665,943           $            -   $    2,665,943
Less: Spending Authority from Offsetting Collections
     and Adjustments                                                       (2,940,885)                      -        (2,940,885)
Obligated Balance, net - Beginning of Period                                   56,665                       -            56,665
Obligated Balance Transferred - net                                                 -                       -                 -
Less: Obligated Balance, net - End of Period                                  (45,148)                      -           (45,148)

Total Outlays                                                      $         (263,425)         $            -   $     (263,425)




                                        The Accompanying Notes are an integral part of these statements

                                                                       1
                      Federal Communications Commission
                       Consolidated Statement of Financing
                      For the Year Ended September 30, 2000
                                     (dollars in thousands)



Obligations and Nonbudgetary Resources

Obligations Incurred                                                $       2,665,943
Less: Spending Authority for Offsetting Collections
 and Adjustments                                                            (2,912,267)
Downward Adjustment for Prior Year                                             (28,607)
 Unpaid Obligations
Change in Receivables                                                       1,794,483
Financing Imputed for Cost Subsidies                                            9,755
Transfers-out                                                                  (1,500)
Exchange Revenue Not in Entity's Budget                                      (281,515)
Total Obligations as Adjusted, and Nonbudgetary Resources           $       1,246,292


Resources That Do Not Fund Net Cost Of Operations

Change in Amount of Goods, Services, and Benefits
 Ordered But Not Yet Received or Provided                                         5,331
Change in Unfilled Customer Orders                                                   (1)
Costs Capitalized on the Balance Sheet
 General Property, Plant and Equipment                                            (619)
Loans                                                                           (1,137)
Financing Sources That Fund Costs of Prior Period                           (1,821,450)
Other                                                                          651,038
Total Resources That Do Not Fund Net Cost of Operations                     (1,166,838)


Costs That Do Not Require Resources

Depreciation and Amortization Expense                                           11,284
Bad Debts                                                                           52
Changes in Other Accrued Liabilities                                             1,255
Loss on Future Revenues                                                       (125,273)
Subsidy Re-estimate                                                         (4,282,602)
Total Costs That Do Not Require Resources                                   (4,395,284)


Financing Sources Yet to be Provided                                               509


Net Cost of Operations                                              $       (4,315,321)




                The accompanying notes are an integral part of these statements

                                              30
                                                   Federal Communications Commission
                                                   Consolidating Statement of Financing
                                                            September 30, 2000
                                                                 (dollars in thousands)


                                                                        FCC                         USF               TOTAL
Obligations and Nonbudgetary Resources

Obligations Incurred                                              $       2,665,943          $                -   $    2,665,943
Less: Spending Authority for Offsetting
 Collections and Adjustments                                             (2,912,267)                          -        (2,912,267)
Downward Adj PY Unpaid Obligations                                          (28,607)                          -           (28,607)
Change in Receivables                                                     1,794,483                           -         1,794,483
Financing Imputed for Cost Subsidies                                          9,755                           -             9,755
Transfers-in/(out)                                                           (1,500)                          -            (1,500)
Exchange Revenue Not in Entity's Budget                                    (281,515)                          -          (281,515)
Total Obligations as Adjusted, and Nonbudgetary Resources         $       1,246,292          $                -   $     1,246,292


Resources That Do Not Fund Net Cost Of Operations

Change in Amount of Goods, Services, and Benefits
 Ordered But Not Yet Received or Provided                                      5,331                          -            5,331
Change in Unfilled Customer Orders                                                (1)                         -               (1)
Costs Capitalized on the Balance Sheet
 General Property, Plant and Equipment                                         (619)                          -              (619)
Loans                                                                        (1,137)                          -            (1,137)
Financing Sources that Fund Costs of Prior Period                        (1,821,450)                          -        (1,821,450)
Other                                                                       651,038                           -           651,038
Total Resources That Do Not Fund Net Cost of Operations                  (1,166,838)                          -        (1,166,838)


Costs That Do Not Require Resources

Depreciation and Amortization Expense                                        11,284                           -            11,284
Bad Debts                                                                        52                           -                52
Changes in Other Accrued Liabilities                                          1,255                           -             1,255
Loss on Future Revenues                                                    (125,273)                          -          (125,273)
Subsidy Re-estimate                                                      (4,282,602)                          -        (4,282,602)
Total Costs That Do Not Require Resources                                (4,395,284)                          -        (4,395,284)


Financing Sources Yet to be Provided                                            509                           -               509


Net Cost of Operations                                           $       (4,315,321)         $                -   $    (4,315,321)




                                            The Accompanying Notes are an integral part of these statements

                                                                           1
                      Federal Communications Commission
                    Consolidated Statement of Custodial Activity
                      For the Year Ended September 30, 2000
                                      (dollars in thousands)



Beginning Custodial Balances
Spectrum Auctions                                                    $          218,714
Upfront Deposits                                                                 23,781
Payable to Providers                                                          1,545,412
  Total Beginning Custodial Balance                                           1,787,907

FY2000 Revenue Activity:
Sources of Cash Collections:
Spectrum Auctions                                                               750,590
Upfront Deposits                                                                439,122
Contributions & Investment Interest                                           4,539,259
  Total Cash Collections                                                      5,728,971

Accrual Adjustments                                                                64,437

Total Custodial Funds                                                         7,581,315

Disposition of Collections:

Transferred to Others:
Recipient Spectrum Deposit                                                      (24,476)
Recipient Treasury General Fund                                                (536,485)
Recipient Telecommunication Development Fund                                     (2,531)
Recipient USF Providers                                                      (4,029,528)
   Total Transfers                                                           (4,593,020)

Amounts Yet to be Transferred                                                 2,988,295

Refunds and Other Payments                                                     (520,966)

Retained by the Reporting Entity                                             (2,467,329)

Net Custodial Revenue Activity                                       $                -




                 The accompanying notes are an integral part of these statements

                                               31
                                                  Federal Communications Commission
                                               Consolidating Statement of Custodial Activity
                                                        As of September 30, 2000
                                                                (dollars in thousands)


                                                                        FCC                        USF                   TOTAL
Beginning Custodial Balances
Spectrum Auctions                                                $         218,714           $             -         $      218,714
Upfront Deposits                                                            23,781                         -                 23,781
Payable to Providers                                                           -                     1,545,412            1,545,412
Total Beginning Custodial Balance                                          242,495                   1,545,412            1,787,907

FY2000 Revenue Activity:
Sources of Cash Collections:
Spectrum Auctions                                                          750,590                         -                750,590
Upfront Deposits                                                           439,122                         -                439,122
Contributions & Investment Interest                                            -                     4,539,259            4,539,259
Total Cash Collections                                                   1,189,712                   4,539,259            5,728,971

Accrual Adjustments                                                           64,437                          -              64,437

Total Custodial Funds                                                    1,496,644                   6,084,671            7,581,315

Disposition of Collections:

Transferred to Others (by Recipient):
Recipient Spectrum Deposit                                                 (24,476)                        -              (24,476.00)
Recipient Treasury General Fund                                           (536,485)                        -             (536,485.00)
Recipient Telecommunication Development Fund                                (2,531)                        -                  (2,531)
Recipient USF Providers                                                        -                    (4,029,528)           (4,029,528)
Total Transfers                                                           (563,492)                 (4,029,528)           (4,593,020)

Amounts Yet to be Transferred                                              933,152                   2,055,143            2,988,295

Refunds and Other Payments                                                (520,579)                          (387)         (520,966)

Retained by the Reporting Entity                                          (412,573)                 (2,054,756)           (2,467,329)

Net Custodial Revenue Activity                                   $               -           $                -      $           -




                                           The Accompanying Notes are an integral part of these statements

                                                                          1
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies:

Reporting Entity

The Federal Communications Commission (“FCC” or “Commission”) is an independent United
States government agency, directly responsible for reporting to Congress. The FCC was
established by the Communications Act of 1934, as amended, and is charged with regulating
interstate and international communications by radio, television, wire, satellite and cable. The
FCC's jurisdiction covers the 50 states, the District of Columbia, and the U.S. possessions.

The FCC is directed by five Commissioners appointed by the President of the United States and
confirmed by the Senate for five-year terms, except when filling an unexpired term. The President
designates one of the Commissioners to serve as Chairperson. Only three Commissioners may be
members of the same political party. None of them can have a financial interest in any
Commission-related business.

The FCC’s operations are divided among the following bureaus and offices: International, Cable
Services, Engineering and Technology, Mass Media, Common Carrier, Wireless
Telecommunications, Consumer Information, and Enforcement. In addition, a significant
program of the FCC, as designated in the U.S. Budget is the Universal Service Fund (USF). USF
consists of five elements, four of which are the universal service support mechanisms and the fifth
being the Telecommunications Relay Service (TRS) Fund. The universal service support
mechanisms were established pursuant to Section 254 of the Communications Act of 1934, as
amended. The Universal Service Administrative Company (USAC) was appointed by the FCC to
administer the four universal service support mechanisms: high cost areas, low income consumers,
schools and libraries, and rural health care providers. It also submits projections of demand and
administrative expenses for each of these mechanisms and quarterly universal service contribution
data to the FCC. The National Exchange Carrier Association (NECA) administers the TRS Fund.

Basis of Accounting

The consolidated financial statements have been prepared from the accounting records of FCC in
conformity with generally accepted accounting principles (GAAP), and standards specified by the
Office of Management and Budget (OMB) in OMB Bulletin No. 97-01, Form and Content of
Federal Agency’s Financial Statements, as amended. GAAP for Federal entities are the
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB), which was
designated the official accounting standards-setting body for the Federal government by the
American Institute of Certified Public Accountants. The consolidated financial statements are
different from the financial reports, also prepared by FCC pursuant to OMB directives, that are
used to monitor and control FCC’s use of budgetary resources.




                                             Page
                                               32
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Basis of Presentation

The accompanying consolidated financial statements have been prepared to report the financial
position and results of operations of the FCC for the fiscal year ended September 30, 2000. The
consolidated financial statements have been prepared from the books and records of the FCC in
accordance with OMB Bulletin No. 97-01, as amended, and generally accepted accounting
principles of the United States.

The preparation of financial statements, in accordance with accounting principles generally
accepted in the United States, requires management to make estimates and assumptions that affect
the reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities at
the date of the financial statements, and the reported amounts of revenues and expenses during
the reporting period. Actual results may differ from those estimates.

The FCC is not a designated Agency in the Chief Financial Officer’s Act of 1990 (CFO Act), as
amended, and therefore, has not been subject to the financial statement preparation requirements
of the CFO Act in the past. Financial statements were prepared for the first time in fiscal year
1999 to assist the Department of the Treasury’s Financial Management Service (FMS), in meeting
its government-wide financial statement preparation effort. For fiscal year 1999 reporting
purposes, only the consolidating balance sheet was presented and audited. For fiscal year 2000,
all required statements listed in OMB Bulletin No. 97-01, as amended, were prepared and
subjected to audit. The financial statements include all funds and programs for which the FCC is
responsible. All significant intra-entity balances and transactions have been eliminated in
consolidation. A distinction has been made in the financial statements between asset and liability
balances arising from transactions with other Federal government agencies and all other asset and
liability balances. These balances are specifically identified under the heading Intragovernmental.

Assets

Assets are tangible or intangible items owned by FCC that would have probable economic benefits
that can be obtained or controlled by FCC. The consolidated balance sheet presents assets in one
of two categories: entity or non-entity. Entity assets are those assets which the reporting entity
holds and has the authority to use in its operations. Non-entity assets are assets the entity holds
but does not have the authority to use in its operations.

Funds with the U.S. Treasury

The FCC maintains four types of accounts with the U.S. Treasury: appropriated, revolving,
deposit, and suspense. The appropriated and revolving accounts may be used by the FCC to
finance expenditures depending on budgetary availability. The deposit accounts are used to hold
funds received through spectrum auctions, international telecommunications settlements, or


                                               Page
                                                 33
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Funds with the U.S. Treasury (continued)

regulatory fee monies until they can be distributed to the proper account. The suspense account is
used to clear unidentified collections and reimbursements. There are no USF balances maintained
by the U.S. Treasury.

Cash and Other Monetary Assets

Entity – Entity cash represents USF cash on deposit at several commercial banks. It is cash that
can be used for any authorized program purpose. The commercial accounts are in the form of
money market mutual funds. USAC, the administrator of the USF, considers all highly liquid
securities, purchased with an original maturity of three months or less, to be cash equivalents.
Interest proceeds are reinvested and remain available for USF use.

Non-Entity – Non-Entity cash consists of cash deposits held at Mellon bank. FCC has custodial
responsibility for these funds. These funds represent third party advances made pursuant to the
FCC Spectrum Auction activities. Upon conclusion of individual auctions, funds on deposit are
offset against amounts due from successful bidders or returned to unsuccessful bidders. The
funds are held in an interest bearing account, for subsequent transfer to the Telecommunications
Development Account (TDA), during and for a 45 day period after the close of a given auction.

The Telecommunications Act of 1996 established the Telecommunication Development Fund
(TDF), the purpose of which is to: (1) promote access to capital for small businesses in order to
enhance competition in the telecommunications industry; (2) stimulate new technology
development, and promote employment and training; and (3) support universal service and
promote delivery of telecommunications to underserved rural and urban areas. Pursuant to 47
U.S.C. Section 309(j)(8), the FCC is authorized to transfer interest accrued on deposits from the
TDA to the TDF.

Cash on deposit typically exceeds federally insured limits. The Federal Reserve requires the bank
to collateralize all funds on deposit from FCC at 110 percent.

Accounts Receivable

Accounts receivable are recorded net of any related allowance for doubtful accounts. The
allowance is determined based on analysis of individual accounts. For specific entity accounts
receivables in FY 2000, the allowance was established using predetermined percentages against
the respective year the receivable was established, ranging from 0 percent to 100 percent.




                                             Page
                                               34
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Loans

Reporting requirements for direct loan obligations made after fiscal year 1991, are governed by
the Federal Credit Reform Act (FCRA) of 1990, as amended. The FCRA requires that the
present value of the subsidy costs (present value of the estimated cash outflows over the life of
the loans minus the present value of the estimated cash inflows, discounted at the interest rate of
marketable Treasury securities with a similar maturity term) associated with direct loans be
recognized as a cost in the year that the loan is obligated. Direct Loans are reported net of an
allowance for subsidy at present value.

Investments

Investments are reported net of any unamortized premium or discount. The USF’s investments
include intragovernmental securities and repurchase agreements. All commercial investments are
considered to be short term with maturity dates that do not exceed one year.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant and Equipment (PP&E) is full cost,
including all costs incurred to bring the PP&E to and from a location suitable for its intended use.
The cost of PP&E acquired through donation is the estimated fair value when acquired. The cost
of PP&E transferred from other Federal entities is the net book value of the transferring entity.

All PP&E with an initial acquisition cost of $25,000 or more and an estimated useful life of two
years or greater are capitalized. Bulk purchases of similar items, which individually are not worth
$25,000, but collectively are greater than $250,000 are also capitalized using the same equipment
categories and lives as capital acquisitions. PP&E are depreciated on a straight-line basis over the
estimated useful life of the item. The useful lives used are: twenty years for buildings, seventeen
years for patents, seven years for equipment, five years for computers and peripherals, and three
years for software. Land and land rights, including permanent improvements, are not depreciated.
 Also, software in process is not depreciated. Normal maintenance and repair costs are expensed
as incurred.

The FCC’s authority relative to seized and forfeited property is located in 47 U.S.C., Section 510.
 Seized property consists of real property seized in illegal telecommunication operations. The
property is considered prohibited and held pending an outcome of court proceedings. Seized
assets that are monetary instruments shall be recognized as an asset when seized and a
corresponding liability shall be reported equal to the seized asset value. FCC has no seized assets
that are monetary instruments. Forfeited property consists of seized property legally turned over
to the FCC and disposed of through the General Services Administration’s (GSA)



                                              Page
                                                35
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Property, Plant and Equipment (continued)

surplus process or destroyed. The values assigned to the seized and forfeited property are
determined by FCC engineers and are based on current market values for comparable property.

Accounts Payable and Accrued Liabilities

Accounts payable and accrued liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. FCC liabilities cannot be liquidated without
legislation that provides resources to do so. Since the FCC is a component of the U.S.
Government, a sovereign entity, payments of all liabilities other than contracts can be abrogated
by the sovereign entity.

Liabilities Covered by Budgetary Resources – Represent liabilities funded by available budgetary
resources including: (1) new budget authority, (2) spending authority from offsetting collections,
(3) recoveries of unexpired budget authority, (4) unobligated balances of budgetary resources at
the beginning of the year, and (5) permanent indefinite appropriations or borrowing authority, as
of the Consolidated Balance Sheet date. All liabilities covered by budgetary resources are
classified as current and are expected to be paid within one year following the reporting date.

Liabilities Not Covered by Budgetary Resources – Exist when funding has not yet been made
available through Congressional appropriations or current earnings. FCC recognizes such
liabilities for employee annual leave earned but not taken, and amounts billed by the Department
of Labor for Federal Employee’s Compensation Act (disability) payments.

Liability for Borrowings to Treasury

This account represents amounts due to the Bureau of Public Debt, U.S. Treasury, to support the
Spectrum Auction Loans Program. Borrowings are determined based on the FCC’s subsidy
estimate and reestimate in accordance with the FCRA of 1990, as amended, and guidance issued
by OMB.

Payable to Providers

This account contains amounts awaiting approval for payment to USF providers (Schools and
Libraries, Rural Healthcare, High Cost and Low Income) and TRS providers that were not
disbursed as of September 30, 2000.




                                             Page
                                               36
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Retirement Plans and Other Benefits

Federal Employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, but not yet due and payable. These costs include pensions, other retirement benefits,
and other post-employment benefits. These benefits are normally administered by OPM and not
by FCC. Since FCC does not administer the benefit plans, FCC does not recognize any liability
on the Consolidated Balance Sheet for pensions, other retirement benefits, and other post-
employment benefits. FCC does, however, recognize the imputed costs and imputed financing
related to these benefits in the Statement of Net Cost and the Statement of Changes in Net
Position, respectively.

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or
other termination of employment before retirement. Pension plans may also include benefits to
survivors and dependents, and they may contain early retirement or other special features. Most
FCC employees participate in the Civil Service Retirement System (CSRS) or the Federal
Employee Retirement System (FERS). Under CSRS, FCC makes matching contributions equal to
seven percent of basic pay. For FERS employees, FCC contributes the employer’s matching
share for Social Security and contributes an amount equal to one percent of employee pay to a
savings plan and matches up to an additional four percent of pay. Most employees hired after
December 31, 1983, are covered by FERS. The Office of Personnel Management reports on
CSRS and FERS assets, accumulated plan benefits, unfunded liabilities, if any, applicable to
Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for
death, disability, medical and miscellaneous costs for approval compensation cases. The liability
is determined using a method that utilizes historical benefit payment patterns related to a specific
incurred period to predict the ultimate payment related to that period. No actuarial liability is
determined by the Department of Labor (DOL) for the FCC, due to the immateriality to the
Federal government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the
balance in the accrued annual leave account is adjusted to reflect leave balances and current pay
rates. Annual leave is reflected as a liability that is not covered by current budgetary resources.
Sick leave and other types of non-vested leave are expensed as taken.




                                              Page
                                                37
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Revenues and Other Financing Sources

Regulatory Fee Collections - The Omnibus Budget Reconciliation Act of 1993 directed the FCC
to assess and collect regulatory fees to recover the costs incurred in carrying out certain
provisions of the Agency’s mission. Regulatory fees are intended to offset costs associated with
the FCC enforcement, policy and rulemaking, international, and user information activities. Since
1993, Congress has annually reviewed the regulatory fee collection requirements of the
Commission and established the total fee levels to be collected. Fees collected up to the level
established by Congress are applied against the FCC’s annual appropriation via a negative warrant
processed at the close of each fiscal year. Only once, in fiscal year 1998, have fee attainments
been less than the established level. In fiscal year 2000, regulatory fee collections exceeded the
established level of $185,754 by $1,500.

Application Fees - Congress authorized the FCC (Section 8 47 U.S.C.) to impose and collect
application processing fees and directed the FCC to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which
the FCC has jurisdiction. Application fees are deposited in the U.S. Treasury and are not
available for the FCC to use.

Annual Appropriations - The FCC receives an annual salaries and expense appropriation from
Congress. These funds are used to fund operations during the course of the fiscal year and are
repaid to the U.S. Treasury once regulatory fees have been collected. The annual appropriation
for fiscal year 2000 was $209,909; however, FCC repaid $185,754 to the U.S. Treasury in the
form of a negative warrant. Therefore, the resulting net appropriation retained was $24,155.

Subsidy Estimates and Reestimates – The FCC receives permanent-indefinite authority in
accordance with the FCRA of 1990, as amended, to fund its subsidy estimates and reestimates,
unless otherwise prescribed by OMB. This authority funds repayment to the U.S. Treasury for
the portion of Spectrum Auction loans that will not be recovered from the borrower.

Offsetting Collections – One of FCC’s primary functions is the management of the Auction
Spectrum Program on behalf of the U.S. Government. Proceeds from the auctions are initially
remitted to the FCC and later transferred to the U.S. Treasury, net of anticipated auction related
costs. Under 47 U.S.C. Section 309, a portion of the Spectrum auction proceeds may be retained
by the FCC to offset the cost of performing the auction function. Collections used to offset the
cost of performing the auctions totaled $45,407 for FY 2000.

Reimbursable Work Agreements – The FCC recognizes reimbursable work agreement revenue
when earned, i.e. goods have been delivered or services rendered. As of September 30, 2000,
FCC has agreements with other agencies totaling approximately $1,000.



                                             Page
                                               38
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Revenues and Other Financing Sources (continued)

Exchange and Non-exchange Revenue - Exchange revenue is the amount of money earned for
goods and services provided to other agencies and the public. For example, Spectrum Auction
sales and reimbursable agreements are considered exchange revenue to the Federal government.
Non-exchange revenue is recorded for transactions where revenue is earned at no substantial cost
to the provider. For example, collections from fines and forfeitures are considered non-exchange
revenue.

Based on interpretation of SFFAS No. 7, Accounting for Revenue and Other Financing Sources
and Concepts for Reconciling Budgetary and Financial Accounting, the collections and
disposition of monies of the Universal Service Fund have been reported as non-exchange revenue
on the Statement of Custodial Activity. In addition, the portion of USF’s expenses related to
managing and overseeing the Universal Service Fund are reported as operating expenses on the
FCC’s Consolidated Statement of Net Cost. See Note 18 for additional details.

Transactions with Related Parties

In the course of its operations, FCC has relationships and financial transactions with numerous
Federal agencies. The more prominent of those relationships are with the U.S. Department of
Treasury and the Office of Management and Budget. FCC also has relationships with agencies
such as the General Services Administration, the Department of Labor, the Office of Personnel
and Management, and the Department of Agriculture, National Finance Center, among others.

In addition to its relationships and financial transactions with Federal agencies, the FCC has a
direct relationship with several organizations that were established to assist the FCC in carrying
out its mission. Such organizations include: the Universal Service Administrative Company,
which administers the four universal service support mechanisms: high cost areas, low income
consumers, schools and libraries, and rural health care providers. The National Exchange Carriers
Association (NECA) administers the TRS Fund and the North American Numbering Plan Billing
and Collection Agent. The purpose of the TRS Fund is to compensate TRS providers for the
reasonable costs of providing interstate telephone transmission services that enable persons with
hearing or speech disabilities to use wireline or wireless telecommunications services. The North
American Numbering Plan Administrator (NANPA) administers the numbering resources to
support the industry's efforts to accommodate current and future numbering needs. The Local
Numbering Portability Administration (LNPA) works with carriers to update data tables for
required number portability.




                                             Page
                                               39
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued):

Net Position

Net position account balances consist of the following components:

Unexpended Appropriations – Represents amounts of spending authority that are unobligated and
available to the FCC, or obligated but not expended. Unexpended appropriations can also result
from downward reestimates of mandatory loan programs.

Cumulative Results of Operations – Represents the FCC’s net results of operations since
inception, including (1) the cost of property and equipment acquired that has been financed by
appropriations, less accumulated depreciation, and (2) the amount of appropriated funding that
will be needed in future periods to liquidate liabilities incurred through the current fiscal year.
Funding for these items is generally received in the year that amounts become due and payable.

Note 2 - Fund Balances with Treasury:

                              Entity                 Non-Entity             Total

General Funds               $1,893,358               $         -          $1,893,358
Revolving Funds                 10,136                         -              10,136
Deposit Funds                        -                   304,171             304,171

Total Fund Balance          $1,903,494               $ 304,171            $2,207,665

General Funds - These funds consist of salaries and expense appropriation accounts used to fund
agency operations and capital expenditures, no year accounts used to carryover spectrum auction
and regulatory fee funds not obligated in the year received, and the credit reform program
account.

Revolving Funds – The financing account is considered to be a revolving fund by the U.S.
Treasury. This is the only revolving fund maintained by FCC. This fund records cash flows
associated with the FCC’s Auction Spectrum Loan program.

Deposit Funds - These funds are maintained to account for receipts awaiting proper classification
or receipts being held in escrow until proper distribution can be made. The three deposit accounts
used by FCC hold spectrum auction receipts, international telecommunications settlements, and
regulatory fee monies. Deposit funds are not available for use by the FCC unless they are
properly identified or reclassified as FCC funds, otherwise, these funds will be returned to the
depositor or transferred to the U.S. Treasury.




                                             Page
                                               40
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 3 – Cash and Other Monetary Assets:

                               Entity                  Non-Entity
                               Assets                   Assets                       Total

Imprest Fund                   $        64             $       -                $        64
Money Market Funds                                          1,151                     1,151
Cash on deposit with
commercial banks                         -                 48,108                    48,108

Total Cash                     $        64             $ 49,259                 $ 49,323

Non-entity cash on deposit with commercial banks represents amounts deposited by bidders as
upfront money for auctions and related interest. None of the money held on deposit is available
to the FCC for use in its operations. Upon completion of the Spectrum auction process, deposits
from unsuccessful bidders will be returned, while successful bidder deposits will be transferred to
an FCC deposit symbol at the U.S. Treasury. Interest earned is transferred to the
Telecommunication Development Fund (TDF).

Money Market Funds represent payments received from USF contributors that have not yet been
distributed to the program recipients. All money held in commercial accounts by USF is
deposited in a money market type fund earning interest between 6.1 and 6.5 percent.

Note 4 – Investments:

                                                                      Unamortized
                                                       Amortization    (Premium)             Investments,
                                             Cost       Method          Discount                 Net


   Intragovernmental
       Marketable Securities             $ 1,297,611          SL          $     -             $ 1,297,611

   Other Securities:
      Repurchase Agreements                  716,360         N/A                 -                716,360
      TRS (Other)                             18,588         N/A                 -                 18,588
      Interest Receivable                      8,976                          N/A                      -    8,976

   Total Other Securities                    743,924                                              743,924


   Total Investments                     $ 2,041,535                  $          -            $ 2,041,535



                                               Page
                                                 41
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 4 – Investments (continued):

Investment balances represent funds that have been invested by USF in Federal and Commercial
securities and repurchase agreements. Marketable Federal securities are securities that can be
bought and sold on the open market. Repurchased agreements are collateralized by 110 percent
by government securities. All commercial investments are considered to be short term with
maturity dates greater than three months but not to exceed one year.

All losses associated with USF investments are considered temporary, therefore, net investments
is the same as market value.

Note 5 - Accounts Receivable, Net:

The following summarizes accounts receivable as of September 30, 2000:

                                     Entity          Non-Entity          Total

Intragovernmental:
 Gross Accounts Receivable       $            67     $      -            $        67
 Allowance for Doubtful Accounts (            28)    (      -)           (        28)

Net Accounts Receivable              $        39     $                   $        39

With the Public:
 Gross Accounts Receivable       $ 20,852            $   528,936         $ 549,788
 Allowance for Doubtful Accounts     (148)               (46,718)           (46,866)

Net Accounts Receivable              $ 20,704        $   482,218         $   502,922

Included in the entity receivable balance is $20.7 million specific to 47 U.S.C., Section 9
regulatory fees and the related late penalties due but not paid as of September 30, 2000. Gross
non-entity receivables with the public are largely composed of the $429.7 million due from USF
contributors. The allowance of $29.5 million is related to the USF contributors’ receivable
balance and was determined at the individual account level based upon a detail analysis of aged
receivables. TRS receivables of $5.1 million are also included in the non-entity receivable
balances.

The FCC non-entity receivables include an amount of $63.6 million for the Broadband Personal
Communications Services licenses. The Pioneer licensees were permitted to pay for their licenses
in installment payments over a five-year period. A subsequent agreement was reached by OMB,
the Congressional Budget Office (CBO), the U.S. Department of Treasury, and the FCC that
installment financed purchases of Spectrum Licenses should fall under FCRA requirements. In
fiscal year 1999, this agreement was applied retroactively to earlier installment


                                              Page
                                                42
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 5 - Accounts Receivable, Net (continued):

financed licenses with the exception of Pioneer. A decision was made by FCC and OMB not to
bring the Pioneer installments under FCRA of 1990, as amended because the installment payments
for Pioneer will be completed in fiscal year 2001. In addition to the Pioneer receivables, the FCC
has $23 million in receivables related to fines and forfeitures.

Note 6 - Direct Loans, Non-Federal Borrowers:

Under Section 309(j)(3) of the Communications Act of 1934, as amended, Congress directed the
FCC to implement a competitive bidding (auctions) system for licensing the spectrum, in order to
expand economic opportunity, promote competition, and facilitate the development and delivery
of new and improved telecommunications services to the public. Section 309(j)(4) gave the
Commission certain instructions for implementing the regulations for this system, including a
directive to ensure that small businesses, rural telephone companies, and women and minority-
owned businesses were provided with an opportunity to participate in the provision of spectrum-
based services. By statute, the FCC can use various means to facilitate expanded participation,
including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the FCC provided installment financing in its Spectrum Auction events,
including the C Block Broadband Personal Communications Services' (PCS), F Block PCS,
Narrowband PCS, Interactive Video and Data Service (IVDS), Multipoint Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten-year periods to repay their net winning bid amount
(less the down payment amount), with up to five-year interest-only initial payment periods. Interest
rates varied by the type of borrower. Retention of licenses granted at auction was strictly conditioned
on making full and timely payment of amounts as they become due.

FCC’s first auction was conducted in 1994, and starting in 1995, installment payment mechanisms
were used to finance portions of some of the winning bid amounts. In 1996, OMB, CBO, U.S.
Department of Treasury and FCC concluded that going forward installment financed
arrangements would be treated as direct loans and reported in accordance with FCRA. The FCC
complied with this arrangement. After the FCC completed the fiscal year 1998 subsidy
reestimate, it began a comprehensive review of its loan portfolio data. In fiscal year 1999, FCC
agreed with OMB to reclassify earlier installment arrangements and bring all such arrangements
under FCRA with the exception of Pioneer as discussed in Note 5. As of fiscal year 2000, the
FCC’s installment loan portfolio is tracked under nine cohorts. The loans receivable balance and
value of the assets related to the direct loans are not the same as the proceeds FCC would expect
to receive from selling their loans.




                                               Page
                                                 43
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 6 - Direct Loans, Non-Federal Borrowers (continued):

In accordance with Statement Federal Financial Accounting Standards (SFFAS) No. 2,
Accounting for Direct Loans and Loan Guarantees, Federal agencies are required to reestimate
the subsidy cost allowance annually as of the date of the financial statements. Any increase or
decrease in the subsidy cost allowance resulting from the reestimates is recognized as a change in
the subsidy expense.

For FY 2000, the FCC is reporting a decrease in the subsidy cost allowance of approximately $4.3
billion. This decrease is a result of a downward reestimate. This downward reestimate was
primarily caused by recent market activity that resulted in greater than previously estimated
recoveries from reauctioned spectrum licenses. According to the FY 2000 reestimate, the FCC
expects to recover an amount greater than the gross receivable balance. Therefore, the FY 2000
subsidy cost allowance becomes a receivable rather than a loss. This receivable is added to the
gross receivable balance, and therefore causes an increase to the net loan receivable balance.

As required under the Federal Credit Reform Act of 1990, as amended, the FCC coordinated with
the Office of Management and Budget (OMB) in developing estimation guidelines, regulations,
and the criteria to be used in calculating the subsidy cost allowance. This joint effort is
undertaken to facilitate the development and improvement of cost and recovery rate estimates.
This note should be read with the understanding that the FCC is a component of the Federal
government. Therefore, the subsidy cost allowance has been prepared under specific guidance
provided by the OMB in efforts to ensure that the objectives of the Federal government, taken as
a whole, are being achieved and does not represent the FCC’s current policy position on the
auction of Spectrum held previously by other parties.

For budget purposes, OMB continues to request the FCC revise the assumptions used, based on
events subsequent to September 30, 2000, to produce the cash flow estimates. The effects of the
revisions have not yet been determined but will likely have a material impact to the subsidy costs.
In accordance with OMB Circular A-34, once the impact of such revisions is determined, the
results will be taken into consideration in making the reestimate for the following year.

Loans Receivable - Loans Receivable for post 1995 Spectrum License Auctions (with the
exception of Pioneer Licenses) are recorded at the principal outstanding, net of allowances for
subsidy. Allowance for subsidy costs represent the difference between the present values of
estimated net cash inflows and outflows of the Spectrum License Auction Loans. The allowance
for subsidy cost is amortized using the effective interest method based on the U.S. Treasury’s
interest rate at the time loans were disbursed. These funds are used to offset the annual interest
expense to the U.S. Treasury on outstanding FCC borrowings. The allowance for subsidy also
provides for write-offs on defaults and other costs that may affect cashflows.

Accrued Interest – FCC accrues interest on loans as it is earned. Current FCC policy
automatically grants Spectrum Auction loans two three-month grace periods for which borrowers
are charged late fees. In accordance with the FCC rules, at the end of the six-month period, loans

                                             Page
                                               44
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 6 - Direct Loans, Non-Federal Borrowers (continued):

are considered to be in default and the license is automatically cancel. For financial reporting
purposes, it is the FCC’s policy to discontinue accruing interest on loans that are beyond the six-
month grace period, since these loans are considered non-performing. Therefore, it is the FCC’s
policy to accrue and record interest only on the performing loans for financial reporting purposes.

Direct Loans Obligated After FY 1991

                       Gross Loans Interest              Other          Allowance     Net
Loan Program           Receivable  Receivable            Receivables    for Subsidy   Loans Receivable

    FY 2000            $8,177,261       $ 429,889        $      2,952   $982,418      $9,592,520

As approved by OMB, the amounts above do not include the balances related to the Broadband
PCS Pioneer Installment Financed Licenses for reasons previously mentioned.

Subsidy Expense for Post-FY 1991 Direct Loans

1. Current Year's Direct Loans:

                       Interest
Loan Program           Differential     Defaults         Fees           Other         Total

Spectrum Auctions      $     (58)       $ 151            $        -     $       -     $ 93

2. Direct Loan Modification and Reestimates:

Loan Program           Modification             Reestimates
Spectrum Auctions
    FY 2000            $            -           $3,381,499

3. Total Direct Loan Subsidy Expenses:

   Total Current Year Direct Loans              $         93
   Modifications
   Reestimates                                      3,381,499

   Total                                        $3,381,592

4. Administrative Expense:

           Spectrum Auctions Total              $       4,836


                                                Page
                                                  45
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 6 - Direct Loans, Non-Federal Borrowers (continued):

As previously described, all Federal agencies are required to annually adjust their allowance for
losses on their credit portfolios based on the most current performance information. In
accordance with OMB guidance, the FCC calculated its subsidy reestimate based on the most
recent economic conditions and technical assumptions available. The FCC’s subsidy reestimate
shows a $4.3 billion reduction in the Spectrum License Auction Loan Portfolio subsidy cost,
primarily due to the projected improved performance of the defaulted C Block and F Block loan
portfolios. The average subsidy rate (the subsidy cost expressed as a percent of the original loan
amount) falls from 52.08 percent from the prior year to 18.08 percent for the current year. In
other words, the FCC expects to lose 18 cents for every dollar lent out through the Spectrum
License Auctions installment loan program.

The most significant changes in the reestimate of the subsidy costs are attributable to the C and F
Block installment licenses. There were no significant changes to the assumptions used for
projection purposes of estimated cash flows for the other Spectrum License Auctions licenses.
Based on the FY 2000 subsidy reestimate, the FY 1997 C and F Block installment licenses
account for 97 percent of the Spectrum Auction subsidy cost (94 percent and 3 percent,
respectively).

The FCC added $10.6 million to its allowance for certain loans and reduced the allowance by $4.3
billion for other loans. The “Interest on Reestimate” represents the interest earned/lost from
origination until December 2000, the time of the reestimate, which increased the downward
reestimate by $901 million.

The C Block FY 1997 Cohort Subsidy Reestimate for FY 2001 resulted in a subsidy rate change
from 54.34 percent in FY 2000 to 17.96 percent in FY 2001 and a subsidy cost change from $4.9
billion in FY 2000 to $1.6 billion in FY 2001. The major driver was due to the new recovery
assumptions of approximately $7.9 billion from Auction 35 and a 100 percent recovery rate on
other defaulted loans. The reestimate also reflects 12 months of additional payment data and a
change in projected vs. actual defaults from FY 2001 – FY 2006.

The F Block FY 1997 risk category subsidy reestimate for FY 2001 resulted in a subsidy rate
change from 27.62 percent in FY 2000 to 6.08 percent in FY 2001 and a subsidy cost change
from $137.4 million to $30.2 million. Consistent with C Block, the major driver for the change
was due to an increase in the recovery projection from 50 percent to 100 percent.




                                             Page
                                               46
                  FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                   September 30, 2000
                      (dollars in thousands unless otherwise stated)

Note 7 – Seized and Forfeited Property:

Seized Property

FCC seizes property from illegally operated radio and other communication operations. The
property is held pending the outcome of court proceedings. The property is comprised of
prohibited property, radio frequency, audio equipment and other. The values assigned to the
property are determined by FCC engineers based on current market values for comparable
property. Seized Property as of September 30, 2000:

                      Beginning     Number           Number      Ending
                      Balance       Seized           Forfeited   Balance        Amount
Prohibited (a)            36           10                   5        41         $   -
Radio Frequency           66           46                 22         90             7
Audio                  2,363          135                162      2,336            44
Other                               163                 74             149                88
                        4

Totals                 2,628          265               338       2,555         $   55

Forfeited Property

Forfeited property consists of seized property legally turned over to the FCC. FCC does not
resell the items. Forfeited items are either disposed of through the GSA surplus process or
destroyed. The property is comprised of prohibited property, radio frequency, audio equipment
and other. The values assigned to forfeited property are determined by FCC engineers, which are
based on current market values for comparable property. Forfeited Property as of September 30,
2000:

                      Beginning     Number           Number      Ending
                      Balance       Forfeited        Disposal    Balance        Amount
Prohibited (a)            17               5               1         21         $   -
Radio Frequency           86             22               12         96              4
Audio                   397             162               70        489            49
Other                               121                 149                98            172
                         8

Totals                  621             338              181        778         $   61

(a) Prohibited items are those with no legal market in the United States. At the FCC, prohibited
items are typically radio transmitters, the marketing of which would be in violation of the
Communications Act.



                                              Page
                                                47
                    FEDERAL COMMUNICATIONS COMMISSION
                 NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                     September 30, 2000
                        (dollars in thousands unless otherwise stated)

Note 8 - Property, Plant and Equipment, net:

The following summarizes general property, plant and equipment (PP&E) as of September 30,
2000:

                    Acquisition             Accumulated            Net Book               Service
Classes of PP&E       Cost                  Depreciation            Value               Life in Years
Land                $     1,292             $          -          $     1,292           N/A
Buildings                 4,091                  3,848                    243           20
Furniture               19,158                   5,018                 14,140           7
Non-Computer Equip.       6,647                  5,084                  1,563           7
Computer Equip.         13,450                   7,722                  5,728           5
Bulk Purchases            4,409                  1,907                  2,502           5-7
Vehicle Systems           2,924                  1,150                  1,774           7
Broadcast Station
Equipment                 4,497                    4,359                  138           7
Patent                      800                      137                  663           17
ADP Software            14,024                     6,577                7,447           3
ADP Software,
In Process               3,909                          -               3,909           N/A

Totals                $   75,201            $      35,802         $    39,399


Note 9 - Borrowings from the U.S. Treasury:

The FCC borrows from the U.S. Treasury for costs associated with its Spectrum Auction Loan
Program. Borrowings are determined upon calculation of the subsidy estimates and reestimates in
accordance with the FCRA of 1990, as amended. The borrowings pertain to all loan cohorts.

Beginning Balance                                                 $3,938,605
Net Borrowing                                                      1,368,666

Ending Balance                                                    $5,307,271

The weighted average interest rate on borrowings from the U.S. Treasury for fiscal year 2000 was
approximately 7.0 percent. The calculation was made in accordance with OMB Circular A-34,
Budget Execution. Total interest paid on borrowings from the U.S. Treasury was $368.5 million
for fiscal year 2000.




                                            Page
                                              48
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 10 – Accounts Payable:

The Accounts Payable – FCC balance reflects amounts owed for goods and services that have
been received, but not liquidated as of September 30, 2000. Accounts Payable - USF mainly
represents administrative costs incurred primarily by and due to USAC for USF and to NECA for
TRS.

                                         Intragovernmental       With the Public         Total

Accounts Payable - FCC                      $          -         $    14,403        $ 14,403
Accounts Payable – TRS                      $          -                9,532          9,532
Accounts Payable - USF                                 -              385,694        385,694

Totals                                      $          -         $    409,629       $409,629


Note 11 – Other Debt:

The majority of Other Debt is comprised of a liability of $125.3 million as a result of litigation
against the FCC. This liability is considered long-term and liquidation of the liability is dependent
upon the outcome of upcoming auctions.

Note 12 - Other Liabilities:

                                         Intragovernmental       With the Public            Total
Covered By Budgetary Resources:
    Liability for Custodial Receivable      $     96,347     $             740      $        97,087
    Liability for Custodial Receipts             229,999                      -             229,999
    Auction Deposits                              17,002                46,799               63,801
    Accrued Payroll                                1,762                 8,369
10,131                                             Miscellaneous                   607
  -                                                    607
Total Covered Budgetary Resources           $    345,717     $         55,908       $       401,625

Not Covered By Budgetary Resources:
   FECA Liability                   $                      443   $           -      $           443
   Deferred Revenue                                          -          69,982              69, 982

Total Not Covered By
Budgetary Resources                         $              443   $       69,982     $       70,425

The FCC liability for custodial receivables represents an offset to non-entity receivables that when
collected, will be deposited into the U.S. Treasury General Fund.


                                                Page
                                                  49
                    FEDERAL COMMUNICATIONS COMMISSION
                 NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                     September 30, 2000
                        (dollars in thousands unless otherwise stated)

Note 12 - Other Liabilities (continued):

The liability for custodial receipts represents Spectrum Auction monies being held by FCC for
transfer to the U.S. Treasury General Fund. A portion of these funds may be used to cover the
cost of fiscal year 2000 auctions. It is anticipated that all custodial receipts currently held will be
transferred to the U.S. Treasury or used as offsetting collection in fiscal year 2001.

Note 13 – Payable to Providers:

The USF collects funds from contributing telecommunications service providers in accordance
with FCC regulations. Pursuant to FCC rules, the universal service support funds are made
available to service providers to assist in making access to telecommunication services more
affordable to remote or rural areas, low-income neighborhoods, rural health care providers, and
public and private schools and public libraries. The Telecommunications Relay Services (TRS)
fund compensates service providers for the reasonable costs of providing interstate telephone
transmission services that enable persons with hearing or speech disabilities to use wireline or
wireless telecommunications services. Accordingly, the payable to providers in the amount of
approximately $2.1 billion represents collected contributions as of September 30, 2000 that have
yet to be distributed to eligible service providers.

Note 14 - Leases:

Operating Leases:

The FCC has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods.

Future lease obligations under operating leases are as follows:

   Fiscal Year                       Bldg                  Copier                      Total

       2001                          31,241                     538                    31,779
       2002                          38,192                     564                    38,756
       2003                          38,959                     592                    39,551
       2004                          39,738                     622                    40,360
       2005                          40,532                     653                    41,185

Total Future Lease Payments       $188,662                  $ 2,969                  $191,631




                                               Page
                                                 50
                    FEDERAL COMMUNICATIONS COMMISSION
              NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                     September 30, 2000
                        (dollars in thousands unless otherwise stated)
Note 15 – Net Position:

Net position is the difference between assets and liabilities. The section contains two line items:
Unexpended Appropriations, including unobligated appropriations and undelivered orders, and
Cumulative Results of Operations. Unobligated appropriations are either available for obligation
or not available (permanently or temporarily) pursuant to a specific provision in law. Undelivered
orders represent appropriations obligated (i.e. legally reserved) for the amount of goods or
services ordered but not yet received.

Cumulative results of operations include the following:

•   The net accumulated difference between expenses consuming budgetary resources and
    financing sources providing budgetary resources.

•   Investment in capitalized assets, which increases as capital assets are acquired and decreases
    as capital assets are consumed (depreciated) or disposed of; and

•   The excess of certain liabilities not covered by budgetary resources, net of certain assets not
    providing budgetary resources, whose liquidation will require funding from future
    congressional appropriations or other budgetary resources.

Unexpended Appropriations consists of the following:
Unobligated:
       Available                                                    $   6,103,668
       Unavailable                                                           6,992
Undelivered Orders                                                         17,336
Non-Budgetary Accruals                                              $       (5,306)

Total                                                               $    6,122,690

In accordance with FCRA of 1990, as amended, the FCC will recognize the budgetary effects of
the downward reestimate of approximately $4.3 billion in the subsequent fiscal year. Therefore,
the downward reestimate, based on interpretation of the accounting standards and as discussed in
detail in Note 6, is not reported on the Statement of Budgetary Resources but is included in
Unexpended Appropriation as a recovery of previously recognized subsidy expense for financial
reporting purposes in FY 2000.

Note 16 – Gross Costs and Related Exchange Revenue:

Section 9(a) of the Communications Act of 1934, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by
Congress, that it incurs in carrying out enforcement, policy and rulemaking, international, and
user information activities. OMB Circular No A-25 revised, User Charges, requires an agency to
assess a user charge against each identifiable recipient for special benefits derived from Federal
activities beyond those received by the general public. The Circular also requires that user fees
Note 16 – Gross Costs and Related Exchange Revenue (continued):
                                             Page
                                               51
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

be established to recover the full cost to the Federal government of providing the service when the
Government is acting in its capacity as sovereign. Where a statute prohibits certain aspects of the
user fee, the statute shall take precedence over the requirements of Circular A-25. Accordingly,
Congress required the FCC to recover approximately $185.8 million through its regulatory fees.
These fees were established by Congressional authority, and consistent with OMB Circular A-25,
the FCC did not determine the full costs associated with its regulatory activity in the establishment
of regulatory fees.

With regards to the costs reported on the Statement of Net Cost, these costs are allocated to the
five budgeted FCC programs on the basis of total and direct program costs. There are four
common cost pools, which consist of Leave Costs, Other Costs, Bureau Overhead Costs and
Executive Direction Costs and the costs are allocated in that order. All four cost pools are
allocated on the basis of total costs and are ultimately distributed either to activity codes for
Salaries and Expenses related costs or auctions related costs. Specifically, Leave Costs are
allocated on a total cost basis and all other costs allocated based on direct program costs. At the
completion of the common cost allocation process, all costs were summarized according to the
four programs included in the annual budget submission to OMB and the Congress.

Costs for intragovernmental and with the public were separately identified by the FCC. The FCC
then determined the percentage of intragovernmental costs and costs with the public as a ratio to
total costs. These percentages were used in allocating program costs between intragovernmental
and with the public at the program level on the statement of net costs.

The most significant costs of the FCC pertains to its credit reform activities, included interest
expense on borrowings of approximately $368 million, interest on the subsidy of approximately
$901 million, and the downward reestimate of the subsidy costs on the installment loan program
of approximately $3.4 billion described in “Total Direct Loan Subsidy Expenses” in Note 6 above.
 These costs have been allocated on the Statement of Net Cost consistent with the basis of
Executive Direction Costs, among the programs, excluding the USF, reflected on the Statement
of Net Cost. Other costs allocated among the programs include approximately $145 million for
salaries and related benefits, and approximately $55 million related to contractual services.

Exchange revenue is allocated on a one to one basis with ending gross costs and is largely
composed of $2.3 billion in interest revenue related to the downward reestimate of recoveries on
credit reform loans. In addition to interest revenue are earned revenues of $185.8 million from
annual regulatory fees, $45 million reimbursed to cover Spectrum Auction costs, $28 million in
application fees ultimately passed on to the U.S. Treasury, and $1 million in reimbursable revenue
with other Federal, state, and local agencies.

Also, based on interpretation of SFFAS No. 7, Accounting for Revenue and Other Financing
Sources and Concepts for Reconciling Budgetary and Financial Accounting, as issued by the
Federal Accounting Standards Advisory Board (FASAB), the FCC recorded the portion of
expenses related to managing and overseeing the USF as operating expenses.


                                              Page
                                                52
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 17 – Prior Period Adjustments:

During fiscal year 2000, prior period adjustments were made to the accounting records. These
adjustments were made as a result of the extensive efforts endured in preparing a comprehensive
set of financial statements for the first time ever. The adjustments are summarized as follows:

Recognize property and related depreciation for items
purchased in prior years but not identified until the current year         $    1,745

Reduce overstated depreciation on Furniture                                     (7,298)

Reclassify credit reform funds from
Cumulative results to appropriated capital.                                1,826,241

Reclassify auctions and regulatory funds
from appropriated capital to cumulative results                                 11,160

Removal of liability for moving and furniture costs                            (74,132)

Regulatory Fees                                                                 2,534

Other                                                                               41

Total                                                                     $1,760,291

The majority of the items above occurred as a result of the manner in which closing entries were
reflected in the accounting records. Specifically, the $1.8 billion resulted from a downward
reestimate that was incorrectly classified as cumulative results of operations in the accounting
system in fiscal year 1999. In accordance with SFFAS # 2, Accounting for Direct Loans and
Loan Guarantees, as amended, the $1.8 billion was reclassified to unexpended appropriations.
The removal of the liability for moving and furniture as part of the FCC’s move into the current
Headquarters location resulted in the retroactive recognition of “Other Financing Sources.” As a
means of recognizing these resources without reflecting them in the current year, the FCC has
recognized a prior period adjustment.

A prior period adjustment of approximately $64 million was also made to the loans receivable
balance and the related allowance. The adjustment was not recorded on the Statement of
Changes in Net Position since it only impacted the Consolidated Balance Sheet, and accordingly,
the adjustment had no net effect on this fiscal year’s Statements of Net Cost and Changes in Net
Position.




                                               Page
                                                 53
                   FEDERAL COMMUNICATIONS COMMISSION
                NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                    September 30, 2000
                       (dollars in thousands unless otherwise stated)

Note 18 – Dedicated Collections:

U.S. telecommunication companies are obligated to pay assessments for universal service support
and for telecommunications relay service, which are established by the FCC. These assessments
are accounted for in the U.S. Budget as the “Universal Service Fund.” As defined by the
Statement of Federal Financial Accounting Standards (SFFAS) No. 7, Accounting for Revenue
and Other Financing Sources and Concepts for Reconciling Budgetary and Financial
Accounting, as issued by the Federal Accounting Standards Advisory Board (FASAB). Such
monies are not considered exchange revenues because neither the FCC nor the USF sacrificed
value or received value in return for the collection and disbursement of the contributed funds
(e.g., provided goods or services for a price).

Based on interpretation of SFFAS No. 7, the FCC considers the assessments collected under the
Universal Service Fund as dedicated funds. The following summarizes the significant assets,
liabilities, and related costs incurred with managing the Universal Service Fund. See Other
Accompanying Information for complete disclosure of all activity related to the Universal Service
Fund.

Assets

Investments (see note 4)                    $2,041,535
Accounts Receivable                            405,350

Liabilities

Payable to Providers                        $2,446,379

Costs

Program Costs                                  $39,608

The program costs are expenses related to managing and overseeing the USF. The USF is
charged administrative expenses from the Universal Service Administrative Company and the
National Exchange Carriers Association for expenses such as salaries and benefits of the
employees dedicated to managing the universal service support mechanisms and the
telecommunications relay services mechanism, rent and utilities for office space used, providing
accounting and other financial reporting related services, and other miscellaneous activities.




                                             Page
                                               54
                   FEDERAL COMMUNICATIONS COMMISSION
              NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                     September 30, 2000
                        (dollars in thousands unless otherwise stated)
Note 19 – Contingencies:

A contingency is an existing condition, situation, or set of circumstances involving uncertainty as
to possible gain or loss to FCC. The uncertainty will ultimately be resolved when one or more
future events occur or fail to occur. With the exception of pending, threatened, or potential
litigation, a contingent liability is recognized when a past transaction or event has occurred, a
future outflow or other sacrifice of resources is more likely than not, and the related future
outflow or sacrifice is measurable. For pending, threatened, or potential litigation, a liability is
recognized when a past transaction or event has occurred, a future outflow or other sacrifice of
resources is likely, and the related future outflow or sacrifice of resources is measurable.

The FCC is in the process of determining whether a liability needs to be recorded in its financial
records for FY 2000 as a result of the FCC’s move to the current Headquarter facilities. FCC is
seeking determination from OMB if a liability exists and whether the FCC or another agency will
be responsible for liquidating the potential liability. As of September 30, 2000, the FCC is
awaiting decision from OMB and the FCC is unable to reasonably estimate an amount and predict
the outcome of OMB’s decision.

FCC is a party in various administrative proceedings, legal actions and claims brought by or
against the agency. In addition, several bankruptcy proceedings are ongoing related to the loan
portfolio. See Note 6 for more information related to the loans. In the opinion of FCC
management, the ultimate resolution of proceedings, actions and claims, outside of the loans, will
not materially affect the financial position or results of operations of FCC. Additionally, there are
certain matters under consideration at the Department of Justice, which may result in future
proceedings or actions. As of September 30, 2000, the Department of Justice and FCC
management are not in a position to assess the outcome of these matters.

Subsequent to the end of the fiscal year, FCC management became aware that additional matters
may be raised which would have the potential to be material. Review is at an extremely
preliminary stage and therefore FCC management is not in a position to assess these matters for
any purpose.

Note 20 - Statement of Budgetary Resources:

Total budgetary authority for the FCC as of September 30, 2000 is $4,524,689.

All unobligated budgetary authority is in compliance with applicable appropriation laws with
regards to time limitations, restrictions and purpose. The unobligated balance of budgetary
authority available for apportionment is $1,847,387, which is mostly made up of the fiscal year
1999 downward reestimate of $1,821,450. The fiscal year 2000 downward reestimate of
$4,282,602 is currently reflected in unexpended appropriations and will have a budgetary impact
in fiscal year 2001. The unobligated balance of budgetary authority unavailable of $11,359
represents expired amounts related to the annual appropriations received for Salaries and
Expenses. This balance is only available for any upward adjustment to existing obligations.


                                              Page
                                                55
                    FEDERAL COMMUNICATIONS COMMISSION
               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                     September 30, 2000
                        (dollars in thousands unless otherwise stated)
Note 20 - Statement of Budgetary Resources (continued):

FCC receives borrowing authority consistent with the Federal Credit Reform Act of 1990, as
amended. The borrowing is authorized through an indefinite permanent authority at interest rates
set each year by the U.S. Treasury. In addition, the FCC has permanent indefinite authority for
subsidizing the Spectrum Auction direct loan program.

With the exception of a monetary credit that resulted as a judgment against the FCC, all
borrowings are from the Bureau of Public Debt. In accordance with applicable standards, all
funds are borrowed at the beginning of the period. Therefore, the FCC does not carry over any
unused borrowing authority. Repayments of borrowings are made in accordance with the terms
of the Federal Credit Reform Act of 1990, as amended. Financing sources for repayment are
collections from borrowers or subsidy.

There were no adjustments made to the beginning balance of budgetary resources. In addition,
there was no contributed capital received during the fiscal year 2000.

Note 21 – Statement of Financing:

Financing Sources yet to be Provided of $509 represents the increase in the Accrued Unfunded
Leave balance ($12,548) over the prior year. The other Liabilities Not Covered by Budgetary
Resources shown on the balance sheet, Other Unfunded Liability – Intragovernmental ($443),
Payable to Provider ($2,052,849), and Other Unfunded Liability - With the Public ($69,982)
represent custodial liabilities that have no impact on the statement of financing.

Note 22 – Cost and Revenue by Budget Function:

The FCC’s costs and revenue, by budget function, are consistent with that shown on the
Statement of Net Cost.




                                            Page
                                              56
FEDERAL COMMUNICATIONS COMMISSION




        REQUIRED
     SUPPLEMENTAL
      INFORMATION




            Page57
                    FEDERAL COMMUNICATIONS COMMISSION
                    REQUIRED SUPPLEMENTAL INFORMATION
                               September 30, 2000
                              (Dollars in thousands)

                                 Intra-Governmental Assets

                                         Fund              Accounts
Trading Partner                         Balance            Receivable            Investments
Entity
Department of Treasury               $1,903,494            $         -           $        -

Other                                             -                  39                    -

Sub-Total                            $1,903,494            $         39          $         -

Non-Entity
Department of Treasury               $ 304,171             $             -       $1,297,611

Total                                $2,207,665            $        39           $1,297,611


                               Intra-Governmental Liabilities


                                    Borrowings
                                      From                   Other
Trading Partner                     Treasury               Liabilities
Funded
Department of Treasury              $5,307,271             $ 326,346
Other                                                         19,371

Sub-Total                           $5,307,271             $ 345,717

Unfunded
FECA                                $             -        $       443

Total                               $5,307,271             $   346,160


                         Intra-governmental Non-Exchange Revenue

 The FCC does not have any intra-governmental non-exchange revenue. All of the FCC’s non-
Exchange revenues are from the public, which includes collections attributable to civil monetary
                         penalties and the Universal Service Fund.

                                          Page58
                     FEDERAL COMMUNICATIONS COMMISSION
                     REQUIRED SUPPLEMENTAL INFORMATION
                                September 30, 2000
                               (Dollars in thousands)


DEFERRED MAINTENANCE

To determine the estimated cost of deferred maintenance, FCC contracted with professional
building inspectors to inspect its real property holdings containing include buildings and
structures. The inspection reports were, in most cases, comprehensive reviews of the buildings
and ground conditions and included all items that required attention, whether critical to the
functionality of the building or more of a cosmetic nature. Although FCC does not consider the
amounts material, it has identified approximately $1.7 million related to deferred maintenance.

FCC intends to review the deferred maintenance items on a quarterly basis to determine which
items should be funded and whether funds are available to support the work. Using the
inspection reports and cost estimates as a baseline, FCC also intends to create a spreadsheet
showing a year-by-year schedule of maintenance and replacement items to assist in budget
planning.




                                          Page59
FEDERAL COMMUNICATIONS COMMISSION




        OTHER
    ACCOMPANYING
     INFORMATION




            Page60
                                                                                     t


A1
                                       Independent Auditor’s Report

To the Inspector General of the
Federal Communications Commission


We have audited the accompanying consolidated balance sheet of the Federal Communications
Commission (FCC) as of September 30, 2000, and the related consolidated statements of net
cost, changes in net position, budgetary resources, financing, and custodial activity for the year
then ended (collectively the Principal Statements). These Principal Statements are the
responsibility of FCC’s management. Our responsibility is to express an opinion on these
Principal Statements based on our audit.

We conducted our audit in accordance with the U. S. generally accepted auditing standards; the
standards applicable to the financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin 01-02, Audit Requirements for Federal Financial Statements. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether the Principal
Statements are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the Principal Statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall Principal Statements’ presentation. We believe
our audit provides a reasonable basis for our opinion.

In our opinion, the Principal Statements and related notes present fairly, in all material respects,
in conformity with U. S. generally accepted accounting principles, FCC’s assets, liabilities, and
net position; net cost; changes in net position; budgetary resources; reconciliation of net cost to
budgetary obligations; and custodial activity as of September 30, 2000 and for the year then
ended.

In accordance with Government Auditing Standards, we have also issued our reports dated
February 9, 2001 on our consideration of FCC’s internal control over financial reporting, and on
our tests of FCC’s compliance with certain provisions of laws and regulations. These reports are
an integral part of our audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

Our audit was made for the purpose of forming an opinion on the basic Principal Statements
taken as a whole. The Management Discussion and Analysis and Required Supplemental
Information are not a required part of the Principal Statements but are supplementary


    Centerpark I
    4041 Powder Mill Road, Suite 410
    Calverton, Maryland 20705-3106
    tel: 301-931-2050
    fax: 301-931-1710
    www.cliftoncpa.com
                                                        1
                                           Offices in 13 states and Washington, DC       h
information required by OMB Bulletin No. 97-01, Form and Content of Agency Financial
Statements. The other Accompanying Information is presented for the purposes of additional
analysis and is not a required part of the Principal Statements. Such information contains a wide
range of data, some of which are not directly related to the Principal Statements. We have
applied certain limited procedures, which consisted principally of comparing this information for
consistency with the Principal Statements and discussing the methods of measurement and
presentation with FCC management. However, we did not audit the information and express no
opinion on it.


a1
Calverton, Maryland
February 9, 2001




                                               2
                                                                                  t


A1
                          Independent Auditor’s Report on Internal Control

To the Inspector General of the
Federal Communications Commission


We have audited the Principal Statements (hereinafter referred to as “financial statements”) of
the Federal Communications Commission (FCC) as of and for the year ended September 30,
2000, and have issued our report thereon dated February 9, 2001. We conducted our audit in
accordance with U. S. generally accepted auditing standards; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

In planning and performing our audit, we considered FCC’s internal control over financial
reporting by obtaining an understanding of FCC’s internal controls, determined whether internal
controls had been placed in operation, assessed control risk, and performed tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the
financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 01-02. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act (31 U.S.C. 3512), such as those controls relevant to ensuring efficient operations.
The objective of our audit was not to provide assurance on internal control. Consequently, we do
not provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in our judgment, could adversely affect the agency’s ability
to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may nevertheless occur
and not be detected. However, we noted certain matters discussed in the following paragraphs
involving the internal control and its operation that we consider to be reportable conditions and
material weaknesses.

    Centerpark I
    4041 Powder Mill Road, Suite 410
    Calverton, Maryland 20705-3106
    tel: 301-931-2050
    fax: 301-931-1710
    www.cliftoncpa.com
                                                     3
                                        Offices in 13 states and Washington, DC          h
In addition, with respect to internal controls related to performance measures reported in FCC’s
Management Discussion and Analysis (MD&A), we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions, as required by
OMB Bulletin No. 01-02. Our procedures were not designed to provide assurance on internal
controls over reported performance measures, and, accordingly, we do not provide an opinion on
such controls. However, we noted certain significant deficiencies in internal control over
reported performance measures discussed in the following paragraphs that, in our judgment,
could adversely affect the agency’s ability to collect, process, record, and summarize
performance information and report performance measures in accordance with management
criteria.

                     ********************************************

MATERIAL WEAKNESSES

I.      Financial Reporting (Repeat Condition)

The Chief Financial Officers (CFO) Act of 1990 assigned responsibility for developing and
operating financial management systems to each Federal agency. OMB Bulletin No. 97-01,
Form and Content of Agency Financial Statements, as amended (OMB Bulletin No. 97-01, as
amended) defines the form and content of financial statements to be prepared by each agency.
To accomplish the objective of complying with the CFO Act, the agency is required to develop a
system to prepare a complete set of financial statements on a timely basis in accordance with
generally accepted accounting principles. The statements are to result from an accounting
system that is an integral part of a total financial management system containing sufficient
structure, effective internal control, and reliable data. Financial reporting also consists of
policies and procedures related to the processing and summarizing of accounting entries, and the
preparation of financial statements.

FCC achieved an exceptional goal in preparing its first complete set of financial statements for
fiscal year 2000; just one year after its first ever balance sheet and notes were prepared and
audited. FCC staff, increasing cooperation and coordination among offices and bureaus, and
services from external consultants, among others, were instrumental in achieving this goal.
However, we believe that FCC’s financial reporting process continues to need refinement. This
refinement should allow FCC to prepare reliable financial statements in a more timely and
efficient manner at the end of the fiscal year and interim periods throughout the year.

FCC’s financial reporting weaknesses are detailed as follows:

A. Develop an Integrated Financial Management System

     OMB Circular No. A-127, Financial Management Systems requires that each agency
     establish and maintain a single integrated financial management system. Without a single
     integrated financial management system to ensure timely and accurate financial data, poor
     policy decisions may occur, due to inaccurate or untimely information. Managers are less




                                                4
likely to be able to report accurately to the President, Congress, and the public on
Government operations on a timely manner. And, scarce resources are more likely to be
directed toward the collection of information rather than to delivery of the intended
programs.

Having a single, integrated financial management system does not necessarily mean having
only one software application within each agency covering all financial management system
needs. Also, it does not mean that all information is physically located in the same database.
Rather, a single, integrated financial management system is a unified set of financial systems
linked together electronically in an efficient and effective manner to provide agency-wide
financial system support. Integration means that the user is able to have one view into
systems such that, at whatever level the individual is using the system, he or she can obtain
needed information efficiently and effectively through electronic means. Interfaces are
acceptable as long as the supporting detail is maintained and accessible to managers.
Interface linkages must be electronic unless the number of transactions is so small that it is
not cost beneficial to automate the interface. Easy reconciliations between systems, where
interface linkages are appropriate, must be maintained to ensure data accuracy.

FCC utilizes the Federal Financial System (FFS) as its general ledger and core financial
management system. FFS is not capable of generating most data analysis user reports on a
real time basis. Users have to request reports which are generated by a software application
whose operations are only known to some staff of Financial Operations (FO). Other
financial management systems used at FCC include the property management system, loan
database spreadsheets, license databases, collection system, cost system, commercial
accounting software for fines and forfeitures, and various spreadsheet applications. None of
these financial management systems are integrated.

Management Comments:

Management concurs. The effort to develop an integrated financial system has been ongoing
since FY 1999. Current efforts involve implementation of the Revenue Accounting and
Management Information System (RAMIS) as well as upgrading the cost accounting system
and reconfiguring FFS. RAMIS has been partially implemented for FY 2001 and is
integrated with the core financial accounting system. FCC hired a contractor to help develop
the functional requirements applicable for the replacement of the current cost accounting
system and has targeted FY 2002 for implementation of a new cost accounting system. FCC
also contracted with the developer of FFS to explore the capabilities of this system.

FCC noted FFS is incapable of generating real time reports but can respond in real time to
specific inquiries. Currently, the data warehouse utility is updated nightly to include
previous day’s transaction information.         Using data warehouse capabilities, report
information is frequently tailored to meet the needs of various users.




                                            5
B. Establish and Maintain an Adequate Audit Trail Used in Preparing the Financial
   Statements

   FCC employs spreadsheet applications to create, document, report, and support its financial
   statements. These spreadsheets are linked to several different files. The files were not
   provided to the auditors at the same time as the spreadsheets and receipt was after several
   requests. Numerous numbers in the spreadsheets are keyed numbers and could not be traced
   back to the trial balance. When audit trails were available, most of them were a series of
   numbers in a comment box without an explanation or clear explanation of the various
   Standard General Ledger (SGL) accounts comprising the total. In addition, adjusting entries
   were prepared as post closing entries resulting in some discrepancies in the Statement of Net
   Cost, Statement of Changes in Net Position, and the trial balance. Also, some adjusting
   entries were not reflected in all affected financial statements until they were brought to
   FCC’s attention by the audit process.

   Although the use of spreadsheet applications appears to be common practice in the
   preparation of financial statements throughout the Federal government, adequate audit trails
   are necessary for review verification and ultimately audit. Lack of adequate audit trails
   increases the risk of errors. FCC’s process of preparing financial statements is manually
   intensive, time consuming, and lacks controls over the completeness of final data used to
   prepare the financial statements. The lack of control over the completeness of final data and
   inadequate audit trails was evidenced upon technical review of the financial statements.
   Additionally, entity personnel encountered the same difficulties when researching compiled
   numbers in response to audit inquires.

   Maintaining an adequate audit trail enhances the quality of the agency report, reduces the risk
   of errors through an organized systematic process, and allows a person to independently
   review the report data accumulation process. Additionally, adequate audit trails facilitate the
   financial statement compilation process and helps ensure completeness of data upon review
   by management.

   Management Comments:

   Management concurs. Fiscal year 2000 was the first year FCC prepared all required
   financial statements to audit. As part of our effort to identify early audit issues, interim
   statements were prepared; however, parts of the preparation process were not fully
   established at fiscal year-end. FCC is formalizing policies and procedures specifically
   related to financial reporting with planned implementation by the close of FY 2001. In
   addition, FCC reviewed the spreadsheets used to prepare FY 2000 financial statements and
   made revisions that include using the updated OMB Bulletin No. 97-01, as amended
   crosswalks to prepare the Statement of Financing and the Statement of Custodial Activity.




                                               6
C. Correct and Update Federal Financial System Setup and Posting Model Definitions
   (Modified Repeat Condition)

   Last year’s material weakness in the reporting process noted incorrect accounting entries
   associated with the transaction codes set up in FFS. FCC had not updated its FFS system
   setup and posting model definitions for many years. As SGL numbers, definitions, and
   standard accounting entries were updated and revised by the Department of the Treasury,
   Financial Management Service (FMS) over the years, and as FCC accounting activities
   became more complex, the FCC general ledger system set-up remained unchanged.

   In response to the weakness noted, FCC management reviewed and updated, as a start, the
   auction and credit reform related transaction codes and accounting entries during the current
   fiscal year. In preparing the annual financial statements, however, FCC identified additional
   FFS year-end closing process errors. FCC hired a contractor to provide guidance in
   implementing recommended changes to the FCC’s current configuration of the FFS tables
   and posting models. This system’s deficiencies impair the quality and the reliability of the
   financial management information. A summary of the contractor’s posting analysis findings
   are as follows:

   •   Incorrect debit/credit postings, inconsistencies between certain tables, and inaccurate
       closing accounts;
   •   Current value of funds rate in a table has not been updated;
   •   Report reference tables are out-of-date and will require significant changes in order for
       the FCC to facilitate Federal Agencies’ Centralized Trial Balance System (FACTS) I and
       II reporting and to generate SF-133, Report on Budget Execution, and FMS 2108,
       Year-End Closing Statement. FCC, however, has not used the external reporting
       capabilities of FFS;
   •   Out-dated SGL accounts, account titles, and cross-references, plus inaccurate natural
       balances;
   •   Several of the reports reference tables are no longer required; and
   •   The report reference tables are out-of-date related to referencing the SF-133 and
       FMS-2108 in several areas, including formatting, balance indicators, and account
       references.

   The contractor made detailed recommendations to enhance compliance with the SGL and
   facilitate use of external reporting capabilities of FFS.

   Management Comments:

   Management concurs. Prior to the FY 2000 closing, FCC was aware the FFS posting model
   contained incorrect definitions and had taken steps to contract with the FFS developer to
   identify and correct deficiencies. The contractor has since completed its evaluation and
   reviewed recommendations have been corrected in FFS. In conjunction with the FFS review,
   FCC also worked with the contractor to update the reporting tables needed to prepare the




                                               7
   SF-133 and FMS 2108 from FFS.         FCC continues to explore modifications to FFS to
   improve its financial reports.

D. Improve Analysis of Budgetary Accounts

   In preparing the Statement of Budgetary Resources and Statement of Financing, FCC
   encountered a great deal of difficulty due to erroneous balances accumulating in the
   accounting system over time that remained unadjusted. Although FCC explained that most
   of the variances we identified are due to beginning balances and the FFS closing process
   system deficiencies as explained above, the process of correction and procedural changes at
   year-end resulted in time consuming analysis and delays in preparing these statements.

   Management Comments:

   Management concurs. FCC addressed some of the budgetary issues by modifying current
   transaction codes and will continue to address improper budgetary balances as identified.
   The preparation of quarterly financial statements, FACTS II quarterly reporting, update of
   the SF-133 and 2108 reporting module, and monthly reconciliations in FY 2001 will help to
   eliminate issues created by prior period transactions.

E. Record Activities Timely and Prepare and Analyze Financial Activity (Modified Repeat
   Condition)

   Although FCC prepared its interim financial statements (except for the Statement of
   Financing) at June 30, 2000, the interim statements did not reflect current accounting
   activities for certain areas and there was no evidence of adequate management review.
   Interim financial statements are supposed to reflect the current financial condition and
   operations to allow management to analyze data and make decisions based on reported
   information. We noted that activities were not being recorded timely. For example,

   •   All interim regulatory fee sampled items (4 of 4) examined were not recorded in FFS for
       more than three months between the date of an authorized transaction and the entry into
       FFS;
   •   All interim fines and forfeitures receivable sampled items (4 of 4) reviewed were not
       recorded in FFS quarterly and the amount recorded was the total net balance of the
       activities; and
   •   Loan collection transaction activity was not recorded in FFS during the year but only
       applied to principal, interest, and other accounts at year-end.

   Not recording or delays in recording transactions make data on the interim financial
   statements unreliable and unusable for management decision purposes. Standards for
   Internal Control in the Federal Government, issued by the General Accounting Office
   (GAO) in November 1999, page 15 states that “Transactions should be promptly recorded to
   maintain their relevance and value to management in controlling operations and making
   decisions.”




                                              8
   Account analyses and reconciliations for accounts such as Loans Receivable; Interest
   Receivable; Accounts Payable; Accounts Receivable; and Property, Plant, and Equipment
   were not periodically performed during the entire fiscal year, and for most accounts, analyses
   were performed only once at fiscal year-end in preparation for financial statement reporting.
   As a result, significant journal vouchers prepared as part of a general account “clean-up” for
   the year-end were identified and posted. Regular financial statement preparation and
   analysis on a monthly or quarterly basis may eliminate the need for many of these
   adjustments during the year-end closing process and reduce the risk that material errors or
   irregularities in general ledger accounts remain undetected until after the end of the fiscal
   year.

   Management Comments:

   Management concurs. Beginning with second quarter FY 2001 balances, all principal
   statements and related footnotes are prepared on a quarterly basis. In addition, the Financial
   Operations Center has added six additional positions to improve the timeliness and
   completeness of the financial statement reconciliation effort and recommended reviews.
   FCC analyzed current reconciliations to identify monthly reconciliations not in place and
   established procedures for performing those reconciliations.

   FCC is improving the recordation of its loan receivable and interest receivable transactions
   via RAMIS. This system will receive a download from the bank and create FFS transactions
   within 24 hours of receipt of payment by the bank. This will enhance FCC’s ability to
   routinely reconcile balances and ensure current, accurate management information on the
   status of its portfolio. Until the system is fully implemented, FCC continues to rely on the
   loan model prepared by its contractor recognizing the associated delays inherent in the
   process.

   FCC agrees additional steps are needed to improve the completeness of interim statements.
   FY 2001 will show considerable progress towards this goal.

F. Formalize Financial Reporting Processes and Responsibilities in the Preparation of
   Financial Statements (Modified Repeat Condition)

   Preparation of the annual financial statements is the responsibility of the agency’s
   management. In carrying out this responsibility, each agency CFO should prepare a policy
   memorandum that guides fiscal management personnel in the preparation of the annual
   financial statements. FCC does not have a formalized financial reporting process nor does it
   have written documentation that provides an integrated view of the procedures, personnel,
   and systems employed in preparation of the financial statements. Moreover, FCC did not
   have a process for identification of transactions requiring elimination at the consolidated
   level. Although FCC management told us that formalized financial reporting policy and
   guidelines have been drafted, a copy has not been provided for review as part of the audit
   process. The existence of written procedures will provide structure to the preparation and
   review process.




                                               9
   The FMS, Financial Standards and Reporting Division issued the Accounting Policies and
   Procedures Guide for Federal Intragovernmental Transactions. Although the guide is for
   intragovernmental transactions, it provides guidance related to elimination within an entity in
   preparing consolidated financial statements. This guide provides government-wide policies
   and procedures to account for and reconcile transactions occurring within and between each
   entity. In page 18 of this guide, it states “Each agency should develop and implement
   procedures to provide for the preparation of financial reports in accordance with the policies
   and procedures in this guide. Amounts reported in the basic financial statements,
   supplemental information, and in the footnotes should be supported by schedules
   summarizing and documenting the combination of SGL accounts comprising each total on
   the financial statements.      Elimination entries should be supported with schedules
   summarizing the SGL accounts that are combined to total the amounts eliminated.” It also
   states in page 17 that “Consolidated financial statements present an agency’s financial
   information as a single entity. Elimination entries remove redundant activity and account
   balances within the consolidated statements. Each agency should have procedures for
   capturing this activity and balances within the agency to facilitate elimination process.
   Elimination entries should be performed at the consolidated level. Agencies should
   implement policies and procedures providing guidance within the agency for the
   identification of transactions requiring elimination at the consolidated level to facilitate
   financial statement preparation.”

   Management Comments:

   Management concurs. FCC established a separate Financial Statements and Policy Group
   within its Financial Operations Center to address both financial statement preparation and
   financial policies and procedures. The group was established in FY 2000. The group’s first
   priority is the completion of the policies and procedures manual begun in FY 2000.
   Currently, six of the eight chapters are in final draft status. Upon completion, the manual
   will be available to all employees via the FCC Intranet and an agency initiated training
   program.

G. Inadequate Discussion in Management’s Discussion and Analysis

   FCC’s MD&A did not adequately discuss the requirements of the Federal Accounting
   Standards Advisory Board’s (FASAB), Statement of Federal Financial Accounting Standards
   (SFFAS) No. 15, Management’s Discussion and Analysis pertaining to the future effects on
   the entity of existing, currently known demands, risks, uncertainties, events, conditions, and
   trends.

   MD&A should describe important existing, currently-known demands, conditions, risks,
   uncertainties, events, conditions and trends (current factors) – both favorable and unfavorable
   – that affect the amounts reported in the financial statements and supplementary information.
   The discussion of these current factors should go beyond a mere description of existing
   conditions to include a discussion of the possible future effect of those factors.




                                               10
   Management Comments:

   Management concurs. The FY 2000 financial statement compilation efforts focused on the
   principal statements and related footnotes. In addressing the MD&A section, management
   chose to focus its efforts on the establishment of performance measures where performance
   reporting was established or could be modified to meet reporting requirements. In FY 2001,
   FCC plans to incorporate a section to address future effects and consider other areas where
   improvements can be made.

H. Combination of Reportable Conditions May Materially Impact Financial Statements
   (Repeat Condition)

   Reportable conditions noted in this report are internal control weakness relating to
   reconciliation procedures which could collectively have a material impact on FCC’s ability to
   produce reliable financial statements in an efficient and timely manner and to comply with
   the intent of the CFO Act.

   Management Comments:

   While acknowledging conditions exist, management does not feel they impact the financial
   statements as evidenced by the audit opinion.

Recommendations:

We believe that FCC’s continued efforts to meet its commitment to excellence in financial
reporting have resulted in many positive changes in this year’s financial reporting process. We
still believe, however, that strong oversight from key financial and operational offices such as the
CFO, Information Technology Center (ITC), and Administrative Office (AO), is needed to
ensure that financial statements are prepared accurately and timely. We recommend the
following:

   1.    Conduct an overall assessment of the financial management systems in use and the
         degree of integration needed. Prepare a plan outlining what the steps are (i.e.,
         processes, data stewardship, management information, systems architecture, internal
         control), the timelines for completion, and the estimated cost to implement and
         maintain an integrated system.

         Management Comments:

         Management concurs. FCC reviewed several of its financial management systems and
         are at various stages of implementation. RAMIS will integrate with FFS for loans,
         fines and forfeitures, and eventually all receivables of the FCC. In addition, during FY
         2001 FCC will review potential cost accounting systems which also will integrate with
         FFS.




                                                11
2.   Train FFS users to use the application software currently employed to ensure users can
     generate common widely-used reports (except for special reports) that are needed for
     account analysis without having to request the report be generated by another user (i.e.,
     obtain the information needed efficiently and effectively through electronic means).

     Management Comments:

     Management concurs. FCC requested additional licenses to FFS data warehouse in
     order to provide broader access to report and query tools. Additional training classes
     for users will be conducted in FY 2001.

3.   Establish and maintain an adequate audit trail used in preparing the financial
     statements. Modify as deemed appropriate and apply commonly used SGL crosswalks
     in preparing the principal financial statements.

     Management Comments:

     Management concurs. The crosswalks for FY 2001 were updated to incorporate the FY
     2001 OMB crosswalks. In addition, financial reporting policies and procedures will be
     completed and implemented prior to FY 2001 close.

4.   Identify and document in the accounting policies and procedures the transactions
     requiring elimination at the consolidated level and provide pro-forma eliminating
     entries.

     Management Comments:

     Management concurs. A section will be incorporated into the financial reporting
     policies and procedures that addresses elimination entries.

5.   For intragovernmental transactions, accumulate the detail and summary information for
     each activity by trading partner by employing the following:

     a) Incorporate the trading partner code as part of the account coding classification.
     b) Incorporate the trading partner code in the customer/vendor identification code in
        accounts receivable/accounts payable systems.
     c) Incorporate the trading partner code into data captured when transactions are
        entered into accounting systems.

     Management Comment:

     Management concurs and noted elements of this information is captured within FFS.




                                           12
6.    Update and correct FFS to comply with the transaction posting models consistent with
      SGL guidance and policies when recording and classifying transactions. Ensure that
      changes made to FFS are tested and accepted before they go into live production.

      Management Comments:

      Management concurs. FCC hired the developer of FFS to perform a review of the
      posting model and provide recommendations. Recommendations were received and
      many have been enacted in the system. All changes are tested and accepted prior to
      implementation.

7.    Review all frequently used transaction types and transaction codes to ensure that the
      accounting entries (budgetary and proprietary) are correct.

      Management Comments:

      Management concurs and stated this type of review is now a part of the ongoing
      reconciliation process.

8.    Record transactions on a timely basis. Proper cut-off should be implemented when
      preparing interim financial statements.

      Management Comments:

      Management concurs. As the quarterly financial preparation becomes more familiar,
      management believes cut-off procedures also will become better defined. As RAMIS
      and the new cost system are implemented, recordation times will improve.

9.    Update and circulate to appropriate employees the Financial Coding Handbook. Ensure
      that appropriate employees receive adequate training.

      Management Comments:

      Management concurs and noted FCC currently distributes to all appropriate staff an
      updated version of the coding handbook at the beginning of each fiscal year.
      Additional training classes are being held in FY 2001.

10.   Ensure compliance with the standards required in preparing MD&A as outlined in
      SFFAS 15. Specifically, discussions related to the future effects on the entity of
      existing, currently known demands, risks, uncertainties, events, conditions and trends
      should be included or expanded.




                                           13
      Management Comments:

      Management concurs. FCC will review the MD&A standards again as part of the FY
      2001 financial preparation procedures.

11.   Finalize written policies and procedures on the financial reporting processes. The
      written policies should provide sufficient guidance for the year-end closing of the
      general ledger as well as interim and annual financial statements’ preparation and
      analysis. The procedures should at least address the following issues:

      a) Prepare and review a complete set of financial statements in accordance with
         generally accepted accounting principles at least quarterly.

      b) Establish milestones by setting dates for critical phases such as general ledger
         closing, preparation of statements, notes, and accountability report, quality control
         review, etc.

      c) Collect common closing and adjusting entries in a formal listing, which is used
         when the general ledger is closed and financial statements are prepared.

      d) Identify the individuals who will be involved in the financial reporting process and
         establishing clearly defined roles and responsibilities for the staff involved in the
         preparation of interim and year-end financial statements.

      e) Prepare and retain all journal entries in sufficient detail with supporting
         documentation, and post all journal vouchers in the general ledger.

      f) Retain all documentation supporting the request, purpose and approval of all object
         class designations. Also, a listing of all current object codes including a statement
         of the purpose of each code should be maintained and provided to all personnel
         with the responsibility to initiate, prepare, and approve accounting transactions to
         ensure that object codes are used appropriately.

      g) Require supervisory review for all entries posted to the general ledger and
         consolidating financial statements. A supervisor should review revisions to
         previously approved entries and revised financial statements. All entries and
         review should be evidenced in writing.

      h) Prepare and analyze formal monthly reconciliations of subsidiary and summary
         account balances. FCC should also consider a “formal closing” of all accounts at an
         interim date(s), which will reduce the level of accounting activity and analysis
         required at year-end. This “formal closing” entails ensuring that all transactions are
         recorded in the proper period through the month-end. With complete and timely
         transaction recording, analysis of all major accounts can be performed effectively.




                                            14
           i) Utilize established tools (i.e., checklists, implementation guides, etc.) available for
              assistance in financial statement compilation and review.

           j) Prepare and retain a comprehensive set of files, working papers and other
              documentation in support of all information included in the financial statements.
              This documentation should be more self-explanatory than what has been retained in
              the past. The documentation should be at a supporting detail level where an
              accountant/auditor can utilize provided documentation for substantiation of reported
              data without extensive explanation or re-creation by the original preparer.

           Management Comments:

           Management concurs noting policies and procedures for financial operations, which are
           being coordinated by a certified public accounting firm, will be implemented in FY
           2001.


II.      Cost Accounting System (Repeat Condition)

FCC’s cost accounting system has not been a fundamental part of the financial management
system. Although cost reports are generated and distributed to various FCC bureaus and offices,
the reliability of these reports is questionable due to the lack of review of the cost allocation
methodology and formulas, and the lack of review of proper application of the cost accounting
activity codes. The cost accounting system is so inadequate that FCC does not use its reports in
preparing its financial statements or analyzing program costs. In addition, we do not believe that
the employees from bureaus and offices outside of FO, who are responsible for financial-related
activities fully understand the importance of properly coding the obligations/expenditures.

In order to prepare the Statement of Net Cost by program costs in fiscal year 2000, FCC
downloaded program costs from its FFS into a spreadsheet application. Using the spreadsheets,
the indirect costs were allocated to each of FCC’s five programs proportionately to total direct
costs. Although we believe that specific earned revenue should be matched against specific
program costs in accordance with the program description in its budget submission to Congress,
FCC also allocated earned revenue on the same basis used to allocate costs.

Additionally, FCC identified five responsibility segments for cost allocation purposes but it did
not determine related outputs for its responsibility segments as part of its cost methodology.
SFFAS No. 4, Managerial Cost Accounting Standards, states that management of each reporting
entity should define and establish responsibility segments and managerial cost accounting should
be performed to measure and report the costs of each segment’s outputs. Reporting entities
should report the full costs of outputs in general purpose financial reports. Specifically, for each
segment, managerial cost accounting should:

•     Define and accumulate outputs, and if feasible, quantify each type of output in units
•     Accumulate costs and quantitative units of resources consumed in producing the outputs, and




                                                 15
•   Assign costs to outputs, and calculate the cost per unit of each type of output.

SFFAS No. 4 states that cost accounting information must rely on consistent and uniform
terminology for concepts, practices and techniques to be useful. Reliable information on the
costs of the federal programs and activities is crucial for effective management of government
operations. In managing Federal government programs, cost information is essential in (1)
budgeting and cost control, (2) performance measurement, (3) determining reimbursement and
setting fees and prices, (4) program evaluations, and (5) making economic choice decisions.

Although implementation of a cost accounting “system” is not necessarily a prerequisite for
compliance with SFFAS No. 4, the agency’s cost system or cost finding techniques should meet
the required minimum level of cost accounting necessary to accomplish the many objectives
associated with planning, decision-making, and reporting. This minimum level, in accordance
with SFFAS 4 includes:

•   Collecting cost information by responsibility segments,
•   Measuring the full cost of outputs,
•   Developing appropriate costing methodology,
•   Providing information for performance measurement,
•   Instituting a reporting frequency that is timely and on a regular basis,
•   Integrating both managerial cost accounting and general financial accounting utilizing the
    SGL,
•   Providing the appropriate precision of information (i.e., reliable and useful),
•   Accommodating management’s special cost information needs that may arise due to unusual
    or special situations or circumstances, and
•   Documenting all managerial cost accounting activity, processes, and procedures (should
    outline applicable activities, provide instructions for procedures and practices followed, list
    the cost accounts and subsidiary accounts related to the SGL, and contain examples of forms
    and other documents used).

Management Comments:

Management concurs. The current cost accounting system was designed before FCC faced
meeting the requirements of SFFAS No. 4 and was designed to meet budgetary requirements and
accounting requirements of the original regulatory fee and auctions program, not cost accounting
requirements of the CFO Act. Realizing the need for a more comprehensive and integrated cost
accounting system, FCC hired an outside contractor to develop the functional requirements for a
new cost accounting system. Until a new system is implemented, FCC will rely on spreadsheet
allocations to perform its cost allocation. Where possible, FCC will adjust its current
methodology and review operations to identify associated outputs.

Recommendations:

    12.   Review the propriety of the costing methodology and the matching of earned revenue
          against costs (costing methodologies).



                                                 16
       13.    Determine outputs for all responsibility segments as required.

       14.    Document the costing methodologies and process in a formal policy and procedures
              manual or handbook. Management should determine which cost objects to define, the
              costing methodology to use, the type of costs to include for each reporting or decision
              making purpose (i.e., full cost), and other items of a similar nature.

              Management Comments:

              Management concurs with Recommendations 12, 13 and 14. As part of its
              development of the Financial Reporting Policies and Procedures, FCC will review the
              current net cost methodology. The review will address responsibility segment outputs
              as well as earned revenue matching.

       15.    Evaluate the adequacy of the cost accounting system or other cost-finding techniques
              (cost systems) in accumulating and allocating costs, matching revenue, accounting, and
              generating financial information. The cost systems should meet the minimum
              requirements outlined in the Joint Financial Management Improvement Program
              (JFMIP) System Requirements for Managerial Cost Accounting.

              Management Comments:

              Management concurs. In the short-term, FCC is reviewing its net cost methodology to
              identify improvements. As a long-term solution, FCC hired an outside contractor to
              assist with the development of functional requirements for a new cost accounting
              system.

       16.    Ensure that appropriate employees of bureaus and offices fully understand the
              importance of properly classifying costs and are trained on the proper application of the
              activity codes.

              Management Comments:

              Management concurs. The Financial System Operations Group annually updates and
              distributes to all appropriate staff a coding handbook identifying the proper codes for
              the fiscal year.


III.         Universal Service Fund and Telecommunication Relay Service Fund Financial
             Reporting (Modified Repeat Condition)

The Universal Service Fund (USF), including the Telecommunication Relay Service Fund (TRS)
is an additional reporting component FCC included in its consolidated financial statements. FCC
management concluded in August 1999 that the USF was a reporting entity to be consolidated
with FCC. This conclusion was based on criterion from the Statement of Federal Financial




                                                    17
Accounting Concepts (SFFAC) No. 2, Entity and Display that USF appears in FCC’s Federal
budget section titled, Federal Programs by Agency and Account. FCC also included the TRS
Fund in its fiscal year 2000 financial statements. The USF is administered by Universal Service
Administrative Company (USAC), a not for profit corporation, which through a contract with the
National Exchange Carrier Association (NECA), maintains the USF accounting records and
sends reports to the Department of the Treasury. The TRS Fund is managed by the NECA,
which reports the program’s financial information directly to FCC.

FCC is in an on-going process of reviewing USF (and TRS) activities. At this time, FCC cannot
assure that USF or TRS Fund activities were in compliance with all laws and regulations, as the
issue of which laws and regulations were applicable to the USF and TRS Fund was still
unresolved at the end of the audit. FCC management should provide direction regarding the laws
and regulations with which USF and TRS Fund should comply as well as guidance regarding the
form and content of information needed for financial statement reporting purposes (see our
Report on Compliance with Laws and Regulations, CFO Act.)

In addition, FCC did not provide adequate direction to USAC or NECA for the financial
reporting of USF and TRS Fund activities. The FCC financial statements were prepared by
consolidating information provided by USAC and NECA into the FCC statements. FCC
included this financial data into its financial statements with limited or no review of the
reasonableness, accuracy, and propriety of these amounts. FCC had no employee assigned to
review the processes and procedures used to gather and report the financial information
submitted to FCC. The USAC officials responsible for providing this USF information were
unsure, however, as to what information was required and whether their systems could provide
that information. For example, USAC originally provided information for the Statement of
Budgetary Resources and the Statement of Financing without assurance that the input was
required, and since the USAC accounting system did not include budgetary information, the
financial information provided was less reliable. In addition, the figures reported for Accounts
Payable, Payable to Providers, and Property, Plant and Equipment had to be reclassified because
of differences between FCC and USAC. These reclassifications took place after a series of draft
financial statements had been submitted for audit contributing to delays in completing the audit.

FCC management is responsible for obtaining reasonable assurance on the completeness and the
reliability of the USF and TRS Fund financial reporting and its compliance with laws and
regulations before information is consolidated into the FCC statements. This assurance was not
obtained.

Management Comments:

FCC and USAC expended considerable time and effort in assessing the applicability of Federal
laws and regulations to the USF during FY 2000. The Office of General Counsel (OGC)
provided analysis and USAC took required steps to comply with the applicable federal laws and
regulations.




                                               18
USAC management remains confident that USAC systems can provide whatever information is
required. USAC’s reported information was appropriately classified for the USF as a stand-
alone entity. As part of the consolidation with FCC, reclassifications were expected and made.
FCC and USAC will institute a formal financial reporting compilation process to ensure this
process does not cause delay in subsequent years. USAC provided assurance to FCC on the
completeness and reliability of the financial information provided as well as assurance USF is in
compliance with applicable laws and regulations.

Recommendations:

FCC management is aware of the issue of oversight of USF and TRS Fund financial reporting.
The following actions should be implemented early in fiscal year 2001 in order to avoid
repeating the problems:

   17.   Document clearly the legal, financial, and operational boundaries of FCC, USF, TRS,
         USAC, and NECA. With the assistance of OGC, USAC, and NECA, FCC
         management needs to formally define in writing each financial management role and
         responsibility to avoid confusion and misunderstanding.

         Management Comments:

         Management concurs noting the relationship between FCC, USF, and USAC is already
         defined in the extensive regulations and Commission orders governing the operations of
         USAC and the USF. USAC or NECA will continue to seek guidance and clarification
         as necessary from the Commission.

   18.   Obtain from the OGC a list of laws and regulations applicable to the financial activities
         of USF and TRS Fund and communicate this information to officials of USAC and
         NECA. Ensure that USF and TRS Fund financial activities are in compliance with
         these laws and regulations by reviewing these activities periodically.

         Management Comments:

         FCC and USAC will continue to review compliance with applicable laws and
         regulations on at least an annual basis.

   19.   Assign one or more staff from FO to obtain an in-depth understanding of USF and TRS
         Fund operations, including financial operations, and who will work in coordination
         with Common Carrier Bureau (CCB) to comprehensively review financial and
         operational information provided by USAC and NECA.

         Management Comments:

         Management concurs. Throughout FY 2000, FCC and USAC established a stronger
         working relationship as it relates to compilation of the financial statements and




                                               19
             subsequent audit. To ensure the relationship fully develops, FCC assigned a member of
             the new Financial Statements and Policy Group to gain an in-depth understanding as
             recommended by the auditors. This staff member will work closely with USAC to
             provide guidance in the generation of quarterly and year-end financial statements and
             supporting documentation.

      20.    Review monthly financial reports provided by USAC and NECA. Request additional
             information from USAC and NECA as necessary to obtain reasonable assurance that
             the financial data is reliable.

             Management Comments:

             FCC started preparing quarterly statements during FY 2001 and has already contacted
             both USAC and NECA concerning the USF and TRS information needed for the
             statements.

      21.    Develop a formal financial reporting compilation process that adequately addresses
             issues arising from its consolidating reporting components.

             Management Comments:

             Management concurs stating FCC is documenting its financial reporting process as part
             of a policies and procedures manual that will be implemented during FY 2001.


IV.         Loans Receivable and Related Accounts (Modified Repeat Condition)

FCC uses installment payment mechanisms to finance some of the spectrum sales to successful
and qualifying bidders. These direct loans are accounted for in accordance with the Federal
Credit Reform Act (FCRA) which requires that the cost of direct loans be estimated at present
value for the budget. Loans servicing and collecting responsibilities were outsourced to FMS,
until mid-1999 when FCC discontinued this arrangement and brought all aspects of the loan
servicing in-house. Although FCC intended to transfer the loan servicing and collection
responsibilities to a private contractor, it did not occur in fiscal year 2000.

In 1999, when the loan servicing was transferred in-house, FCC discontinued using the loan
servicing system as its loan subsidiary system. However, the incumbent system continued to be
used for other processes such as billings, collections, installment payment amounts and dates
received. In 1999, FCC started using spreadsheet applications (loan models) developed by a
public accounting firm (consultants) hired by FCC to verify that loan balances were valid,
accurate, and auditable. These loan models were instituted as the loan subsidiary system. FCC
planned to replace these loan models with RAMIS by September 30, 2000; however, this plan
did not materialize according to the schedule. RAMIS is modified off-the-shelf software that
will handle accounting for all collections and loan management within FCC and interfaces with
other FCC financial systems. Consequently, FCC continued to use the loan models as its loan




                                                 20
subsidiary system with the assistance of the consultants in maintaining the loan models during
fiscal year 2000.

A. FCC Current Loan Subsidiary Ledger System Is Inadequate (Modified Repeat
   Condition)

   FCC’s loan subsidiary ledger system is comprised of the loan models, which are elaborate
   and complex spreadsheets with configuration settings and information for original and
   adjusted loan principal, daily earned interest, suspension interest, payment data, and
   application of payments, among other items. These loan models (1) document the loan terms
   as determined by FCC’s rules and official loan documents; (2) recalculate loan balances for
   financial statement reporting purposes; and, (3) serve as the cash flow model data for the loan
   subsidy model calculator.

   Our review of the loan models showed that improvements were made to enhance the
   usefulness of the spreadsheets. Additional information such as tracking of changes to the
   database and raw collection data were added. However, deficiencies noted in prior year
   remained uncorrected. These are as follows:

   •   Configuration settings are still easily changed manually. Alteration of relevant
       configuration settings used in loan balance calculation could produce significantly
       different results. Once one user alters a setting, it would be difficult for another user to
       know what changes were made unless the user is notified.
   •   The loan models and the spreadsheet process lacked documented and approved policies
       and procedures for its use and review of key input and output data.
   •   The loan models’ formulas are not protected to prevent inadvertent or unintentional
       modifications nor is there assurance that enter/modify access to the spreadsheet process is
       limited to authorized staff. We believe FCC should take ownership of these critical loan
       systems and its staff should be trained to be able to independently use the loan models
       and to review the reports generated by the model to reduce reliance on the accountants.
   •   Continued heavy reliance is still placed on the consultants who are responsible for the
       complete process (i.e., from data entry/download, to adjustments, to review, and to report
       generation).
   •   FCC still does not physically maintain an official and back-up soft copy of the loan
       models, with updated information at least monthly, until a new system is implemented.

   During the fiscal year, a processing file was incorrectly uploaded into the spreadsheet
   application subsidiary system requiring subsequent review and additional resources to correct
   the effects of the upload. A condition as such should have been detected by FCC’s oversight
   of its consultants and/or its internal control of loan processing activities.

   Throughout the fiscal year, FCC has been reviewing the loans and related account balances.
   Loan review, as defined by FCC, is a process performed by the consultants to correct data in
   the loan models as a result of discovery, review, and additional information obtained. Some
   of these reviews accounted for:




                                               21
•   Unallowed suspension interest – interest was suspended for certain debtors that were
    ineligible for the suspension of interest. FCC has to recalculate the interest earned before
    the loans went in default and adjust the interest (suspension vs. regular interest,
    overstated vs. understated amounts) as appropriate.
•   Incorrect billings in the amounts and due date which caused debtors to pay less and/or
    later than they were scheduled incurring non-delinquent late fees.
•   Policy decisions finalized in fiscal year 2000 that affected the loan and related account
    balances.

As a result of these reviews, interest receivable of at least $180 million was adjusted
downward in fiscal year 2000.

Our audit disclosed that loan models have not been fully updated to reflect changes from the
loan review made during the year, resulting in inconsistencies of loan data among the loan
model, subledger, and the cash flow model used in the subsidy calculation. To illustrate, a
loan on the loan model reflects a default date of 10/30/98, which is the default date as if the
loan was eligible for suspension interest after non-payment of the first payment due date of
7/31/98. These dates were incorrect since the loan was later identified as ineligible for
suspension of interest. The subledger and the cash flow model shows the correct default date
of 8/28/97, after the non-payment of the first payment due date of 2/28/97. FCC explained
these inconsistencies were due to inherent limitations with using the spreadsheet application
as the loan subsidiary system.

Also, the limitations of the spreadsheet application loan models required FCC to create
separate subsidiary ledgers to account for the interest receivable earned but not yet billed.
Interest receivable earned includes interest receivable on defaulted loans after the last billing
date but before the next billing date. The loan models were not developed to calculate the
interest earned as of a cut-off date if it differed from the billing date.

Generally, the reviewing process was manually intensive requiring FCC to apply collections
manually to correct situations (i.e., recalculating correct interest and creating/setting a
temporary credit to adjust late fees charged mistakenly in the loan models). The risk of error
in this temporary solution (loan models) is higher as a result of the aforementioned
conditions.

Management Comments:

Management concurs. As stated in FY 1999, FCC hired a public accounting firm to ensure
installment loan balances were valid, accurate, and auditable. Technical security concerns
did not allow FCC to implement RAMIS in FY 2000 as planned. To meet the obligation to
provide sound, reportable, and auditable financial data, FCC extended a contractual
engagement with the same firm to continue to provide information until such time as FCC
was able to bring RAMIS on-line. Currently, FCC operates both systems and plans to
migrate fully to RAMIS in time for FY 2001 close. FCC intends to transfer the loan portfolio




                                             22
  to an outside loan servicer who is required to provide timely financial data to FCC and ensure
  proper billing, collection, and reporting of loans.

  The $180 million interest adjustment was a combination of correcting interest reported as
  revenue in FY 1999 to FY 2000 and an accrual for FY 2000. Since FCC did not prepare a
  Statement of Net Cost for FY 1999, only a balance sheet adjustment was provided. The
  adjustment had a zero net effect to the FY 2000 financial statements.

B. Reconcile General Ledger to the Subsidiary Ledger Balances (Modified Repeat
   Condition)

  A major objective of internal control is to ensure the integrity of the underlying accounting
  data supporting the financial statements. An important control in this regard is the
  reconciliation of FCC accounting records. An adequate reconciliation provides the assurance
  that processed transactions are properly and timely recorded in the accounting records and
  financial statements, which then allows management the ability to analyze its financial
  condition and results of operations on a routine basis.

  FCC does not reconcile its loans and related account balances in the general ledger to the
  subsidiary records. At year-end, entries are made to recognize the effects of the subsidiary
  records in the general ledger accounts. To record and track credit reform collections received
  throughout the year in fiscal year 2000, FCC established an SGL Account 2402, Unapplied
  Collections. Balances in SGL 2402 were then reallocated at year-end to principal, interest,
  late fees, etc. based on the application of payments made in the loan models. At September
  30, 2000, FCC had approximately $12 million still remaining in this account.

  Management Comments:

  Management concurs. Loan collection activity is currently processed from a lockbox at a
  Federally insured bank and downloaded to FCC nightly. From this download, two identical
  files are produced. One file updates the cash balance in the Financing account and the
  duplicate file is fed into a subsidiary system that updates individual loan balances.
  Segregated reconciled balances are entered into FFS to decrease the unapplied collections
  and update other categories. Finalization of this process and reconciled balances were not
  completed for FY 2000 until year-end.

  The $12 million outstanding in unapplied collections represents identified amounts that could
  not be applied at year-end due to insufficient payor supplied information. This is less than
  3% of $650 million collected in FY 2000 and remains a consistent payment application issue
  for this dynamic portfolio. As the portfolio is transferred to RAMIS and the loan servicer,
  additional steps will be implemented to lessen the unapplied balance.




                                             23
C. Implement Direct Loan System to Account for All Events in a Loan Cycle (Repeat
   Condition)

   FCC’s plan of implementing RAMIS did not materialize in fiscal year 2000 as explained
   above. During the fiscal year, FCC continued to rely on various systems and spreadsheet
   applications to account and report direct loan transactions. As a result, there is a higher risk
   of human error resulting in inconsistent and/or disparate data in various systems and
   programs. Direct Loan System Requirements issued by JFMIP states that a direct loan
   system must interact with the core financial system to perform fund control checks, initiate or
   record payments, record the results of other direct loan-related financial transactions, and
   acknowledge receipt of financial information exchange. It must be able to perform automatic
   system balancing to ensure that direct loan partners are able to agree on transaction number
   and dollar values passed, processed and rejected. This automated balancing includes
   cumulative subsidiary account balancing to the general ledger. It should be able to support
   managerial accounting. These internal management information requirements are those
   required to establish credit management and financial reporting systems that are in
   compliance with standards provided in OMB Circulars No. A-34, Instructions on Budget
   Execution; A-123, Management Accountability and Control; A-127, Financial Management
   Systems; and A-129, Managing Federal Credit Programs. See Auditor’s Report on
   Compliance with Laws and Regulations.

   Management Comments:

   Management concurs. FCC recognized RAMIS would not be implemented by the close of
   FY 2000 and contracted with a major public accounting firm to provide loan accounting
   activities until RAMIS was implemented. During FY 2001 FCC’s loan portfolio will transfer
   to a loan servicing financial institution; however, FCC will maintain both RAMIS and the
   public accounting firm through September 30, 2001 as backup.

D. Loan Documentation Needs Improvement (Repeat Condition)

   In managing the Federal government’s receivables, OMB Circular No. A-129, Managing
   Federal Credit Programs identified documentation as one of the loan servicing requirements.
   It states that approved loan files (or other systems of records) shall contain adequate and
   up-to-date information reflecting terms and conditions of the loan, payment history,
   including occurrences of delinquencies and defaults, and any subsequent loan actions which
   result in payment deferrals, refinancing, or rescheduling.          Accurate and complete
   documentation is critical to providing proper servicing to the debtor and pursuing collection
   of delinquent debt.

   Our review disclosed that FCC’s loan file documentation is still inconsistent and incomplete.
   For instance, 29 of 45 (64%) loan files reviewed do not have a series of the FCC Form 175,
   “Application to Participate in an FCC Auction”; one (2%) loan file contains an installment
   payment plan note without signature; three (7%) loan files do not have Installment Payment




                                               24
Plan notes; one (2%) file under an assignee name was not updated upon an exchange of the
Security Agreement. Also, FCC discontinued updating payment history on that loan file.

The issue of loan file documentation needing improvement needs to be addressed as FCC
changes its environment regarding loan business practices. The criticality of the issue
increases as FCC progresses to outsourcing it loan servicing business practices and migrates
to the new loan subsidiary system aforementioned.

Management Comments:

Management concurs. Over the past two years, FCC has been involved in ongoing efforts to
fully document and update loan histories to ensure that loan balances are fully supported.
Where information gaps are identified, FCC continues efforts to ensure completeness.

Recommendations:

Although FCC management has implemented controls since it took over the loan servicing
operations, controls need to be fully implemented for effective and efficient loan
management. Also, while expert consultants were hired to assist in the credit reform
program, the accuracy, reliability, and reasonableness of source data is still FCC
management’s responsibility.

We recommend the following:

22.   While RAMIS is not operational and FCC uses the loan models, it should:

      a) Ensure that access to the loan models is limited to authorized staff.

      b) Train FCC employees to have adequate knowledge in using and reviewing the loan
         models. If consultants are responsible for updating and analyzing the loan models,
         FCC employees should review, at least monthly, the configuration settings and
         formulas of the loan models to ensure they were not changed. In addition, FCC
         employees should review the outputs of the spreadsheets.

      c) Develop written policies and procedures for the use and review of the loan models
         and related output.

      d) Hardcode or lock cells with formulas in the loan models to prevent inadvertent or
         unintentional changes.

      Management Comments:

      Management concurs with Recommendations 22a, 22b, 22c, and 22d noting FCC
      initiated steps to ensure that agency personnel have copies of contractor’s data models
      and reviews and comparisons are performed routinely.




                                            25
      e) Physically obtain and keep an official copy of the loan models updated at least
         monthly since these are FCC’s subsidiary records and are maintained by consultants
         outside of FCC financial management systems. A back-up copy should also be
         maintained.

      Management Comments:

      Management concurs noting FCC receives and maintains two backup copies of the
      models quarterly. As needed, FCC requests and receives monthly updates.

23.   Ensure that the loan subsidiary system being developed and tested (RAMIS) is capable
      of interfacing with other financial management systems.

      Management Comments:

      Management concurs noting RAMIS testing is ongoing for all phases of
      implementation to ensure proper integration.

24.   Ensure that RAMIS meets all the applicable requirements for a direct loan system in the
      Federal Financial Management System Requirements (FFMSR) issued by JFMIP. One
      of these requirements is to ensure that the direct loan system can support the following
      functions:

      •   Loan extension
      •   Account servicing
      •   Department of the Treasury cross-servicing
      •   Portfolio management
      •   Delinquent debt collection
      •   Other reporting requirements

      Management Comments:

      Management concurs and states RAMIS is in compliance with all FFMSR and JFMIP
      requirements. Management added the new loan servicer is also contractually bound to
      meet these requirements.

25.   Record loan activities promptly to maintain their relevance and value to management in
      controlling operations and making decisions.

      Management Comments:

      Management concurs noting, as aforementioned, it expects complete SGL compliance
      at the transaction level within 24 hours of receipt of funds.

26.   Reconcile general ledger balances to the subsidiary records on a monthly basis.




                                            26
     27.    Ensure all loan files are kept up-to-date, have consistent information, and contain
            relevant loan and other documents necessary to conform to private sector standards.

     28.    Establish effective controls for transfer of loan data files to the new loan system, and
            ultimately, to a loan servicer , if employed.

            Management Comments:

            Management concurs with Recommendations 26, 27, and 28 stating controls are in
            place to ensure proper transfer and FCC will have an independent, public accounting
            firm verify the balance.


V.         Information Technology

Our review and testing of controls related to Information Technology identified the following
conditions (see our Report on Compliance with Laws and Regulations, Federal Financial
Management Improvement Act):

A. FCC Is Not In Compliance with OMB Circular No. A-130 Requirement for a
   Comprehensive Security Plan (Modified Repeat Condition)

     Some of the key components of an entity-wide security program are the performance of risk
     assessments and the development of a comprehensive security plan. Each organization needs
     a set of management procedures for identifying and assessing risks, and deciding what
     policies and controls are needed to achieve effective security controls.

     OMB Circular No. A-130, Management of Federal Information Resources, Appendix III,
     “Security of Federal Automated Information Resources,” as revised in February 1996,
     established a minimum set of controls for federal agencies, including risk assessments,
     assigning responsibility for security, security planning, periodic review of security controls,
     and management authorization of systems to process information.

     Deficiencies in security controls that, in our view, significantly impact FCC’s ability to
     protect its sensitive or critical resources include:

     •     FCC lacks a comprehensive and integrated security management structure. In such an
           environment, responsibilities could be unclear leading to the possibility of applying
           security controls inconsistently throughout the agency. As a result, certain vulnerabilities
           may be overlooked. In addition, monitoring the effectiveness of procedures for security
           controls throughout the agency will be ineffective.
     •     FCC has not performed risk assessments for its major application systems and its
           mission-critical general support system. FCC did perform vulnerability assessments for
           several of its major applications and general support systems in fiscal year 2000, but has




                                                   27
       not completed risk assessments as prescribed by OMB Circular No. A-123, Management
       Accountability and Control.
   •   FCC does not have security plans for any of its major application systems and mission-
       critical general support systems. FCC plans to complete a template for its security plans
       by fiscal year 2001.
   •   There is no periodic review of security controls over FCC’s systems. In addition, FCC
       has not performed any formal certification and accreditation of its systems. FCC plans to
       conduct initial security reviews over a two-year period ending in fiscal year 2002. FCC
       plans to make these reviews part of its internal control review process.

   Management Comments:

   Management concurs. FCC developed a comprehensive and integrated security management
   structure. The basis for this structure was the creation and distribution of FCC Instruction
   1479.1, FCC Computer Security Program Directive. The directive provides the framework
   for the Computer Security Program and assigns responsibilities for managing and using FCC
   computer resources and provides a framework to ensure an adequate level of protection to
   Commission computer-based systems.

   FCC performed vulnerability assessments of several of the Commission’s major applications
   during FYs 2000 and 2001 and contracted for the services required to complete necessary
   reviews. Also, FCC completed a risk assessment of its network in November 2000. In
   addition, the process for conducting such reviews was modified to ensure the inclusion of
   OMB Circular No. A-123, Management Accountability and Control issues. The process
   used by the assessment team includes the framework described in the National Information
   Assurance Certification and Accreditation Process (NIACAP).

   FCC contracted services required to develop security plans for both its general support
   systems and major applications, as required by OMB Circular No. A-130, Management of
   Federal Information Resources, Appendix III. FCC’s general support system security plan
   has been developed and is being reviewed by management. Several major application
   security plans are being developed and reviewed at this time and all remaining plans have
   been scheduled for development in FYs 2001 or 2002.

B. FCC Needs Improved Controls to Protect Its Information (Modified Repeat Condition)

   For a computerized-dependent organization like FCC, achieving an adequate level of
   information protection is highly dependent upon maintaining consistently effective access
   controls and system software controls. Access controls should limit and monitor access to
   computer resources (i.e., data files, application programs, and computer-related facilities and
   equipment) to the extent necessary to provide reasonable assurance that these resources are
   protected against waste, loss, unauthorized modification, disclosure, or misappropriation.
   Such controls include logical/technical controls, for example, security software programs
   designed to prevent or detect unauthorized access to sensitive data. Similarly, system
   software controls should limit and monitor access to powerful programs and sensitive files




                                               28
   that control computer processing and secure the application and data supported by the
   system.

   Our limited internal controls testing identified information protection-related weaknesses in
   FCC’s information systems environment. Impacted areas included FCC’s distributed
   computer system as well as its mainframe computers. These vulnerabilities expose FCC and
   its computer systems to risks of external and internal intrusion, subject sensitive FCC
   information related to its major applications to potential unauthorized access, modification,
   and/or disclosure, and increase the risks of fraud, waste and abuse.

   Rights and privileges granted to users of the Collections System are undefined. The system
   administrator is not aware of what access rights are granted to each level or class of access.
   The system has no password history file, and does not conform to Federal Information
   Processing Standards (FIPS) Publication 112 “Password Usage.” Incompatible duties are not
   adequately segregated, with application programmers having access to production data sets
   and performing functions in the production environment. Audit logging has also not been
   activated and there is no monitoring of access activities.

   FCC has not assessed the risk of not protecting sensitive and mission critical files. No
   written criteria have been established to guide security personnel in monitoring and
   restricting access to production data and program files. FCC does not have an entity-wide
   security program in place; it does not sufficiently address mainframe components of its
   computing environment.

   Management Comments:

   Management concurs. FCC continually works to improve the posture and effectiveness of
   the computer security program. In addition, the Computer Security Officer is working with
   application custodians and application level security representatives to ensure required and
   adequate levels of protection are provided and required tasks addressed. The most recent
   initiatives include implementing system risk assessments, certification and accreditation,
   security test and evaluations, and the preparation of system level security plans. While the
   referenced mainframe computer is not managed by FCC, management will work with the
   custodial Federal agency to mitigate noted issues.

C. FCC Needs to Accelerate Efforts to Develop and Test its Contingency Plans (Repeat
   Condition)

   Losing the capability to process, and protect information maintained on FCC’s computer
   systems can significantly impact FCC’s ability to accomplish its mission to serve the public.
   The purpose of service continuity controls is to ensure that, when unexpected events occur,
   critical operations continue without interruption or are promptly resumed. To achieve this
   objective FCC should have (1) procedures in place to protect information resources and
   minimize the risk of unplanned interruptions and (2) a plan to recover critical operations
   should interruptions occur. These plans should consider activities performed at FCC’s




                                              29
general support facilities, as well as the activities performed by users of specific applications.
To determine whether the disaster recovery plans will work as intended, FCC should
establish and periodically test the capability to perform its functions in disaster simulation
exercises.

Our review of FCC service continuity controls identified deficiencies that could affect FCC’s
ability to respond to a disruption in business operations as a result of a disaster or other long-
term emergency. The deficiencies were as follows:

•     FCC has not formally identified and prioritized all critical data and operations on its
      major applications and the resources needed to recover them if there is a major
      interruption or disaster.
•     FCC has not formally identified and prioritized all critical data and operations on its
      networks and the resources needed to recover them if there is a major interruption or
      disaster. In addition, we could not determine whether FCC had established emergency
      processing priorities that will help manage disaster situations more effectively for the
      network.
•     FCC has not integrated the contingency plans of its data centers, networks and
      telecommunication facilities in a comprehensive disaster recovery plan.

FCC is in the process of developing a comprehensive contingency plan. FCC plans to
complete this effort by the end of fiscal year 2001.

Management Comments:

Management concurs. FCC plans to fund the development a Commission-wide Contingency
of Operations Plan (COOP) in a multi-phased approach. The first phase includes the conduct
of a business impact analysis to formally identify and prioritize all critical data and
operations on major applications and the resources needed to recover if there is a major
interruption or disaster. Upon completion, critical aspects of the COOP will be developed
and tested.

Recommendations:

29.    Establish a comprehensive and integrated security management structure to ensure that
       FCC’s security policy is consistently applied.

       Management Comments:

       Management concurs stating FCC recently updated its computer security policy to
       reflect current computer and information security concerns and countermeasures. All
       computer security related policies are provided to each level of system level
       management to ensure consistency.

30.    Conduct risk assessments for the FCC general support systems and major applications.




                                             30
      Management Comments:

      Management concurs. FCC completed a risk assessment of its general support systems
      and its network in Fall 2000.

31.   Develop and implement security plans for FCC’s major application systems and
      mission-critical general support systems.

      Management Comments:

      Management concurs. FCC contracted for the required services to develop and
      implement security plans for its major application systems and mission-critical general
      support systems. Plans are being developed, using the guidance offered by National
      Institute of Standards and Technology (NIST), Special Publication 800-18, Guidance
      on the Development of Security Plans, to ensure compliance with OMB Circular No. A-
      130, Appendix III. The expected completion time frame of the plans is by second
      quarter FY 2002.

32.   Certify and accredit FCC’s major applications and general support systems, based on
      the security plans developed and implemented.

      Management Comments:

      Management concurs. FCC contracted for the required services to certify and accredit
      FCC’s major applications and general support systems. These reviews are being
      conducted to ensure compliance with OMB Circulars No. A-123, A-127 and A-130,
      Appendix III. NIACAP is being used as the required model to support this effort. The
      expected completion time frame of the reviews is by fourth quarter FY 2002.

33.   Establish a system to periodically review security controls over FCC’s computer
      systems in accordance with OMB Circular No. A-130, Management of Federal
      Information Resources, Appendix III.

      Management Comments:

      Management concurs noting major application and general support system certification
      and accreditation review processes currently underway will allow for periodic review of
      these systems, as required by OMB Circular No. A-130, Appendix III.

34.   Strengthen controls over access to protect all mainframe and client server-based
      resources.

35.   Address inadequacies and inconsistencies in the mainframe and network access request
      process.




                                           31
      Management Comments:

      Management concurs with Recommendations 34 and 35. FCC’s Computer Security
      Officer will work directly with the administrators of the mainframe system, including
      network access request processes, to ensure adequate controls are implemented and test
      these processes.

36.   Require periodic review of user privileges to ensure that capabilities are in line with job
      responsibilities.

      Management Comments:

      Management concurs. FCC’s Computer Security Officer will develop a process to
      ensure Commission-wide compliance to require periodic review of user privileges to
      ensure capabilities coincide with job functions. The expected completion time frame
      for this effort is by second quarter FY 2002.

37.   Enhance audit trail facility utilization and review.

      Management Comments:

      Management concurs. FCC’s Computer Security Officer will develop and distribute a
      Commission-wide policy to make mandatory the use and review of appropriate system
      audit trail facilities within FCC, both at the general support and major application
      levels. The expected completion time frame of the plan is by first quarter FY 2002.

38.   Develop and implement a FCC-wide security plan as prescribed by OMB Circular No.
      A-130, Management of Federal Information Resources.

      Management Comments:

      Management concurs. FCC contracted required services to develop and implement
      FCC-wide security plans for major application systems and mission-critical general
      support systems. These plans are being developed to ensure compliance with OMB
      Circular No. A-130, Appendix III and are being prepared using the guidance offered
      by NIST Special Publication 800-18, Guidance on the Development of Security Plans.

39.   Develop and test contingency plans for FCC’s major applications, networks, and
      telecommunications facilities.

      Management Comments:

      Management concurs.        FCC noted the aforementioned COOP will address the
      recommendation.




                                             32
      40.    Obtain written documentation from FCC’s data centers of developed and tested
             contingency plans and participate in the scheduled tests of the plans.

             Management Comments:

             Management concurs.       FCC’s Computer Security Officer will obtain written
             documentation from its data centers of developed and tested contingency plans and
             request that FCC be able to participate in the scheduled future tests of the plans. The
             expected time frame for the completion of these plans is by the second quarter FY
             2002.

      41.    Immediately develop a comprehensive contingency plan that integrates the individual
             plans of its data centers, networks, and telecommunications facilities.

             Management Comments:

             Management concurs and stated the contingency plan development team will factor in
             the integration of the FCC plan with those plans for non-FCC individual support data
             centers, networks, and telecommunications facilities.


REPORTABLE CONDITIONS

VI.         Review and Finalize Written Internal Control Documentation for Financial and
            Administrative Operations (Modified Repeat Condition)

In response to last year’s internal control report, FCC started to document its accounting policies
and procedures related to various financial and administrative operations such as auctions;
accounts receivable; property, plant, and equipment; accounts payable; payroll; and budget. All
of the documents mentioned, except for the property, plant, and equipment and payroll, have not
been finalized and require management review before finalization.

FCC’s Property Management Policies and Procedures (manual), although finalized, has certain
disconnects in definitions, policies, and procedures of property described in the manual versus
the property items shown in the financial statements. The categories of personal property listed
in the manual are Equipment, Software, Bulk Purchases, and Sensitive Property, while the note
to the financial statements showed the categories as Furniture, Non-Computer Equipment,
Computer Equipment, Bulk Purchases, Vehicle Systems, Broadcast Stations, Equipment, ADP
Software, and ADP Software-In-Process. In addition, while reported separately as property in
the notes of the financial statements, furniture is not mentioned in the manual as part of any
category of property, nor is its inventory and valuation method, useful life, and disposal method
described. These disconnects could result in confusion, misunderstanding, and inconsistencies in
implementation of the policies and procedures.




                                                  33
Documented internal control and financial policies and procedures are a major part of managing
an agency. These comprise the plans, methods, and procedures used to meet missions, goals, and
objectives and in, doing so, support performance-based management. Internal control serves as
the first line of defense in safeguarding assets and preventing and detecting errors and fraud.
Documentation of control policies and procedures reduces the risk of misunderstanding,
confusion, and inconsistent actions taken.

Management Comments:

Management concurs noting FCC has been developing a comprehensive policy and procedures
manual. Upon completion, the manual will be placed on the FCC Intranet to provide easy access
for staff. Additionally, management will conduct training sessions to familiarize staff with the
new policies and procedures.

Recommendations:

We recommend that FCC:

   42.   Perform a global assessment of the financial and administrative operations that will
         require a written internal control policies and procedures manual. Consolidate all
         financial policies and procedures in a manual that is updated through controlled
         memoranda during the year. Update the manual for the memoranda changes annually
         or as necessary.

         Management Comments:

         Management concurs stating a global assessment was performed to identify sections to
         include in the manual under development. The procedures will include change
         procedures that control how and when policies and procedures are updated.

   43.   Perform an in-depth review of the draft and final written internal control policies and
         procedures manual to ensure that information is accurate, current as to the Federal
         internal control environment, and consistent with related documentation.

         Management Comments:

         Management concurs. Policies and procedures are being developed and are subject to
         management review throughout the process.

   44.   Ensure that FCC employees responsible for internal controls are provided with a copy
         of the internal control policies and procedures manual and are knowledgeable of the
         contents.




                                              34
           Management Comments:

           Management concurs. As mentioned above, once completed the policies and
           procedures will be available via Intranet access.

    45.    Upon finalization of internal control policies and procedures manuals, conduct
           sufficient training of Commission personnel.

           Management Comments:

           Management concurs. A training plan will be developed to disseminate the information
           contained in the new manual.


VII.      Improve Internal Controls over Certain Accounts Receivable (Modified Repeat
          Condition)

A. Regulatory Fees

    The Omnibus Budget Reconciliation Act of 1993 requires FCC to collect regulatory fees to
    offset certain costs incurred in regulating its industry. The legislation also gives FCC the
    authority to review the regulatory fees and adjust the fees to reflect changes in its
    appropriation from year to year. It also authorizes FCC to charge a late payment penalty and
    to dismiss applications or revoke licenses for non-payment of the fees, and waive, reduce, or
    defer payment of a fee for good cause.

    FCC’s fee collection database is not linked to its licensing databases, making it difficult for
    FCC to perform routine automated checks on whether all licensees have paid their regulatory
    fee. In response to this weakness identified in the prior year report1 and the GAO report2,
    FCC implemented the Commission Registration System (CORES), a commercial off-the-
    shelf software that will assign a specific FCC Registration Number (FRN) to a licensee to
    track all transactions related to that licensee. The FRN will be populated in RAMIS, and
    eventually linked to all the licensee databases in each bureau or office within FCC.
    Unfortunately, RAMIS was not operational during fiscal year 2000. In addition, CORES was
    not implemented until July 2000. The success of CORES as a complete database is yet to be
    evaluated due to the newness of the process and especially when registration in CORES is
    encouraged, not required.

    To close the loop on the potential revenue gap from non-paying licensees, FCC instituted a
    new process for fiscal year 2000 collection after the regulatory fee payment deadline elapsed.
    The process requires FO (1) to send a list of entities that paid fees, along with the amount and

1
  OIG Report titled, Report on the Federal Communications Commission Fiscal Year 1999 Financial Statements
  (00-AUD-01-01) dated July 7, 2000.
2
  GAO report titled, Telecommunications: FCC Does Not Know If All Required Fees Are Collected (RCED-99-216)
  dated August 31, 1999.




                                                    35
   other relevant data to the appropriate bureaus and (2) to request that each bureau sends its
   lists of licensee/entities subject to the fee. A billing statement is then sent to licensees that
   were identified through this process. This process was labor intensive since FCC’s
   organizational structure is decentralized with each bureau (program operation) still
   maintaining its own licensee database. These databases do not interface with each other or
   with the financial management system. In addition, the bureaus’ databases do not always
   have the current status of a licensee.

   In our review of the regulatory fees that were collected where there was a difference between
   the FCC estimated fee and the fee calculated by the licensee, we noted that FCC processed
   the licensee’s lower amount without question or request for back-up documentation. While
   FCC stated that any differences are reviewed for further action, we found no evidence of this
   review in the files. Also, FCC believes that since its data is estimated based on historical
   data, the licensees’ data will be more accurate. We believe that FCC, in order to assure itself
   that it is collecting appropriate amounts and its collection process is fair to all licensees,
   should review the basis of licensees’ calculations when they differ substantially from the
   original estimate. This process will also assist FCC in estimating future regulatory fees.
   When discussed with management, FCC stated that it would now require the licensee to
   submit worksheets supporting their payment calculations.

B. Application-Processing Fees

   As authorized under Section 8 of the Communications Act of 1934, as amended, FCC
   collects application processing fees from applicants applying for certain licenses. Applicants
   submit a completed FCC application form with a “Remittance Advice” to a specific bank
   lockbox. The bank stamps the documentation with a received date, assigns a fee control
   number, deposits the payment with the Department of the Treasury, enters data from
   application into the fee collection database, and forwards the application documentation, and
   copies of proof of payments to FO. FO, without opening the application documentation
   package, forwards the package to the bureaus for processing.

   As noted in our report last year and in the GAO report noted above, adequate documentation
   from the bureaus did not exist to show that application fees were paid. In addition, the
   bureaus’ lack of access (read-only), whenever needed, to the fee collection database made it
   more difficult for them to verify proper payment of fees. FCC, in its responses, indicated
   that this weakness will be corrected by the implementation of RAMIS and CORES in fiscal
   year 2000. Unfortunately, as aforementioned, RAMIS was not operational, CORES was
   operational as of July 2000 and registration in CORES is voluntary, not mandatory.

   Although FO noted that it has had requests for access to the Collections System from the
   bureaus to verify that proper payments were received and recorded in the system, the
   implementation of this verification process was not in effect for most of the fiscal year.
   Moreover, we do not believe that all bureaus requiring application-processing fees
   implemented this verification process.




                                                36
   In both the regulatory fee and the application-processing fee, there is a higher risk that fees
   required by legislation are not recorded and collected. Therefore, the conditions for a
   potential revenue gap still exist.

   Internal controls, as used in OMB Circular No. A-123, Management Accountability and
   Control covers all aspects of an agency’s operations (programmatic, financial, and
   compliance). Without integrated database systems accessible to all, and with the bureaus
   maintaining the customer database while FO maintains the collections data, the need for the
   bureaus (program) and the FO (financial) to coordinate and communicate in establishing and
   maintaining internal controls is mandatory.

Management Comments:

Management concurs. FCC noted deficiencies in the fee collection programs in 1998 and
initiated comprehensive steps to fundamentally re-engineer the automated systems. FCC
initiated steps to resolve issues originally identified in the GAO report. One major initiative is
the implementation of two new systems, RAMIS and CORES. CORES assigns a specific FRN
to a licensee that will be used to track all transactions related to that licensee. The FRN will be
populated in RAMIS, and eventually linked to all the licensee databases in each bureau or office
within FCC. Once RAMIS is operational, each phase of collections, whether it is the application
fees or the yearly regulatory fees, will be processed through RAMIS. This will be extremely
beneficial for the yearly regulatory fees because it will allow management to generate a record of
each collection to be used as a basis for bill generation in subsequent years.

Recommendations:

FCC has initiated several manual processes and controls and has started implementing
information technology systems to improve management of its account receivable. We
recommend the following:

   46.   Ensure that RAMIS and CORES, when fully operational, address and provide solutions
         to weaknesses noted in our findings.

         Management Comments:

         Management concurs. FCC believes the systems will resolve the weakness.

   47.   Continue with the alternative procedures used to ensure that all fees are collected while
         the new systems are not fully operational. Improve on the procedures by evaluating the
         results of this year’s manual processes used in identifying unpaid regulatory fees and
         maintain a historical record of the percentage of collections. Use this statistical
         information to determine how close actual payments are to FCC’s estimate and adjust
         future estimates, if necessary.




                                                37
         Management Comments:

         Management concurs. FCC plans to continue manually calculating unpaid regulatory
         fees until an automated system is implemented.

   48.   Document and implement standard procedures for bureaus to review payment of fees
         prior to processing an application. Verify compliance with the internal controls
         documented in the procedure manual.

         Management Comments:

         Management concurs. FO is working with the bureaus and offices to update its policies
         and procedures to ensure verification of payment of fees prior to processing an
         application or granting a right.

   49.   Increase communication and coordination between FO and the bureaus. Ensure that
         authorized bureau staff have at least read-only access to financial information relevant
         to their operations. The bureaus and FO should be proactive to the process instead of
         reactive.

         Management Comments:

         Management concurs. FO has taken a proactive approach to working with bureaus and
         offices on outstanding regulatory fee items and application fee issues.

   50.   Consider using CORES as a mandatory customer registration mechanism to ensure
         completeness of the database and consistent implementation of the registration
         procedures.

         Management Comments:

         Management concurs. FCC is currently addressing the full utilization of the FRN and
         CORES.


VIII. Improve Supporting Documentation and Controls on Property and Equipment

An agency must establish physical control to secure and safeguard vulnerable assets. Such assets
should be periodically counted and compared to control records. Internal control and all
transactions and other significant events need to be clearly documented, and the documentation
should be readily available for examination. In addition, control activities help ensure that all
transactions are completely and accurately recorded.

Although we were ultimately able to apply audit procedures to audit property and equipment, our
review of property and equipment disclosed several internal control deficiencies as follows:




                                               38
A. Inadequate Supporting Documentation

   •   Documentation supporting 11 of 18 (61%) property sample items described in the
       property management system did not agree to the description on the property
       management system.        The specific part and serial number on the supporting
       documentation was different from what was in the property management system.
   •   Three of eighteen (17%) sample items did not have receiving reports or packing slips to
       provide evidence of receipt.
   •   One of eighteen (6%) sample items did not have an invoice.
   •   One of eighteen (6%) sample items did not have an appropriate payment authorization.
   •   Two of eighteen (11%) sample items did not have a proof of payment such as an FFS
       disbursement document that ties to the property.
   •   Four of eighteen (22%) sample items did not have a required review/approval signature
       on one or more documents supporting the sample item.

B. Incorrect Dollar Values in the Property Records

   Six of eighteen (33%) sample items had incorrect dollar values in the property management
   records, requiring changes to be made when brought to the attention of FCC management.

C. Some Capitalized Costs Not Distinguished from Non-Capitalized Costs

   In reviewing accounting entries related to acquisition of certain equipment, we noted that the
   use of wrong budget object codes (BOC) resulted in capitalized costs not distinguished from
   non-capitalized costs. Specifically, ADP equipment acquisition was charged to BOC 3120,
   ADP Equipment, a BOC that is not to be used at the transaction level. FCC’s Financial
   Coding Handbook (Fiscal Year 2000 edition) states BOC 3120 is to be used for budget
   allocation and operational transactions are not to be posted to it. Transactions are to be
   posted in FFS to either capitalized ADP equipment (BOC 3121) or non-capitalized ADP
   equipment (BOC 3122.) As a result, capitalized costs could not be distinguished from non-
   capitalized costs without a detailed account analysis.

   Management Comments:

   Management concurs. FCC developed new processes and communications channels to
   improve property management and financial practices. Nevertheless, it recognized there is
   room for further advancement. FCC believes the shortcomings identified during the FY 2000
   inventory/audit were directly related to insufficient personnel with the required training and
   experience in government asset management. To resolve the situation we have created four
   new positions to be filled in FY 2001: Inventory Operations Program Manager, Financial
   Audit Coordinator, Inventory Management Specialist, and Data Entry Clerk.




                                              39
D. Property Reconciliations Not Performed for Most of Fiscal Year 2000

   Property reconciliations were not performed for most of fiscal year 2000. We requested to
   see monthly reconciliations but were provided only with the June, July and September 2000
   reconciliations.

   Management Comments:

   Management concurs recognizing property reconciliations were not performed for the entire
   year. FCC began addressing this issue as soon as the FY 1999 audit was completed;
   however, at that point several months had lapsed in FY 2000. In FY 2001, all months have
   and will be reconciled.

Our review of software acquisitions for completed and in-process transactions disclosed the
following:

E. Documentation Was Not Readily Available for Examination

   Overall, it took two months for FCC to obtain supporting documentation needed to vouch
   payments under multiple purchase orders to their respective software systems. Additionally,
   this documentation was provided after FCC performed an extensive review and search of
   software acquisitions. Audit procedures revealed that supporting documentation kept in files
   was disorganized, incomplete and not conducive to substantiation review. Information
   needed to compare specific purchase orders and payments with the software asset was not
   provided until after multiple requests and discussion.

   Management Comments:

   Management concurs. Capitalization of software was one of the final capital asset categories
   to be addressed, partly due to its complexity. FCC now has a system in place for identifying
   system costs as they are incurred and will be able to provide stronger and more timely
   support for FY 2001 balances.

F. Documentation Did Not Demonstrate that Software Maintenance is Accurately
   Identified and Expensed

   FCC reports software as in process until it is certified for operation and classified as
   capitalized software subject to depreciation. FCC has been developing several software
   systems and each software system development life cycle can span for several years and
   involve multiple purchase orders. When purchase orders are originally prepared, they
   identify an accounting “string” of codes to be charged including the fund, SGL account,
   organization, BOC, etc. Since numerous payments may be made under the same purchase
   order, the payments are usually charged to the originally established accounting string, which
   may not be correct.




                                              40
In our audit, the back up files for one of the capitalized software sample items included
approximately $40 thousand in payments that FO instructed ITC not to include in the cost of
the asset because they were for software maintenance. We did not receive supporting
documentation to assure ourselves that these payments were properly recorded.

Correct BOC classification has been an issue for FCC because often staff who enter BOC
information in FFS are not knowledgeable of the differences in accounting for expenditures,
(i.e., capitalized vs. non-capitalized, depreciable or expensed). The tendency is to charge the
amount to the BOC already listed on the purchase order or invoice. Thus, if a purchase order
is originally coded to capitalized software, and a payment relates to maintenance, it will
normally be charged to the BOC originally coded on the purchase order or invoice.

Management Comments:

Management concurs. The referenced asset for $40,623, when researched by FCC staff with
specific payment vouchers, was charged against BOC 2520, Contract Services – Non
Federal, which is not a capitalized code. The BOC for this entry should have been 2572,
ADP Software Maintenance. Neither of these BOCs represent capital expenses, therefore,
the amount was properly expensed.

ITC will advise staff to pay close attention to the correct BOC usage. As part of the data
collection activities underway for FY 2001, ITC has instituted necessary steps to ensure
BOCs used are consistent with the ADP services provided. The Planning and Support Group
(PSG) is reviewing all ITC-related service requests for proper BOC entries.

Recommendations:

51.   Include in the AO’s procedures requirements that:

      a) The receiving unit prepares a receiving report when a packing slip is not included in
         the shipment.

      b) The receiving unit records all relevant asset information such as asset number, serial
         numbers and purchase order on the supporting documentation (order, receipt, and
         payment) to facilitate tracking and reconciliation of an asset in the property
         management system, in FFS, and the supporting documentation.

      c) Request assistance from the ordering office before assigning an asset number if
         there is any question as to how to assign asset and serial numbers to items received.

      d) For complex orders with multiple parts and lines in the purchase order, such as
         purchases of computer equipment or software, require the ordering office to provide
         instructions on the purchase order or other document sent to the warehouse or
         receiving unit as to how costs and assets are to be recorded in the master property
         record.




                                            41
      Management Comments:

      Management concurs. FCC recognized the Property Management Policies and
      Procedures have certain “disconnects” in the definitions, policies, and procedures of
      property currently described.     During the past year, FCC discovered many
      changes/updates which need to be incorporated into policies and procedures. FCC will
      ensure all financial policies and procedures and administrative requirements are
      captured in a revised edition.

52.   Determine which office, FO or AO, is responsible for maintaining the completeness of
      supporting documentation. Consider including a checklist of relevant documentation
      that should be in an asset file to ensure completeness of supporting documentation.

53.   To improve the accuracy of cost data in the management property record and the FFS,
      we recommend that FO:

      a) Reconcile on a monthly basis the management property record and the FFS for
         capitalized assets and at least annually for non-capitalized assets.

      b) Review FFS entries to ensure use of proper accounting BOC.

      c) Restrict the use of budgetary BOC in FFS and train employees on the proper
         accounting entries.

      Management Comments:

      Management concurs with Recommendations 52 and 53 noting FCC has already acted
      on the recommendations.

54.   To provide assurance that software maintenance costs are classified appropriately, we
      recommend that FO, working closely with ITC to:

      a) Review capitalized software and software maintenance costs on a periodic basis.

      b) Establish a formal mechanism to ensure that personnel responsible for knowing
         which costs are maintenance and which costs are developmental provide correct
         BOC guidance to personnel entering the information in FFS.

      c) Provide training to appropriate personnel on proper allocation of costs to BOCs.

      Management Comments:

      Management concurs. Data is now being gathered and reviewed on a quarterly basis.
      Management noted it has collected the software inventory for the first quarter of FY
      2001 and requested second quarter information. Management provided guidance to




                                           42
             Customer Service Representatives (CSR), Bureau and Office Contracting Officer
             Technical Representatives, and system owners on how to code maintenance versus
             development cost entries. The capture of data quarterly on software maintenance and
             development was formalized in September 2000 and is operational. All CSRs and PSG
             staff have been trained on the proper usage and data entry of both the procurement
             system and FFS and have been given documentation on the appropriate BOC
             definitions.

      55.    Ensure that software and systems’ owners certify the transfer of a software system from
             development to operations (in-service) in order for the proper classification and proper
             depreciation of the asset.

             Management Comments:

             Management concurs stating FCC requires self-certifications quarterly from all system
             owners for their systems that have moved from development to production.


IX.         Improve Controls Over Accounts Payable (Modified Repeat Condition)

FCC did not analyze its accounts payable on a routine basis to determine accuracy,
reasonableness, and proper classification. Also, the accounts payable general ledger balance was
not being reconciled to subsidiary records. Upon analysis of the subsidiary records, we noted
vendors’ accounts beginning with a Z code with a total of approximately $15 million debit
balances shown as outstanding accounts payable at September 30, 2000. A “Z” code is a vendor
code in FFS that starts with the prefix Z. FCC could not initially explain the nature of the debit
balances and had to research the issue. Eventually, FCC determined the debit balances were
substantially due to auction up-front payments refunded to losing bidders from prior years
activity dating back to at least 1996. When refunds were made, FCC debited accounts payable
even though an accounts payable was not originally established.

FFS allows vendor accounts to be paid even without a payable being established, thus creating
debit account balances. Although a correcting entry to reverse (or establish) an accounts payable
was made when this error was discovered, the correcting entry was not matched with the vendor
codes with debit balances. In addition, we noted numerous outstanding balances in the
subsidiary ledger schedule being identified by a journal voucher, not by a vendor. We have
identified at least 38 journal vouchers prepared to correct balances; most of these vouchers were
not matched against a specific vendor balances. Also, FCC does not require all critical accounts
payable fields such as the vendor balance field in FFS to be completed.

Standards for internal controls state that transactions are to be properly classified. Account
balances should be analyzed on a periodic basis to ensure their propriety, accuracy, and timely
detection of errors.




                                                   43
Management Comments:

Management concurs. FCC is aware of the issues identified with respect to accounts payable and
has been working in FY 2001 to address the problems. Management affected several changes to
the accounts payable subsidiary listing and a monthly reconciliation was established. FCC made
a pointed effort to work with its fund managers in reviewing and eliminating stale accounts
payable and unliquidated obligation balances during FY 2000. Management intends to continue
improving this area for FY 2001.

Recommendations:

   56.   Review vendor account balances within the accounts payable subsidiary ledger.

         Management Comments:

         Management concurs. FCC added the vendor name to the monthly subsidiary listing so
         that vendor balances can be more easily identified. FCC will continue to work with its
         fund managers to conduct quarterly reviews of both accounts payable and unliquidated
         obligation balances.

   57.   Perform periodic reconciliation of the general ledger and the subsidiary ledger
         balances. Analyze the balances in the accounts periodically (monthly).

   58.   Activate user access controls and data entry field requirements to ensure that only
         appropriate activity is recorded in the accounts payable subsidiary ledger.

         Management Comments:

         Management concurs with Recommendations 57 and 58 and established a monthly
         reconciliation format and began reconciling accounts payable balances in FY 2001.

   59.   Minimize the use of journal vouchers. If a journal voucher has to be prepared, ensure
         that the appropriate subsidiary ledger is adjusted for the effect of the journal voucher.

         Management Comments:

         Management concurs stating wherever possible it will attempt to use transaction codes
         in order to establish and liquidate accounts payable.

   60.   Consider using a sub-SGL account (i.e., SGL 2110.1) to account for auction related
         payables. This will allow management to perform an effective and efficient review of
         the accounts payable and the auction-related transactions.




                                               44
         Management Comments:

         Management concurs stating it will consider a sub-SGL account in its general ledger
         structure.


X.     Performance Goals and Results (Repeat Condition)

The Government Performance and Results Act of 1993 (GPRA) places management
expectations and requirements on federal agencies by creating a framework for more effective
planning, budgeting, program evaluation, and fiscal accountability for federal programs. The
intent of the GPRA is to improve public confidence in Federal agency performance, by holding
agencies accountable for achieving program results, and to improve congressional decision-
making by clarifying and stating program performance goals, measures, and costs “up front.”
The annual financial statements is one medium for reporting performance goals and results.

In fiscal year 1999, FCC did not report performance goals and results in its MD&A. FCC
explained that it was due to a problem in incorporating the provisions of GPRA into its annual
financial statements, not due to lack of processes for identifying, assembling, analyzing, and
reporting performance data, which we reported. In fiscal year 2000, FCC did include
performance goals and results in its MD&A. These goals and results, however, could not be
linked to the input (costs) as reported in the Statement of Net Cost. In addition, this information
did not become available for our review until December 2000. There was no global list of
performance goals and results (annual performance plans) where we could verify whether
appropriate management and performance information was obtained at each level of
organization. We could not verify the process where global performance goals and results are
evaluated to determine the most significant activities and indicators for financial reporting
purposes.

Goals and performance measures must be used in day-to-day management and built into the
performance appraisal system to develop an understanding of the relationships between strategic
goals and individual work assignments. GPRA’ s objective is to manage for results. It offers a
framework to integrate key management processes in order to provide policy and decision-
makers with better information on program results and costs. Without timely feedback on the
goals, results, and costs of a program, responsible managers are not able to use the valuable
information to take action. As a result, GPRA becomes a useless paperwork exercise.

The FCC strategic plan provided to us was in draft and management intends to finalize it after
the end of the audit. The reported measures of program and financial performance were
consistent with information on major goals and objectives from the draft strategic plan but again,
could not be linked to the program and costs featured in the Statement of Net Cost. The costs in
the Statement of Net Costs are quantitative data for use in assessing or measuring the outputs and
outcomes of specific performance indicators. As noted in item II of this report, FCC does not
have adequate cost accounting systems to measure and report the costs of each segment’s
outputs.




                                                45
We believe that increased coordination and communication is still needed among the
Performance Evaluation and Results Management Office (PERM - GPRA lead responsibility
office), budget office, program offices (bureaus), and the fiscal accountability office (CFO’s
office) to ensure integration and consistency of processes, shared financial and operational
information, and to promote understanding of the performance measurement system throughout
the organization.

Management Comments:

Management concurs agreeing the goals and results reported in the MD&A section of the
financial statements need to be linked to the Statement of Net Cost.

Recommendations:

      61.    Enhance communication and information sharing to achieve better results. Ensure that
             staff throughout FCC is aware of and managers are involved in setting organizational
             goals and objectives, regularly assessing progress, and making needed changes to help
             ensure success.

      62.    Use goals and performance measures in day-to-day management and build them into
             performance appraisal system to develop an understanding of the relationships between
             strategic goals and individual work assignments.

      63.    Increase coordination and communication among the PERM, budget office, program
             offices, and the CFO office. The CFO office should provide costs input in achieving
             the outputs and/or outcomes of performance goals.

      64.    Link objectives and performance measures to the strategic plan and the annual financial
             statements.

             Management Comments:

             Management concurs with Recommendations 61, 62, 63, and 64. Management noted
             there was continued and close coordination between all offices, bureaus, Budget Office,
             and Office of CFO. Any integration issues were the result of inadequate cost data, not
             inadequate coordination. As aforementioned, the CFO has begun work on designing a
             new cost accounting system.


XI.         OMB Circulars No. A-127 and A-130 Reviews (Repeat Condition)

FCC has recently identified its major financial applications and general support systems, and
established a timetable for meeting the requirements of OMB Circulars No. A-127, Financial
Management Systems and A-130, Management of Federal Information Resources reviews of
these applications. FCC plans to begin conducting OMB Circulars No. A-127 and A-130




                                                  46
reviews in Fiscal Year 2002. Until these reviews are performed and completed, FCC cannot
determine compliance with these Circulars to include in its annual Federal Managers’ Financial
Integrity Act (FMFIA) report and ensure substantial compliance with Federal Financial
Management Improvement Act (FFMIA).

Recommendations:

   65.   Institute a program for conducting periodic reviews in accordance with OMB Circulars
         No. A-127 and A-130.

         Management’s Comments:

         Management concurs noting it contracted the required services to certify and accredit
         FCC’s major applications and general support systems. These reviews are being
         conducted to ensure compliance with OMB Circulars No. A-123, A-127, and A-130,
         Appendix III.

   66.   Include the results of OMB Circulars No. A-127 and A-130 reviews as part of Section 4
         reporting in FCC’s annual FFMIA report.

         Management’s Comments:

         Management concurs adding ITC staff will coordinate with FO staff to ensure
         summaries of financial application level reviews performed to comply with OMB
         Circulars No. A-127 and A-130 are included in FMFIA reports.

                      ********************************************

In addition to the reportable conditions described above, we noted certain matters involving
internal control and its operation that we reported to the management of FCC in a separate letter
dated February 9, 2001.

This report is intended solely for the information and use of the management of FCC, FCC
Office of Inspector General, OMB, and Congress, and is not intended to be, and should not be,
used by anyone other than these specified parties. We caution that misstatements, losses, and
noncompliance may occur and not be detected by the testing performed and that such testing
may not be sufficient for other purposes.


a1
Calverton, Maryland
February 9, 2001




                                               47
                                                                                t


A1
         Independent Auditor’s Report on Compliance with Laws and Regulations

To the Inspector General of the
Federal Communications Commission


We have audited the Principal Statements (hereinafter referred to as “financial statements”) of
the Federal Communications Commission (FCC) as of September 30, 2000 and have issued our
report thereon dated February 9, 2001. We conducted our audit in accordance with U. S.
generally accepted auditing standards; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements.

The management of FCC is responsible for complying with laws and regulations applicable to
FCC. As part of obtaining reasonable assurance about whether FCC’s financial statements are
free of material misstatements, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statements amounts, and certain other laws and regulations specified
in OMB Bulletin No. 01-02, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to FCC.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the following laws
and regulations that are required to be reported under Government Auditing Standards and OMB
Bulletin No. 01-02, which are described below.


Chief Financial Officers Act of 1990 (CFO Act)

The Government Management Reform Act of 1994 (GMRA) amended the requirements of the
CFO Act by requiring, among other things, the annual preparation and audit of organization-
wide financial statements of 24 executive departments and agencies. Although FCC is not listed
in OMB Bulletin No. 01-02, as one of the agencies required to comply with these requirements,
management has voluntarily elected compliance and as such is being evaluated accordingly.

The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which has an impact on citizens’ lives and livelihood. To


   Centerpark I
   4041 Powder Mill Road, Suite 410
   Calverton, Maryland 20705-3106
   tel: 301-931-2050
   fax: 301-931-1710
   www.cliftoncpa.com
                                                   48
                                      Offices in 13 states and Washington, DC         h
meet this responsibility, the CFO Act establishes a leadership structure, provides for long-range
planning, requires audited financial statements, and strengthens accountability reporting.

Specifically, the CFO Act establishes the authority, functions and responsibilities of a CFO.
These include, among others, that a CFO:

•   Develop and maintain an integrated accounting and financial management system that
    complies with applicable accounting principles, standards, and requirements; internal control
    standards; and requirements of OMB, the Department of the Treasury, and others;

•   Direct, manage, and provide policy guidance and oversight of all agency financial
    management personnel, activities, and operations;

•   Implement agency asset management systems, including systems for cash management,
    credit management, debt collection, and property and inventory management and controls.

FCC does not meet the above criteria as explained in more detail in our Report on Internal
Control, items I through V. The key items we identified include:

•   FCC was not able to prepare reliable and timely financial management information
    efficiently for managing current operations.

•   FCC’s financial management systems do not comply with certain accounting standards and
    requirements, and internal control standards.

•   FCC’s financial information system is not fully integrated and relies on data from various
    subsystems and spreadsheet programs for the accounting, preparing, and reporting of
    financial statements.

•   Policy guidance for financial management personnel, activities, and operations are not
    formalized in writing, not updated, or not practiced effectively.

•   Direction, policy guidance and oversight of Universal Service Fund (USF) financial
    operations are inadequate.

In addition, FCCINST 1102.3, a FCC internal controls directive that assigns management
responsibility and procedures for establishing, maintaining, evaluating, and reporting on internal
controls expired in May 2000. There was no directive in effect after the expiration date.


Debt Collection Improvement Act of 1996 (DCIA)

DCIA requires agencies to notify the Department of the Treasury of all debts that are delinquent
for more than 180 days for offset and for referral to the Department of the Treasury for cross-
servicing debt collection. In FCC’s “Treasury’s Report on Receivable Due From The Public”



                                               49
(TROR) for administrative receivables submitted to the Department of the Treasury as of
September 30, 2000, it reported $20 million as the amount eligible for referral for offset,
however, only $109,000 of the $20 million was referred to Department of the Treasury for cross-
servicing. When this discrepancy was brought to FCC management’s attention, FCC reviewed
the debt eligible and actually referred to the Department of the Treasury and determined that $18
million of the $20 million should be referred for cross servicing.

Also, FCC is responsible for reporting receivable due from public for the USF and
Telecommunication Relay Service Fund (TRS.) FCC has not been submitting the TROR for
USF and TRS until September 30, 2000, the first time it has submitted the reports. We were not
provided with the September 30, 2000 TROR report for USF and TRS and therefore were not
able to review the reports for compliance.


Government Performance and Results Act of 1993 (GPRA)

The GPRA requires federal agencies to submit to OMB a strategic plan and annual performance
plans that set goals with measurable target levels of performance; and annual program
performance reports that compare actual performance to annual goals. Although FCC officials
informed us that they had completed their annual performance plan and their annual program
performance report, they did not provide copies of these reports to us. FCC officials indicated to
us that these reports were either not released outside the agency or were still under management
review as of the end of our fieldwork.

Our review of these GPRA reports is required by OMB Bulletin No. 01-02. Without having
access to these reports, we cannot assess FCC’s compliance with certain provisions of GPRA.

Recommendation

We recommend that FCC comply with the provisions of GPRA and provide copies of these
documents for our review as part of future financial statement audit.


Federal Financial Management Improvement Act of 1996 (FFMIA)

Under FFMIA, we are required to report whether the agency’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General Ledger
(SGL) at the transaction level. To meet this requirement, we performed tests of compliance with
FFMIA section 803(a) requirements.

The results of our tests disclosed instances, described below, where FCC’s financial management
systems did not substantially comply with certain requirements referenced in the preceding
paragraph. The following instances of noncompliance have been identified and such matters are
described in more detail in our Report on Internal Control.




                                               50
Federal Financial Management Systems

Agency financial management systems shall comply with the Integrated Financial Management
Systems as discussed in further detail in OMB Circular No. A-127, Financial Management
Systems, Section 7. As described in more detail in our Report on Internal Control, items I, II, IV,
and V,

•   Integrated Financial Management Systems - FCC’s core financial system (Federal Financial
    System) and feeder systems (direct loans systems and spreadsheets, cost systems, property
    management system, license database, collection systems, certain accounts receivable
    systems, procurement systems and various spreadsheets) are not integrated or electronically
    interfaced. A user is not able to have one view into systems such that, at whatever level the
    individual is using the system, he or she can obtain the information needed efficiently and
    effectively through electronic means. The primary reason of the noncompliance is due to
    FCC management’s lack of priority for financial management systems’ enhancements until
    recently. In the last two years, FCC has developed a long-term plan for the full
    implementation of enhancements and/or integration of its financial management systems.

•   Financial Reporting – FCC was not able to provide timely and reliable financial information
    for managing current government operations. The primary reason of the non-compliance is
    that financial activities are not recorded, prepared and analyzed timely.

•   Security – During our review of the Information Technology controls, we identified several
    weaknesses, which are collectively considered a material weakness and are described in more
    detail in our Report on Internal Control, item V. The weaknesses include lack of compliance
    with OMB Circular No. A-130’s, Management of Federal Information Resources,
    requirement for a comprehensive security plan, lack of necessary controls to protect
    information, and lack of a fully developed and tested contingency plan. The primary reason
    for the noncompliance is due to FCC management’s lack of review of its compliance
    requirements for financial management systems. FCC has developed a corrective action plan
    to achieve compliance with OMB Circular No. A-130 requirements by fiscal year 2001.

Accounting Standards

Due to the lack of an adequate cost accounting system, FCC was not able to produce managerial
cost information consistent with standards in Statement of Federal Financial Accounting
Standard No. 4, Managerial Cost Accounting Standards, as described in our Report on Internal
Control, item II.

Standard General Ledger at the Transaction Level

Implementing the Standard General Ledger (SGL) at the transaction level requires transactions
be recorded in full compliance with the SGL Chart of Account’s descriptions and posting
models/attributes that demonstrate how the SGL is to be used for recording transactions of the
Federal government accounting process. As described in detail in our Report on Internal




                                                51
Control, item I, FFS was not in substantial compliance with the SGL at the transaction level.
Some of FFS’s deficiencies include: out-dated SGL accounts, account titles, and cross-
references; inaccurate natural balances; incorrect debit/credit postings; inconsistencies between
certain FFS tables and posting models; and inaccurate closing accounts. The primary cause of
this non-compliance is FCC’s lack of review of its FFS system setup and posting model
definitions for many years.


Management Comments:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Control. As FCC corrects and resolves
identified issues, the occurrences of non-compliance will reduce.


                        ***************************************

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC, FCC OIG,
OMB and Congress, and is not intended to be and should not be used by anyone other than these
specified parties. We caution that non-compliance may occur and not be detected by the tests
performed and that such testing may not be sufficient for other purposes.


a1
Calverton, Maryland
February 9, 2001




                                               52
             SECTION V

  STATUS OF RECOMMENDATIONS FROM
PRIOR YEAR FINANCIAL STATEMENT AUDIT
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT



Starting with fiscal year 1999, FCC’s financial statements have been subjected to audit pursuant to the CFO Act
of 1990, as amended. The matrix consists of unresolved OIG recommendations to correct internal control
conditions identified by previous examinations and their status as of the completion of the fiscal year 200 audit.
A determination as to status of the recommendations was based on the audit fieldwork at FCC and discussion
with FCC officials.


       Condition                   Recommendations               Action    Action in    Action in     No specific
                                                                Complete   Progress    planning or   action planned
                                                                                        planning
                                                                                        complete


I.                          We recommend the following:
Material Weakness:
                            a)   Develop and implement
Financial Reporting              written policies and
                                 procedures on the financial
FCC was unable to                reporting process. The
complete principal               written policies and
statements other than a          procedures should provide
Consolidating Balance            sufficient guidance for the                  X
Sheet, Notes To The              year-end closing of the
Consolidating Balance            general ledger as well as
Sheet and some Required          interim and annual financial
Supplementary                    statement preparation and
Information.                     analysis. The procedures
                                 should also address the
                                 following issues:

FCC does not have a         1) Preparing and reviewing a
formalized financial           complete set of financial
reporting process to           statements to be presented
provide for the                in accordance with
preparation of Financial       generally accepted
                                                                              X
Statements to meet the         accounting principles;
requirements of the CFO
Act, hence, there is no
written documentation of
this process.
                            2) Establishing milestones by
                               setting dates for critical
                               phases such as general
                               ledger closing, preparation         X
                               of statements, notes, and
                               accountability report,
                               quality control reviews, etc.;




00-AUD-09-52               REPORT ON THE FEDERAL COMMUNICATIONS                                               Page 1
                           COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V               STATUS OF RECOMMENDATIONS FROM
                        PRIOR YEAR FINANCIAL STATEMENT AUDIT




       Condition                    Recommendations                Action    Action in    Action in     No specific
                                                                  Complete   Progress    planning or   action planned
                                                                                          planning
                                                                                          complete


                              3) Collecting common closing
                                 and adjusting entries in a
                                 formal listing, which is used
                                                                     X
                                 when the general ledger is
                                 closed and financial
                                 statements are prepared;
                              4) Identifying the individuals
                                 who will be involved in the
                                 financial reporting process
                                 and establishing clearly
                                 defined roles and                   X
                                 responsibilities for the staff
                                 involved in the preparation
                                 of interim and year-end
                                 financial statements;
                              5) Preparing and retaining all
                                 journal entries in sufficient
                                 detail with supporting
                                 documentation, and posting          X
                                 all entries in the general
                                 ledger;
Combination of reportable     6) Retaining all documentation
conditions may materially        supporting the request,
impact financial                 purpose and approval of all
statements.                      object class designations.
                                 Also, a listing of all current
                                 object codes including a
                                 statement of the purpose of
                                 each code should be                 X
                                 maintained and provided to
                                 all personnel with the
                                 responsibility to initiate,
                                 prepare, and approve
                                 accounting transactions to
                                 ensure that object codes are
                                 used appropriately;
Supervisory review for all    7) Require supervisory review
stages of financial              (written) for all entries
reporting needs                  posted to general ledger and
strengthening.                   consolidating financial             X
                                 statements. A supervisor
                                 should review revisions to
                                 previously approved entries.




00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                                               Page 2
                             COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V                 STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT




        Condition                     Recommendations                 Action    Action in    Action in     No specific
                                                                     Complete   Progress    planning or   action planned
                                                                                             planning
                                                                                             complete


FCC does not prepare and        8) Preparing and analyzing
analyze interim financial          formal monthly
activity in certain areas to       reconciliations of subsidiary
provide for preparation of         and summary account
the annual financial               balances and preparing
statements to meet                 financial statements on a
requirements of the CFO            quarterly basis. FCC should
Act.                               also consider a “formal
                                   closing” of all accounts at
                                   an interim date, which will
                                   reduce the level of
                                                                                   X
                                   accounting activity and
                                   analysis at year-end. This
                                   “formal closing” entails
                                   ensuring that all transactions
                                   are recorded in the proper
                                   period through the month
                                   end. With complete and
                                   timely transaction
                                   recording, analysis of all
                                   major accounts can be
                                   performed effectively.
                                9) Preparing and retaining a
                                   comprehensive set of files,
                                   working papers and other
                                                                                   X
                                   documentation in support of
                                   all information included in
                                   the financial statements.
Inadequate staff with the       b) Reemphasize duties and
substantive knowledge              responsibilities within the
necessary to address the           Financial Operations area to
financial accounting               address CFO Act
issues common to the               accounting and reporting
current financial                  requirements. Reevaluate
environment.                       internal resource
                                   distribution to accomplish                                   X
                                   this objective. Provide
                                   training to staff especially in
                                   regard to financial reporting
                                   policies and procedures
                                   related to meeting the
                                   requirements of the CFO
                                   Act.




00-AUD-09-52                   REPORT ON THE FEDERAL COMMUNICATIONS                                                Page 3
                               COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT




       Condition                   Recommendations              Action    Action in    Action in     No specific
                                                               Complete   Progress    planning or   action planned
                                                                                       planning
                                                                                       complete


FCC has not reviewed its    c)   Review the propriety of the
cost allocation                  cost allocation methodology
methodology and                  and currency of allocation
formulas.                        data. Document the cost
                                 allocation process
                                 methodology. The
                                 documentation will be
                                                                                          X
                                 useful in FCC’s review of
                                 the Statement of Net Cost
                                 allocation of appropriate
                                 costs and revenues to
                                 relevant programs in the
                                 future.

II.                         a)   We recommend that
Material Weakness:               management obtain an
                                 explicit understanding of
Universal Service                what the FCC reporting
Fund Reporting                   entity encompasses by
                                 clearly defining the legal,
                                 financial and operational
                                 boundaries of the FCC,
                                 USF, and USAC. With the
                                 assistance of FCC’s Office
                                                                                          X
                                 of General Counsel, FCC,
                                 and USAC (on behalf of
                                 USF), FCC management
                                 needs to formally define in
                                 writing each financial
                                 management role and
                                 responsibilities to avoid
                                 confusion and
                                 misunderstanding.

                            b) Ensure that USF financial
                               activities are in compliance
                               with laws and regulations by
                               defining in writing, as part
                                                                                          X
                               of the written document to
                               be developed in (a) above,
                               and reviewing these
                               activities periodically.




00-AUD-09-52               REPORT ON THE FEDERAL COMMUNICATIONS                                              Page 4
                           COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V                   STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT




        Condition                    Recommendations                Action    Action in    Action in     No specific
                                                                   Complete   Progress    planning or   action planned
                                                                                           planning
                                                                                           complete


                              c)   Assign one or more staff
                                   from the Financial
                                   Operations area that will
                                   acquire or have an in-depth
                                   understanding of USF
                                   operations and who will
                                                                                              X
                                   work in coordination with
                                   Common Carrier Bureau
                                   (CCB) to comprehensively
                                   review financial information
                                   provided by USAC.

                              d) Review monthly financial
                                 reports provided by USAC.
                                 Request additional
                                 information from USAC as
                                                                                 X
                                 necessary to obtain
                                 reasonable assurance that
                                 the financial data is reliable.

                              e)  Segregate USAC financial
                                  information from USF for
                                  financial statement reporting       X
                                  purposes. USAC is not a
                                  FCC reporting entity.
III.                          We recommend the following:
Material Weakness:
                              a)   Ensure that the integrated
Loans Receivable                   credit reform accounting
and Allowance for                  system currently being
Subsidy                            developed is capable of
                                   interfacing with other                        X
FCC does not have an               financial management
effective direct loan              systems.
system to account for all
events in a loan cycle.

                              b) Ensure that the direct loan
                                 system can support the
                                 following functions:
                                                                                 X
                              •    loan extension,
                              •    account servicing,



00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                                                Page 5
                             COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V                   STATUS OF RECOMMENDATIONS FROM
                            PRIOR YEAR FINANCIAL STATEMENT AUDIT




        Condition                    Recommendations               Action    Action in    Action in     No specific
                                                                  Complete   Progress    planning or   action planned
                                                                                          planning
                                                                                          complete


                              •    Treasury cross-servicing,
                              •    portfolio management,
                              •    delinquent debt collection,
                                   and
                              •    other reporting
                                   requirements.

Current FCC subsidiary
ledger system is              c)   Ensure that access to
inadequate and FCC did             subsidiary spreadsheets is
not review the results of          limited to authorized staff.
contractor subsidiary              These employees should be
spreadsheets.                      trained to have adequate
                                   knowledge for use and
                                   review of the spreadsheets.
                                   If an independent public
                                   accounting firm is
                                   responsible for updating the
                                   spreadsheets, FCC
                                   employees should review, at
                                   least monthly, the                           X
                                   configuration settings and
                                   formulas of the spreadsheets
                                   to ensure they were not
                                   changed. In addition, FCC
                                   employees should review
                                   the outputs of the
                                   spreadsheets. Written
                                   policies and procedures
                                   should be developed for the
                                   use and review of the
                                   spreadsheets and related
                                   output.

                              d) Hardcode or lock cells with
                                 formulas in the spreadsheets
                                 to prevent inadvertent or                      X
                                 unintentional changes.

                              e)   Perform monthly
                                   reconciliation of the loans
                                                                                X
                                   general ledger and
                                   subsidiary ledger balances.



00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                                               Page 6
                             COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V                STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT




        Condition                    Recommendations                Action    Action in    Action in     No specific
                                                                   Complete   Progress    planning or   action planned
                                                                                           planning
                                                                                           complete


                              f)   Physically obtain and keep
                                   an official copy of the
                                   spreadsheets updated at
                                   least monthly since the
                                   spreadsheets are the FCC’s
                                   subsidiary ledger system
                                   and are being maintained by                   X
                                   independent public
                                   accounting firm outside of
                                   FCC financial management
                                   systems. A back-up copy
                                   should also be maintained.

FCC encountered               g) Ensure that support for
difficulties in providing        subsidy estimates and
sufficient documentation         reestimates are adequately
and rationale to support a       documented, reviewed, and
change in key cash flow          approved on a timely basis.
assumptions that resulted        Ensure that applicable
in a material downward           documentation listed below
subsidy reestimate.              is available to support
                                 subsidy estimates and
                                 reestimates:

                              •    Cash reports on historical
                                   performance;
                              •    Historical data and trends,
                                   citing sources of
                                   information and relevant                      X
                                   time frame;
                              •    Sensitivity analysis or other
                                   analysis that identifies the
                                   most critical factors;
                              •    Reports from the accounting
                                   or management systems
                                   showing trends;
                              •    Actuarial studies;
                              •    Experience of other
                                   agencies with similar
                                   programs; and
                              •    Economic and/or industry
                                   data and subsequent
                                   analyses, including industry



00-AUD-09-52                 REPORT ON THE FEDERAL COMMUNICATIONS                                                Page 7
                             COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V              STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT




       Condition                    Recommendations                 Action    Action in    Action in     No specific
                                                                   Complete   Progress    planning or   action planned
                                                                                           planning
                                                                                           complete


                                  studies, journal articles,
                                  trade papers, and third party
                                  studies.

                             h) Compare actual cash flows
                                 with projected cash flows
                                 and actual costs of direct
                                 loans with their estimated
                                 costs. The efforts to make
                                 accurate projections should
                                 begin with establishing and
                                                                                 X
                                 using reliable records of
                                 historical credit
                                 performance data, and
                                 should take into
                                 consideration current and
                                 forecasted economic
                                 conditions.
FCC loan files were found    i) Ensure that all loan files are
to be incomplete and             kept up-to-date, have
documents in files were          consistent information, and                     X
inconsistent.                    contain relevant loan
                                 documents.
                             j) Reconcile with all trading
                                 partners, i.e., Department of
                                 the Treasury Financial
                                 Management Service and
                                 Bureau of Public Debt, on a
                                                                                 X
                                 timely and periodic basis.
                                 Obtain and maintain
                                 evidence from trading
                                 partners to support all
                                 transactions.
                             k) Establish effective controls
                                 for transfer of loan data files
                                 to the new loan system, and                     X
                                 ultimately to the loan
                                 servicer, if employed.
IV.                          We recommend the following:
Material Weakness:
                             a)   Establish a comprehensive                                   X
Information                       and integrated security
Technology                        management structure to




00-AUD-09-52                REPORT ON THE FEDERAL COMMUNICATIONS                                                 Page 8
                            COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V                 STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT




        Condition                  Recommendations             Action    Action in    Action in     No specific
                                                              Complete   Progress    planning or   action planned
                                                                                      planning
                                                                                      complete


                                 ensure that FCC’s security
FCC is not in compliance         policy is consistently
with OMB Circular A-130          applied.
Requirement for a
comprehensive security
plan.
                            b) Conduct risk assessments
                               for the FCC networks and                                  X
                               its major applications.
                            c) Develop and implement a
                               FCC-wide security plan as
                               prescribed by OMB Circular                   X
                               A-130.

                            d) Develop and implement
                               security plans for FCC’s
                               major application systems                    X
                               and mission-critical general
                               support systems.
                            e) Certify and accredit FCC’s
                               major applications and
                               mission-critical general
                               support systems, based on                    X
                               the security plans developed
                               and implemented.

                            f) Establish a system to
                               periodically review security
                               controls over FCC’s
                               computer systems in                          X
                               accordance with OMB
                               Circular A-130 Appendix
                               III.
FCC needs improved          g) Strengthen controls over
controls to protect its        access to protect all
                                                                            X
information.                   mainframe and client server
                               based resources.
                            h) Address inadequacies and
                               inconsistencies in the
                                                                            X
                               mainframe and network
                               access request process.
                            i) Require periodic review of                                X




00-AUD-09-52               REPORT ON THE FEDERAL COMMUNICATIONS                                             Page 9
                           COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V                STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT




        Condition                     Recommendations                 Action    Action in    Action in     No specific
                                                                     Complete   Progress    planning or   action planned
                                                                                             planning
                                                                                             complete


                                    user privileges to ensure that
                                    capabilities are in line with
                                    job responsibilities.

                               j) Enhance audit trail facility
                                                                                                X
                                  utilization and review.
FCC needs to accelerate        k) Develop and test
efforts to develop and test       contingency plans for its
its contingency plans.            major applications, network
                                                                                                X
                                  and telecommunications
                                  facilities.

                               l)   Obtain written
                                    documentation from its data
                                    centers of developed and
                                    tested contingency plan, and                                X
                                    participate in the scheduled
                                    tests of the plans.

                               m) FCC management should
                                   immediately develop a
                                   comprehensive contingency
                                   plan that integrates the
                                                                                                X
                                   individual plans of its data
                                   centers, networks and
                                   telecommunications
                                   facilities.
V.                             We recommend the following:
Material Weakness:
                               a) Reconcile the general ledger
Controls Over                     control to subsidiary records
Property, Plant, and              at least monthly for now and                     X
Equipment                         at least quarterly once both
                                  offices are comfortable with
                                  the process and the data.
                               b) Improve coordination and
                                  communication between
                                                                                                X
                                  Financial Operations and
                                  Administrative Operations.
                               c) Review certain expense
                                  accounts (repairs and
                                                                                                X
                                  maintenance, EDP, and
                                  other related accounts)



00-AUD-09-52                  REPORT ON THE FEDERAL COMMUNICATIONS                                                 Page 10
                              COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V         STATUS OF RECOMMENDATIONS FROM
                  PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition            Recommendations                Action    Action in    Action in     No specific
                                                         Complete   Progress    planning or   action planned
                                                                                 planning
                                                                                 complete


                         periodically to ensure that
                         FCC meets FASAB
                         standards for capitalization.

                    d) Ensure that information
                       entered into the current
                       management system is
                       proper and supported by
                       adequate documentation.
                                                                       X
                       Acquisition dates and life of
                       assets should be reviewed to
                       ensure that depreciation is
                       properly calculated.

                    e)   Maintain all copies of
                         supporting documentation in
                         an organized manner and in
                         a centralized location,
                         including documentation
                         from field offices.                           X
                         Supporting documentation
                         should be easily retrievable
                         for management and others’
                         review.

                    f)   Assign a property custodian
                         to each office or bureau,
                         including field offices.
                         Require the property
                         custodian to certify that
                         he/she has read and
                         understood the duties and
                         responsibilities of the
                         position as documented in
                                                                       X
                         the property management
                         policies and procedures.
                         Provide training to property
                         custodians and ensure that
                         the Contracts and
                         Purchasing Center maintain
                         a current list of property
                         custodians at all times. This
                         will reduce the risk that




00-AUD-09-52       REPORT ON THE FEDERAL COMMUNICATIONS                                                Page 11
                   COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V         STATUS OF RECOMMENDATIONS FROM
                  PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition              Recommendations                  Action    Action in    Action in     No specific
                                                             Complete   Progress    planning or   action planned
                                                                                     planning
                                                                                     complete


                           property may not be
                           recorded and tracked in the
                           property management
                           system.

                      g) Perform a complete annual
                         physical inventory until
                         FCC is assured that its
                         property management
                         system has accurate and up-
                                                                X
                         to-date information.
                         Perform the annual physical
                         inventory on a cycle or
                         selective basis only after
                         this assurance is obtained.
                      h) Ensure that the draft
                         Property Management
                         Policies and Procedures
                         manual is complete,
                         facilitates compliance with
                         generally accepted
                         accounting principles, and is
                         issued promptly to provide
                         guidance to FCC staff.                 X
                         Control all updates or
                         changes to the manual by a
                         sequential tracking
                         numbering system and
                         update the entire manual on
                         an annual basis, if
                         necessary.

                      i)   Implement policies and
                           procedures to provide for
                           review and evaluation of
                           deferred maintenance to              X
                           permit proper presentation
                           for financial reporting
                           purposes.
VI.                   We recommend that FCC obtain
Material Weakness:    sufficient evidence to support
                                                                X
                      the amount recorded as a
Unfunded Liability    liability or reverse this liability.




00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                                                  Page 12
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V           STATUS OF RECOMMENDATIONS FROM
                    PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition              Recommendations               Action    Action in    Action in     No specific
                                                          Complete   Progress    planning or   action planned
                                                                                  planning
                                                                                  complete


                      In addition, FCC management
                      should review the validity and
                      accuracy of supporting
                      documentation prior to agreeing
                      to and recording any such
                      liability.

VII.                  We recommend that FCC:
Reportable
                      a)  Formalize its financial and
Condition:                internal control policies and
Lack of Written           procedures in writing.
Internal Control          Design internal controls to
Documentation for         provide reasonable
Financial                 assurance regarding
                          prevention of, or prompt                      X
Operations                detection of unauthorized
                          acquisition, use, or
                          disposition of an agency’s
                          assets. Internal control is a
                          series of actions and
                          activities that occur
                          throughout the operations
                          and on an ongoing basis.
                      b) Physically maintain the
                          written control policies and
                          procedures in a central
                          location within the Office of
                                                                        X
                          the CFO. All changes or
                          updates to the written
                          policies and procedures
                          should be controlled.
                      c) Ensure that FCC employees
                          responsible for internal
                          controls are provided with a
                          copy of the internal control
                                                                        X
                          policies and procedures
                          manual and are
                          knowledgeable of its
                          contents
VIII.                 We recommend the following:
Reportable                                                              X
                      a)   Ensure that the new systems



00-AUD-09-52         REPORT ON THE FEDERAL COMMUNICATIONS                                               Page 13
                     COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V         STATUS OF RECOMMENDATIONS FROM
                  PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition               Recommendations              Action    Action in    Action in     No specific
                                                          Complete   Progress    planning or   action planned
                                                                                  planning
                                                                                  complete


Condition:                  [Revenue Accounting and
Accounts Receivable         Management Information
                            System (RAMIS) and
(Regulatory Fees            Commission Registration
and Application             System (CORES)] address
Processing Fees)            and provide solutions to
                            weaknesses noted in our
                            findings.

                       b) Implement alternative
                          procedures to ensure that all
                          regulatory fees are
                          collected, late fees are
                          assessed, and receivables
                          are accrued while the new
                          systems are not operational.
                          Obtain cooperation and             X
                          assistance from the bureaus
                          in determining the licensees
                          in their databases and
                          compare licensee payment
                          information to the licensee
                          on the databases.

                       c) Increase communication and
                          coordination between
                          Financial Operations and
                          the bureaus. Ensure that
                                                             X
                          authorized bureau staff have
                          at least read only access to
                          financial information
                          relevant to their operations.
                       d) Document and implement
                          procedures for bureaus to
                          review payment of fees
                                                                        X
                          prior to processing an
                          application.

                       e)   Implement procedures to
                            ensure that collections
                            processed by third party         X
                            bank are processed and
                            analyzed by FCC timely.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                                              Page 14
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V         STATUS OF RECOMMENDATIONS FROM
                  PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition               Recommendations                Action    Action in    Action in     No specific
                                                            Complete   Progress    planning or   action planned
                                                                                    planning
                                                                                    complete


                            To facilitate FCC review
                            and analysis, consider
                            modifying the bank’s report
                            to include other relevant
                            information such as date
                            collection is received and
                            date collection is deposited
                            with the Department of the
                            Treasury.

                       f) Ensure that appropriate and
                          valid data are used in
                                                                          X
                          calculating late fee
                          assessments.
IX.                    We recommend that FCC:
Reportable
                       a)   Reconcile accounts payable
Condition:                  and UDO general ledger                        X
Accounts Payable,           control with their subsidiary
Undelivered Orders,         records monthly.
and Net Position
                       b) Ensure that electronic
                          purchase order is complete,
                          including completing the                                                    X
                          “responsible person” prior
                          to its processing.
                       c) Ensure payment sheets are
                          completed and updated
                          timely and perform periodic
                                                               X
                          review and reconciliation of
                          purchase orders and
                          contracts.
                       d) Enforce the obligation
                          certification process and
                          work with Fund Managers
                          to ensure year-end review of
                          contracts and purchases
                          occurs. FCC may consider             X
                          requiring Fund Managers to
                          provide justification for
                          keep old undelivered orders
                          open.




00-AUD-09-52          REPORT ON THE FEDERAL COMMUNICATIONS                                                Page 15
                      COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V          STATUS OF RECOMMENDATIONS FROM
                   PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition             Recommendations                Action    Action in    Action in     No specific
                                                          Complete   Progress    planning or   action planned
                                                                                  planning
                                                                                  complete


                     e)   Ensure that supervisors
                          review supporting
                          documentation for
                          completeness, accuracy, and        X
                          appropriateness before
                          transactions are entered into
                          FFS.
X.                   We recommend that the
Reportable           suspense balance is researched
                     and appropriate correcting
Condition:           entries are made.                                  X
Treasury Fund
Suspense Account
Activity
XI.                  We recommend to:
Reportable
                     a)   Define the process and
Condition:                implement a mechanism for
Performance               identifying, assembling, and
Measurement               analyzing, and reporting
                          performance data. The
                          documented process should
                          include, at a minimum, the                    X
                          staff responsible for
                          preparation and review,
                          formulas, due dates, sources
                          of data, review and analysis
                          methodology, and
                          supervisory verification and
                          report retention.

                     b) Reevaluate performance
                        goals and indicators
                        reported in the strategic plan
                                                             X
                        and ensure that the
                        performance goals are
                        outcome oriented.
                     c) Establish a formal
                        commission-wide system
                        for tracking the indicators
                                                             X
                        such as integrated system
                        databases.




00-AUD-09-52        REPORT ON THE FEDERAL COMMUNICATIONS                                                Page 16
                    COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION V          STATUS OF RECOMMENDATIONS FROM
                   PRIOR YEAR FINANCIAL STATEMENT AUDIT




      Condition             Recommendations               Action    Action in    Action in     No specific
                                                         Complete   Progress    planning or   action planned
                                                                                 planning
                                                                                 complete


                     d) Enhance the communication
                        and coordination among key
                        offices (PERM, CFO,
                                                                       X
                        Budget) responsible for the
                        successful implementation
                        of the GRPA.
XII.                 We recommend to:
Reportable
                     a)   Institute a program for
Condition:                conducting periodic reviews
OMB Circulars             in accordance with OMB                       X
                          Circulars A-127 and A-130.
No. A-127 and A-
130 Reviews
                     b) Include the results of OMB
                          Circulars A-127 and A-130
                          reviews as part of Section 4                 X
                          reporting in FCC’s annual
                          FMFIA report.
XIII.                We recommend that FCC review
Reportable           its procedures in developing its
                     FMFIA report to ensure all
Condition:           material weaknesses for all
                                                                       X
FMFIA                entities for all entities and
                     operations are reported.




00-AUD-09-52        REPORT ON THE FEDERAL COMMUNICATIONS                                               Page 17
                    COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION VI

ACRONYMS
SECTION VI     ACRONYMS




AO                               Administrative Offices
BOC                              Budget Object Code
CCB                              Common Carrier Bureau
CFO Act                          Chief Financial Officers Act of 1990
CG-LLP                           Clifton Gunderson LLP
COOP                             Contingency of Operations Plan
CORES                            Commission Registration System
CSR                              Customer Service Representative
DCIA                             Debt Collection Improvement Act of 1996
FACTS                            Federal Agencies’ Centralized
                                 Trial-Balance System
FASAB                            Federal Accounting
                                 Standards Advisory Board
FCC                              Federal Communications Commission
FCRA                             Federal Credit Reform Act of 1990
FFMIA                            Federal Financial Management
                                 Improvement Act of 1996
FFMSR                            Federal Financial Management
                                 System Requirements
FFS                              Federal Financial System
FIPS                             Federal Information Processing Standards
FMFIA                            Federal Managers’ Financial
                                 Integrity Act of 1982
FMS                              Financial Management Service
FO                               Financial Operations
FRN                              FCC Registration Number
GAO                              Government Accounting Office
GMRA                             Government Management
                                 Reform Act of 1994
GPRA                             Government Performance and
                                 Results Act of 1993
ITC                              Information Technology Center
JFMIP                            Joint Financial Management
                                 Improvement Program
MD&A                             Management’s Discussion and Analysis
NECA                             National Exchange Carrier Association
NIACAP                           National Information Assurance
                                 Certification and Accreditation Process
NIST                             National Institute of
                                 Standards and Technology



00-AUD-09-52   REPORT ON THE FEDERAL COMMUNICATIONS                  Page 1
               COMMISSION’S FY 2000 FINANCIAL STATEMENTS
SECTION VI          ACRONYMS



OGC                                   Office of General Counsel
OIG                                   Office of Inspector General
OMB                                   Office of Management and Budget
OMB Bulletin No. 97-01, as amended    OMB Bulletin No. 97-01, “Form and
                                      Content of Agency Financial Statements”
PERM                                  Performance Evaluation and
                                      Results Management Office
PSG                                   Planning and Support Group
RAMIS                                 Revenue Accounting and
                                      Management Information System
SFFAC                                 Statement of Federal
                                      Financial Accounting Concepts
SFFAS                                 Statement of Federal
                                      Financial Accounting Standards
SGL                                   Standard General Ledger
TROR                                  Treasury’s Report on Receivables
TRS                                   Telecommunication Relay Service Fund
USAC                                  Universal Service Administrative Company
USF                                   Universal Service Fund




00-AUD-09-52        REPORT ON THE FEDERAL COMMUNICATIONS                 Page 2
                    COMMISSION’S FY 2000 FINANCIAL STATEMENTS
